APPENDICES

1a
APPENDIX A
[Filed October 2, 2019]
REVISED October 2, 2019
IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT
---------------No. 19-20223
Summary Calendar
---------------STEPHANIE JONES,
Plaintiff – Appellant
v.
JEREMY EDER, in his individual capacity; J. DALE,
in his individual capacity; B. BAKER, in his
individual capacity; R. NG, in his individual capacity;
FORT BEND COUNTY,
Defendants - Appellees
---------------Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:15-CV-2919
----------------

2a
Before HIGGINBOTHAM, HO, and ENGELHARDT,
Circuit Judges. PER CURIAM:*
On January 31, 2014, Defendant-Appellee
police officer Jeremy Eder led a search of PlaintiffAppellant Stephanie Jones’ home. Eder had a warrant
authorizing officers to search for and seize cocaine and
any illicit contraband, as described in an attached
affidavit. During the search, another officer drew
Eder’s attention to one-and-one-half pills outside of
their prescription containers on Jones’ windowsill.
Eder identified the pills as hydrocodone and
alprazolam (Xanax) through consultation with
representatives of a poison control center. After
learning that, police seized the pills, arrested Jones,
and charged her with two counts of possession of a
controlled substance in a school zone. 1 Unbeknownst
to the officers, Jones had a valid prescription for
hydrocodone, and her father, who lived in the home,
had a valid prescription for Xanax. Although Jones
was indicted by a grand jury, her case was later
dismissed due to insufficient evidence.
Jones filed suit, pursuant to 42 U.S.C. § 1983,
alleging in the operative complaint seven claims
*
Pursuant to 5TH CIR. R. 47.5, the court has
determined that this opinion should not be published and
is not precedent except under the limited circumstances set
forth in 5TH CIR. R. 47.5.4.
In her complaint, Jones alleged the officers also
seized six-hundred dollars in cash from her home; however,
on appeal, Jones neither raises nor briefs this issue.
Accordingly, this claim is waived. See Procter & Gamble Co.
v. Amway Corp., 376 F.3d 496, 499 n.1 (5th Cir. 2004)
(citing FED. R. APP. P. 28(a)(9)(A)).

1

3a
against Eder, three other police officers, and Fort
Bend County. 2 The claims rested on violations of the
Fourth Amendment for unlawful seizure of Jones’
person and property; violations of the Fourteenth
Amendment for failure to protect her rights to privacy
and to be free from unreasonable seizure; and, Fort
Bend County’s failure to train, supervise, and
discipline its officers, see Monell v. Department of
Social Services of the City of New York, 436 U.S. 658
(1978). Defendants filed motions to dismiss for failure
to state a claim. On August 31, 2016, the district court
dismissed the right-to- privacy and failure-to-protect
claims, as well as all claims against Fort Bend
County. 3 Thereafter, Jones filed a motion for leave to
amend her complaint for a second time. The district
court granted leave, and Jones filed her second
amended complaint, reasserting Monell claims
against Fort Bend County. Defendants filed motions
for summary judgment. On March 20, 2018, the
district court granted summary judgment for all
claims against the three other police officers, leaving
only the Fourth Amendment claims against Eder and
the Monell claims against Fort Bend County
remaining. Jones then sought leave to amend her
complaint for a third time. On March 21, 2019, the
district court, after a second round of motions practice,
granted summary judgment on all remaining claims
The three other police officers named as defendants
are Raymond Ng, Joshua Dale, and Bryan Baker.

2

In this order, as well as the other orders and rulings
at issue on appeal, the district court based its decision
largely on the detailed findings and recommendations
submitted by the magistrate judge.

3

4a
against defendants, denied Jones’ motion for leave to
file a third amended complaint, and entered a final
judgment. 4
On appeal, Jones asserts the district court
erred in dismissing her Fourteenth Amendment
claims, granting summary judgment on her remaining
claims, and denying her motion for leave to file a third
amended complaint. We disagree. After thorough
review of the record, we find the district court
committed no reversible error. Accordingly, the
judgment is AFFIRMED, essentially on the basis
carefully
explained
in
the
magistrate’s
recommendations and district court’s orders adopting
them.

Jones also filed a motion for summary judgment,
challenging the constitutionality of Texas Health and
Safety Code § 481.117(a), which criminalizes possession of
a controlled substance without a valid prescription. The
district court denied her motion for summary judgment
and concluded that ruling on such a matter would be
improper and would constitute an advisory opinion. We
agree. Accordingly, the district court’s denial of Jones’
motion for summary judgment is AFFIRMED.

4

5a
APPENDIX B
[Filed March 21, 2019]
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
STEPHANIE JONES,
Plaintiff,
v.
JEREMY EDER, J.
DALE, B. BAKER,
R. NG, and
FORT BEND COUNTY

§
§
§
§
§
§
§
§
§
§

CIVIL ACTION
NO. H-15-2919

MEMORANDUM OPINION AND ORDER
Having reviewed the Magistrate Judge's
Memorandum and Recommendation {Docket Entry
No. 82), Defendant (Jeremy] Eder's Objections to
Magistrate Judge's Report Regarding Defendant
Eder's Motion for Summary Judgment (Docket Entry
No. 83), Plaintiff's Objections to the Honorable
Magistrate's Memorandum and Recommendation
(Docket Entry No. 84), Defendant Eder's Opposition to
Plaintiff's Objections to Magistrate Judge's Report
and Recommendations Regarding Defendant Eder's
Motion for Summary Judgment (Docket Entry No. 85),
and Plaintiff's Reply in Support of Her Objections
(Dkt. 84) to the Honorable Magistrate's Memorandum

6a
and Recommendation (Docket Entry No. 86), the court
is of the opinion that said Memorandum and
Recommendation should be adopted by this court. It
is, therefore, ORDERED that the Memorandum and
Recommendation is ADOPTED by the court.
In her original complaint plaintiff alleged
constitutional claims pursuant to the Fourth and
Fourteenth Amendments, alleging that the officers
unlawfully arrested her and wrongfully seized
currency inside her home. 1 After defendant Jeremy
Eder filed an early motion to dismiss, plaintiff filed an
amended complaint in which she added constitutional
claims that the officers unlawfully seized a
hydrocodone pill, violated her right to privacy, and
failed to protect her and that defendant Fort Bend
County maintained a policy of inadequately training,
supervising, and/or disciplining its officers. 2
After considering defendants' motions to
dismiss, the court dismissed the right-to-privacy and
failure-to-protect claims and dismissed all claims
against defendant Fort Bend County for failure to
state a claim for relief. 3 On August 24, 2016, before
the court's consideration of the objections to the
Memorandum and Recommendation, plaintiff filed a
motion for leave to amend her complaint for a second
1

No. 1.

See Plaintiff's Original Complaint, Docket Entry

See Defendant Eder's Motion to Dismiss Plaintiff's
Claims Due to Plaintiff's Failure to State a Claim for Relief,
Docket Entry No. 7; Plaintiff's First Amended Complaint,
Docket Entry No. 8.
3
See Memorandum and Recommendation, Docket
Entry No. 19; Order Adopting Magistrate Judge's
Memorandum and Recommendation, Docket Entry No. 26,
pp. 15-19.
2

7a
time to add allegations concerning the interpretation
and enforcement of Texas Health and Safety Code §
481.117(a) and to add more specific facts regarding
defendant Fort Bend County's policies. 4 At the time
the court had not entered a docket control order. The
court granted leave, and on October 4, 2016, the court
entered a docket control order that set October 28,
2016, as the deadline for amending pleadings and
adding new parties. 5
On May 22, 2017, plaintiff again sought leave
to amend her complaint to reassert policy claims
against defendant Fort Bend County. 6 The court
denied the motion because plaintiff failed to establish
good cause for amending seven months after the
expiration of the deadline for amendment. 7 After the
issuance of a memorandum recommending dismissal
of all of plaintiff's remaining claims, plaintiff now
seeks to amend her pleading to add an as-applied
constitutional challenge to Texas Health and Safety
Code § 481.117(a). 8 When a scheduling order deadline
has expired, Fed. R. Civ. P. 16(b) governs amendment
of the pleadings. S&W Enterprises, L.L.C. v.
SouthTrust Bank of Alabama, NA, 315 F.3d 533, 536
See Plaintiff's Opposed Motion for Leave to File a
Second Amended Complaint, Docket Entry No. 25.
5
See Order, Docket Entry No. 29; Docket Control
Order, Docket Entry No. 35.
6
See Plaintiff's Opposed Motion for Leave to File an
Amended Complaint, Docket Entry No. 42.
7
See Amended Memorandum, Recommendation, and
Order, Docket Entry No. 62, pp. 17-20.
8
See Plaintiff's Memorandum in Support of Opposed
Motion for Leave to File Amended Pleading, Docket Entry
No. 87.
4

8a
(5th Cir. 2003). Rule 16(b) (4) allows modification of
the scheduling order "only for good cause and with the
judge's consent." Good cause is satisfied upon a
showing of the movant's inability to meet the court's
deadlines “despite the diligence of the party needing
the extension.” Id. at 535 (quoting 6A Charles Alan
Wright, Arthur R. Miller & Edward H. Cooper,
Federal Practice and Procedure § 1522.1 (2d ed. 1990)
Plaintiff has repeatedly sought leave to amend
her complaint. Now, nearly two and one-half years
after the expiration of the deadline to amend, plaintiff
asserts that her proposed amendment is designed to
resolve a presumed pleading deficiency, that is, to add
factual allegations and another cause of action. 9
Plaintiff asserts that good cause warrants the
amendment because neither the defendants nor the
court "ever alleged Plaintiff's pleading suffered from a
defect in form prior to February 11. 10 Because the
court concludes that plaintiff has failed to show good
cause for allowing yet another amendment, Plaintiff's
Memorandum in Support of Opposed Motion for Leave
to File Amended Pleading (Docket Entry
No. 87) is DENIED.
SIGNED at Houston, Texas, on this the 21st
day of March, 2019.
_______[handwritten signature]______
SIM LAKE
UNITED STATES DISTRICT JUDGE
See Plaintiff's Memorandum in Support of Opposed
Motion for Leave to File Amended Pleading, Docket Entry
No. 87, p. 1 ¶ 4.
10
Id. at 3 ¶ 8.
9

9a
APPENDIX C
[Filed February 11, 2019]
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
STEPHANIE JONES,
Plaintiff,
v.
JEREMY EDER, J.
DALE, B. BAKER,
R. NG, and
FORT BEND COUNTY

§
§
§
§
§
§
§
§
§
§

CIVIL ACTION
NO. H-15-2919

MEMORANDUM AND RECOMMENDATION
Pending before the court 1 are: (1) Defendant Fort
Bend County’s (“Fort Bend”) Motion for Summary
Judgment (Doc. 69); (2) Defendant Jeremy Eder’s
(“Eder”) Second Motion for Summary Judgment (Doc.
70); and (3) Plaintiff’s Motion for Summary Judgment
Concerning the Constitutionality of Texas Health and
Safety Code § (“Section”) 481.117(a) (Doc. 71). The
This case was referred to the undersigned magistrate
judge pursuant to 28 U.S.C. § 636(b)(1)(A) and (B), the Cost
and Delay Reduction Plan under the Civil Justice Reform
Act, and Federal Rule of Civil Procedure 72. See Doc. 11,
Ord. Dated Dec. 28, 2015.
1

10a
court has considered the motions, as well as the
respective responses and replies, all other relevant
filings, and the applicable law. For the reasons set
forth below, the court RECOMMENDS that
Defendant Fort Bend’s motion be GRANTED, that
Defendant Eder’s motion be GRANTED, and that
Plaintiff’s motion be DENIED.
I.

Case Background

Plaintiff filed this civil rights action pursuant to 42
U.S.C. § 1983 (“Section 1983”), alleging that four
peace officers violated her constitutional rights when
they arrested her and seized her property during a
search of her home. Following the court’s rulings on
an initial round of motions for summary judgment,
“[t]he claims remaining in this action are Plaintiff’s 42
U.S.C. § 1983 claims against Defendant Eder for
illegally seizing the alprazolam and hydrocodone pills
and for illegally arresting Plaintiff and Plaintiff’s
claims against Defendant Fort Bend for its policies
and/or customs on training, supervising, and
disciplining officers.” 2
A.

Factual Background 3
The four individual defendants originally in

Doc. 67, Ord. Adopting in Part & Reversing in Part
Magis. Judge’s Am. Mem., Recom., & Ord. & Ordering
Add’l Briefing Dated Mar. 20, 2018 p. 4.

2

This account of the events is an edited version of the
factual background in the Amended Memorandum,
Recommendation, and Order dated February 21, 2018. The
court cites summary judgment evidence submitted with the
initial round of motions.

3

11a
this action were members of Defendant Fort Bend’s
Narcotics Task Force (“Task Force”). 4 Defendant
Eder, the only remaining individual defendant, was
assigned to the Task Force by the Rosenberg Police
Department. 5 Defendant Eder reported to the Task
Force that “he had developed reliable information
that Plaintiff’s husband, Sherman McAndrew Jones
[(“Sherman Jones”),] was apparently operating a
crack cocaine sales and distribution business out of
[his and Plaintiff’s] residence,” which was located
within 1,000 feet of an elementary school. 6 On
January 29, 2014, Defendant Eder obtained an
arrest warrant for Sherman Jones and a search
warrant for the residence based on Defendant Eder’s
affidavit detailing an investigation into Sherman
Jones’ illegal activity. 7
The search warrant
See Doc. 38-3, Ex. 3 to Defs. Eder & Raymond Ng’s
(“Ng”) Mot. for Summ. J., Decl. of Def. Eder ¶ 6; Doc. 38-4,
Ex. 4 to Defs. Eder & Ng’s Mot. for Summ. J., Decl. of Def.
Ng ¶ 5; Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 5; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 5.
4

Doc. 39-1, Ex. 1 to Defs. Brian Baker (“Baker”) &
Dale’s Mot. for Summ. J., Aff. of Def. Josh Dale (“Dale”) ¶
6; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for Summ.
J., Aff. of Def. Baker ¶ 6.

5

Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 12; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 12.
6

See Doc. 38-3, Ex. 3, to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 5; Doc. 38-6, Ex. 6 to Defs.
Eder & Ng’s Mot. for Summ. J., Warrant & Aff. in Support
of Warrant; Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot.
for Summ. J., Aff. of Def. Dale ¶ 13; Doc. 39-2, Ex. 2 to Defs.
7

12a
authorized entry into the residence without
knocking or announcing the officers’ purpose in order
to search for “illicit contraband, namely Cocaine,
and any illicit contraband, as described in
said affidavit.” 8
In the supporting affidavit,
Defendant Eder identified “Cocaine” as the only drug
targeted in the search. 9
On January 31, 2014, the Task Force, in
coordination with Defendant Fort Bend’s Regional
SWAT (Special Weapons and Tactics) team,
executed the search and arrest warrants. 10
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 13.
Doc. 38-6, Ex. 6 to Defs. Eder & Ng’s Mot. for Summ.
J., Warrant; see also Doc. 39-1, Ex. 1 to Defs. Baker &
Dale’s Mot. for Summ. J., Aff. of Def. Dale ¶¶ 13-14; Doc.
39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Baker ¶¶ 13-14; cf. Doc. 30, Pl.’s 2 Am. Compl. p. 7
(stating that a county district court issued the warrant that
allowed a search for “illicit items (including Cocaine)” and
“other specific items”); Doc. 32, Defs. Baker & Dale’s Ans.
to Pl.’s 2 Am. Compl. pp. 11-12 (admitting that the warrant
allowed a search for “illicit items (including Cocaine)” and
“other specific items” but denying that the other items were
not relevant to Plaintiff’s arrest as alleged in Plaintiff’s
amended complaint); Doc. 33, Defs. Eder & Ng’s Ans. to
Pl.’s 2d Am. Compl. pp. 3-4 (admitting that the warrant
allowed a search for “contraband and illegal drugs”).

8

Doc. 38-6, Ex. 6 to Defs. Eder & Ng’s Mot. for Summ.
J., Def. Eder’s Aff. in Support of Warrant pp. 3-4.

9

See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 6; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 5; Doc.
39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Dale ¶¶ 14-15; Doc. 39-2, Ex. 2 to Defs. Baker &
Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 15.
10

13a
Defendant Eder was in charge of the operational
aspects of the investigation into Sherman Jones and
“led the execution of a search warrant upon
Plaintiff’s residence.” 11 The officers escorted Plaintiff
outside the residence where she remained
throughout the search. 12
During the search, Detective M. Hammons
(“Hammons”), a nonparty to this lawsuit, found one
and one-half pills in a small dish on a windowsill in
a bedroom where Plaintiff and her husband slept. 13
Defendant Eder consulted with representatives of a
poison control center to confirm that the partial pill
was alprazolam and the whole pill was
hydrocodone. 14 One of the nonparty Task Force
members “seized and collected all narcotic evidence”
ostensibly “under the authority of the search
warrant,” including the alprazolam and hydrocodone
Doc. 30, Pl.’s 2d Am. Compl. p. 1; see also Doc. 32,
Defs. Baker & Dale’s Ans. to Pl.’s 2d Am. Compl. p. 8; Doc.
33, Defs. Eder & Ng’s Ans. to Pl.’s 2d Am. Compl. p. 2; Doc.
39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Dale ¶¶ 8, 19; Doc. 39-2, Ex. 2 to Defs. Baker &
Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶¶ 8, 19.

11

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. pp. 34, 35; Doc. 41-1, Ex. A to Pl.’s
Consol. Resp. to Def. Officers’ Mots. for Summ. J., Dep. of
Pl. pp. 21, 107.
12

See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 6; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 6; Doc.
39-3, Ex. 3-B-3 to Defs. Baker & Dale’s Mot. for Summ. J.,
Photograph.
13

See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 7.
14

14a
tablets. 15 Defendants Eder and Raymond Ng
(“Ng”) also searched the residence for labels or pill
containers for the pills but found none. 16 In addition
to the alprazolam and hydrocodone pills, the officers
discovered, among other items, a digital scale, a
police radio, cell phones, miscellaneous papers, and
a glass beaker. 17
At the scene, no officer asked Plaintiff whether
the alprazolam and hydrocodone pills belonged to
her or someone else, inquired whether anyone
possessed a prescription for the pills, or even
mentioned the pills to her at all. 18 Plaintiff asked
why she and Sherman Jones were outside during the
search and what was happening, but Defendant
Eder responded that she “needed to be quiet and let
Defendant Eder alone made
them do their job.” 19
Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 27; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 27.
15

See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 7; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 7.
16

See Doc. 38-6, Ex. 6 to Defs. Eder & Ng’s Mot. for
Summ. J., Search Warrant Return & Inventory; Doc. 39-1,
Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def.
Dale ¶ 33; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Baker ¶ 33.
17

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. Of Pl. p. 37; Doc. 41-1, Ex. A to Pl.’s Consol.
Resp. to Def. Officers’ Mots. for Summ. J., Dep. of Pl. p. 107;
Doc. 41-6, Ex. F to Pl.’s Consol. Resp. to Def. Officers’ Mots.
for Summ. J., Decl. of Pl. p. 1.
18

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. 19 pp. 35-37.

19

15a
the decision to arrest and effectuated the arrest of
Plaintiff for jointly possessing the alprazolam and
hydrocodone pills. 20 No officer notified Plaintiff of
the charge on which she was being arrested. 21
A grand jury was empaneled to hear the
evidence against Plaintiff on the charge of possession
of a controlled substance in Penalty Group 3 in a drugfree zone. 22 Neither Plaintiff nor Defendant Eder
appeared before the grand jury. 23 At the time of the
Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for Summ.
J., Decl. of Def. Eder ¶ 12; see also Doc. 30, Pl.’s 2d Am.
Compl. p. 8 (stating that she was “charged with two counts
of possession of a controlled substance in a school zone”);
Doc. 38-4, Ex. 4 to Defs. Eder & Ng’s Mot. for Summ. J.,
Decl. of Def. Ng ¶ 11 (stating that Defendant Eder made
the decision to arrest Plaintiff); Doc. 38-5, Ex. 5 to Defs.
Eder & Ng’s Mot. for Summ. J., Indictment (listing charge
as “POSS CS PG 3 <28G DRUG FREE”); Doc. 39-1, Ex. 1
to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def. Dale
¶ 34 (stating that Defendant Eder made the decision to
arrest Plaintiff for joint possession); Doc. 39-2, Ex. 2 to
Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker
¶ 34 (stating that Defendant Eder made the decision to
arrest Plaintiff for joint possession).

20

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. p. 37; Doc. 41-6, Ex. F to Pl.’s Consol. Resp.
to Def. Officers’ Mots. for Summ. J., Decl. of Pl. p. 1.

21

See Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for
Summ. J., Indictment (listing charge as “POSS CS PG 3
<28G DRUG FREE”).
22

See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 10; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 9; Doc.
38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ. J., Dep. of
Pl. p. 108; Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
23

16a
grand jury hearing, Plaintiff had not provided her
attorney with the label from the original container for
either pill found in her home, and Defendant Eder did
not know that she was claiming that she had a
prescription for hydrocodone and her father had a
prescription for alprazolam. 24 On February 17, 2014,
the grand jury returned a true bill finding probable
cause for the felony charge that Plaintiff “knowingly
and intentionally possess[ed] a controlled substance”
within 1,000 feet of an elementary school. 25 On
October 20, 2014, the presiding judge dismissed the
charges against Plaintiff on the prosecutor’s motions
for lack of evidence to prove the case beyond a
reasonable doubt. 26 A handwritten notation on the
Summ. J., Aff. of Def. Dale ¶ 38; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 38.
Doc. 38-1, Ex. 1 to Defs. Eder & Ng’s Mot. for Summ.
J., Pl.’s Resps. to Defs. Eder & Ng’s Reqs. for Admiss. No.
18; see also Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 11; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 10; Doc.
39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Dale ¶ 39; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s
Mot. for Summ. J., Aff. of Def. Baker ¶ 39.
24

Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for Summ.
J., Indictments; see also Doc. 38-3, Ex. 3 to Defs. Eder &
Ng’s Mot. for Summ. J., Decl. of Def. Eder ¶ 10; Doc. 39-1,
Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def.
Dale ¶ 38; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Baker ¶ 38.
25

Doc. 38-5. Ex. 5 to Defs. Eder & Ng’s Mot. For
Summ. J., Mots. To Dismiss & Ords. Of Dismissal; see also
Doc. 30, Pl.’s 2d Am. Compl. p. 9; Doc. 32, Defs. Baker &
Dale’s Ans. To Pl.’s 2d Am. Compl. P. 13; Doc. 33, Defs.
Eder & Ng’s Ans. to Pl.’s 2d Am. Compl. P. 4.
26

17a
motions stated “INSUFF LINKS BETWEEN
DEFENDANT AND DRUGS.” 27
Plaintiff testified that she did not learn that the
alprazolam and hydrocodone pills served as the basis
for her arrest until she read the indictment. 28 Plaintiff
also testified that she possessed a valid prescription
for the hydrocodone and that her father possessed a
valid prescription for the alprazolam. 29 Plaintiff
represented that she had given the alprazolam
prescription and the prescription bottles for both
alprazolam and hydrocodone to her criminal defense
attorney but, as of the date of her deposition, had not
attempted to have them returned to her. 30
In discovery for this case, Plaintiff produced a
prescription for Lortab (a narcotic pain reliever
containing hydrocodone and acetaminophen), which
was prescribed for pain associated with a facial
abscess in January 13, 2013, and which provided for
fifteen pills with no refills. 31 Plaintiff also produced a
Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for Summ.
J., Mots. to Dismiss & Ords. of Dismissal.

27

Doc. 41-1, Ex. A to Pl.’s Consol. Resp. to Def.
Officers’ Mots. for Summ. J., Dep. of Pl. p. 107.

28

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. pp. 10-20; Doc. 41-1, Ex. A to Pl.’s Consol.
Resp. to Def. Officers’ Mots. for Summ. J., Dep. of Pl. p. 9;
see also Doc. 41-2, Ex. B to Pl.’s Consol. Resp. to Def.
Officers’ Mots. for Summ. J., Prescription; Doc. 41-3, Ex. C
to Pl.’s Consol. Resp. to Def. Officers’ Mots. for Summ. J.,
Progress Note Dated May 16, 2013.
29

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. pp. 12-15, 20-21.

30

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. Of Pl. pp. 83-84 (describing her medical
31

18a
medical note pertaining to James Jackson’s visit to an
emergency room on May 16, 2013. 32 The note included
a prescription for Xanax (brand name for alprazolam)
to be taken once or twice per day as needed. 33 The
prescription was for sixty pills with no refill. 34
Plaintiff testified that her father occasionally lived in
the residence, and, when he did, he stayed in her sons’
room. 35
B.

Procedural Background

Plaintiff filed her complaint on October 5, 2015,
alleging unreasonable seizures of her person and
property (pills and currency) in violation of the Fourth
and Fourteenth Amendments to the United States
Constitution. 36 On July 19, 2016, the court entered a
memorandum and recommendation on three motions
to dismiss. 37
In the Memorandum and Recommendation, the

issue as an ear infection); Doc. 41-2, Ex. B to Pl.’s Consol.
Resp. to Def. Officers’ Mots. for Summ. J., Prescription;
Doc. 41-8, Ex. H to Pl.’s Consol. Resp. to Def. Officers’ Mots.
for Summ. J., After Care Instructions p. 2.
See Doc. 41-3, Ex. C to Pl.’s Consol. Resp. to Def.
Officers’ Mots. for Summ. J., Progress Note Dated May 16,
2013.
32

33

See id.

34

See id.

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. pp. 25-27, 70-71.
36
See Doc. 1, Pl.’s Compl.
35

37

See Doc. 19, Mem. & Recom. Dated July 19, 2016.

19a
court made legal findings of continuing importance. 38
One is that the warrant did not authorize the seizure
of the alprazolam and hydrocodone pills. 39 The court
also determined that alprazolam and hydrocodone are
included in Penalty Group 3 and are covered by
Section 481.117(a), 40 which states:
Except as authorized by this chapter, a
person commits an offense
if the
person knowingly or intentionally
possesses a controlled substance listed
in Penalty Group 3, unless the person
obtains the substance directly from or
under a valid prescription or order of a
practitioner acting in the course of
professional practice.
The court interpreted the statute to mean that
“possession of a controlled substance via a
prescription is not a crime; it is the possession of a
controlled substance in the absence of a prescription
that is proscribed by the statute.” 41 The court
therefore concluded that the absence of a prescription
is an element of the crime, not “an affirmative defense
that may be disregarded when an officer is assessing
the legality of possessing one hydrocodone pill found
on a nightstand in that person’s residence.” 42 On
38

See id. pp. 11-15

39

See id. pp. 11-12.

40

See id. p. 12.

Id. p. 15 (citing Section 481.117 and Burnett v.
Texas, 488 S.W.3d 13, 920 (Tex. App.—Eastland 2016)).
41

42

Id. p. 15.

20a
August 31, 2016, the district judge adopted the
Memorandum and Recommendation over objections. 43
On September 16, 2016, the court granted
Plaintiff leave to amend. 44
After amendment,
Plaintiff’s pleading raised claims against Defendant
Fort Bend for county liability in connection with the
following causes of action: (1) Fourth Amendment
unreasonable seizure of her person (count 1); and
(2) Fourth Amendment unreasonable seizure of her
property (count 2). 45 With regard to these claims,
Plaintiff alleged that Defendant Fort Bend had “a
policy, procedure, custom, practice, or protocol of
inadequately
training,
supervising,
and/or
disciplining its officers” and could be expected to
violate Fourth Amendment rights by taking:
the unconstitutional official position
that its officers need not establish the
sine qua non of a criminal offense (in
this case, the lack of a prescription);
instead, Defendants unconstitutionally
believe that said element is an
affirmative defense which may be
disregarded by officers in the field when
they seek to determine probable
cause. 46
Plaintiff asserted that Defendant Fort Bend “created
an extremely high risk that constitutional violations
43

See Doc. 26, Ord. Dated Aug. 31, 2016.

44

See Doc. 29, Ord. Dated Sept. 16, 2016.

45

See Doc. 30, Pl.’s Second Am. Compl. pp. 31-34.
Id. pp. 31-32 (emphasis omitted).

46

21a
would ensue from its failures to inform its peace
officers ... of their relevant constitutional duties.” 47 At
that time, Defendant Fort Bend did not file an answer
to Plaintiff’s Second Amended Complaint.
On April 21, 2017, Defendants Eder and
Raymond Ng (“Ng”) jointly filed a motion for summary
judgment, as did Defendants Brian Baker (“Baker”)
and Josh Dale (“Dale”). 48 The court entered a
Memorandum, Recommendation, and Order on
January 8, 2018, and, on February 21, 2018, amended
the Memorandum, Recommendation, and Order to
address a new legal theory that Defendant Eder
raised in his objections. 49
On March 20, 2018, the district judge adopted
in part and reversed in part the Amended
Memorandum, Recommendation, and Order. 50 The
court allowed the parties to submit a final round of
motion practice limited to twenty-five or fewer pages
and the following topics: (1) Defendant Eder on
“qualified immunity, paying particular attention to . .
. the application of Arizona v. Hicks, [480 U.S. 321]
(1987), and the effects of an illegal seizure on the
legality of the subsequent arrest;” (2) Defendant Fort
47

Id. p. 34.

See Doc. 38, Defs. Eder & Ng’s Mot. for Summ. J.;
Doc. 39, Defs. Baker & Dale’s Mot. for Summ. J.
48

See Doc. 52, Mem., Recom., & Ord. Dated Jan. 8,
2018; Doc. 62, Am. Mem., Recom., & Ord. Dated Feb. 21,
2018.
49

See Doc. 67, Ord. Adopting in Part & Reversing in
Part Magis. Judge’s Am. Mem., Recom., & Ord. & Ordering
Add’l Briefing Dated Mar. 20, 2018.
50

22a
Bend “on its liability, paying particular attention to
Defendant Eder’s membership in Defendant Fort
Bend[’s] . . . Narcotics Task Force;” and (3) Plaintiff
“on the constitutionality of [Section] 481.117(a), as
applied.” 51 The parties timely filed their motions for
summary judgment on April 9, 2018. 52
II.

Summary Judgment Standard

Summary judgment is warranted when the
evidence reveals that no genuine dispute exists
regarding any material fact and the moving party is
entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(a); Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986); Stauffer v. Gearhart, 741 F.3d 574, 581 (5th

Cir. 2014). A material fact is a fact that is identified
by applicable substantive law as critical to the
outcome of the suit. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986); Ameristar Jet Charter, Inc.
v. Signal Composites, Inc., 271 F.3d 624, 626 (5th Cir.
2001). To be genuine, the dispute regarding a material
fact must be supported by evidence such that a
reasonable jury could resolve the issue in favor of
either party. See Royal v. CCC & R Tres Arboles,
L.L.C., 736 F.3d 396, 400 (5th Cir. 2013) (quoting
Anderson, 477 U.S. at 248.
The movant must inform the court of the basis
for the summary judgment motion and must point to
51

Id. pp. 4-5.

See Doc. 69, Def. Fort Bend’s Mot. for Summ. J.;
Doc. 70, Def. Eder’s 2d Mot. for Summ. J.; Doc. 71, Pl.’s
Mot. for Summ. J. Concerning the Constitutionality of
Section 481.117(a).
52

23a
relevant excerpts from pleadings, depositions,
answers to interrogatories, admissions, or affidavits
that demonstrate the absence of genuine factual
issues. Celotex Corp., 477 U.S. at 323; Topalian v.
Ehrman, 954 F.2d 1125, 1131 (5th Cir. 1992). If the
movant carries its burden, the nonmovant may not
rest on the allegations or denials in the pleading but
must respond with evidence showing a genuine
factual dispute. Stauffer, 741 F.3d at 581 (citing
th

Hathaway v. Bazany, 507 F.3d 312, 319 (5
2007)).
III.

Cir.

Defendants’ Motions for Summary
Judgment

The parties’ pending motions address three
distinct topics. The court finds that the best approach
is to address Plaintiff’s contention that the state
statute upon which her arrest was based is
unconstitutional as applied before turning to
Defendant Eder’s motion on qualified immunity and
Defendant Fort Bend’s motion on county liability.
A.

Constitutionality As Applied

An as-applied constitutional challenge asserts
that, even though the statute is constitutional on its
face, its application to the challenger was/is
unconstitutional in the circumstances at issue. Cf.
Catholic Leadership Coalition of Tex. v. Reisman, 764
F.3d 409, 425-26 (5th Cir. 2014)(quoting Doe v. Reed,
561 U.S. 186, 194 (2010)(differentiating as-applied
and facial constitutional challenges by whether “the
claim and the relief that would follow” are limited to

24a
the particular circumstances of the challenger or
extend beyond the challenger). If the “claim and relief
that would follow . . . reach beyond the particular
circumstances of [the] plaintiffs[,] . . . [t]hey must . . .
satisfy our standards for a facial challenge to the
extent of that reach.” Doe, 561 U.S. at 194 (applying
this rule to find that plaintiffs who sought “an
injunction barring the secretary of state ‘from making
referendum petitions available to the public’” asserted
a facial challenge, not
an as-applied challenge);
see also Catholic Leadership Coalition of Tex., 764
F.3d at 426 (quoting Doe, 561 U.S. at 194). In her live
pleading, Plaintiff made no claim that Section
481.117(a) is unconstitutional, as applied or on its
face. In fact, Plaintiff did not mention that statute or
any other specific Texas statute. Plaintiff asserted
only that “[n]o Texas statute even arguably
authorized Defendants to arrest Plaintiff for her
conduct.” 53 In addition to asserting that she
committed no crime, Plaintiff alleged that Defendant
Eder’s arrest was not constitutional because it was not
supported by probable cause to believe she had
committed a crime and that Defendant Fort Bend
permitted its officers to make arrests inside homes
without first discerning whether the possession of
controlled substances was supported by a
prescription. In other words, Plaintiff focused on
Defendants’ application of the statute as inconsistent
with its plain language and violative of her Fourth
Amendment rights, 54 not on any inherent aspect of the
53

Doc. 30, Pl.’s 2d Am. Compl. p. 10.

54

Plaintiff confirms this position in her motion. See
71, Pl.’s Mot. for Summ. Concerning the

Doc.

25a
statute that lent itself to unconstitutional operation
as
to
Plaintiff’s
particular
circumstances.
Additionally, the relief Plaintiff sought in her live
pleading consists of monetary damages, not injunctive
or declaratory relief that could remedy the
unconstitutional application of the statute.
Plaintiff’s motion also fails to meet the
substantive requirements of an as-applied challenge.
In support of Plaintiff’s position that Section
481.117(a) is unconstitutional as applied, Plaintiff
offers the following arguments: (1) “it allows officers
to impermissibly utilize their discretion and to
conduct warrantless arrests for possession of
substances which the People are permitted to
possess;” (2) “it is vague;” (3) “it is preempted by
federal law;” and (4) “it violates the Interstate
Commerce Clause.” 55
These are not as-applied
challenges because they reach beyond Plaintiff’s own
circumstances. Although Plaintiff discusses the facts
of her case at points in her motion, she also speaks for
the “People,” stating, for example, that: (1) the statute
“does not provide any notice that the People are
subject to arrest even when they obtain the substance
via a valid prescription or that governmental agents
can ignore the existence of a prescription[;]” and (2)
“persons of ordinary intelligence have no idea that
they can be arrested in their homes for possessing
Constitutionality of Section 481.117(a) J. p. 4 (“Defendants’
application violates the Fourth Amendment because it
subjects the People to unreasonable arrests without a
warrant anywhere at any time despite the fact that they
have committed no crime.”)
55
Id. at pp. 3-5, 7 (emphasis omitted).

26a
controlled substances even
prescriptions therefor.” 56

when

they

have

Having given this issue and the parties’
arguments much consideration, the court finds that,
regardless of whether Plaintiff’s challenge to the
statute falls under the as-applied or facial category, 57
a ruling on the issue would not give Plaintiff the relief
she seeks. Based on the allegations in her pleading,
the remedy available to Plaintiff, if successful, is civil
damages based on her allegations that Defendant
Eder violated her Fourth Amendment right by
arresting her without probable cause and that
Defendant Fort Bend tolerated an unconstitutional
custom of allowing officers to arrest individuals for
possession of controlled substances with or without a
legal prescription. For the court to venture into the
constitutionality of Section 481.117(a) would stretch
its rulings to matters not properly before the court and
would constitute an advisory opinion. This, the court
should not do.
B.

Qualified Immunity

In order to prevail on a claim under Section
1983, a plaintiff must establish that the defendant
deprived the plaintiff of her constitutional rights
while acting under the color of state law. Moody v.
Farrell, 868 F.3d 348, 351 (5th Cir. 2017).
56

Id. at pp. 4-5.

Plaintiff expressly does not assert a facial challenge
to Section 481.117(a). See id. p. 4 (referring to “the facial
validity and clarity of said statute”).
57

27a
Government officials have qualified immunity from
Section 1983 “liability for civil damages insofar as
their conduct does not violate clearly established
statutory or constitutional rights of which a
reasonable person would have known.” Pearson v.
Callahan, 555 U.S. 223, 231 (2009)(quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982)). Qualified
immunity protects an officer even for reasonable
mistakes in judgment. See id. (quoting Groh v.
Ramirez, 540 U.S. 551, 567 (2004)) (“The protection of
qualified immunity applies regardless of whether the
government official’s error is ‘a mistake of law, a
mistake of fact, or a mistake based on mixed questions
of law and fact.’”); Ashcroft v. al-Kidd, 563 U.S. 731,
743 (2011)(“Qualified immunity gives government
officials breathing room to make reasonable but
mistaken judgments about open legal questions.”).
By invoking qualified immunity, a summary
judgment movant shifts the burden to the nonmovant
to rebut the movant’s assertion. Cantrell v. City of
Murphy, 666 F.3d 911, 918 (5th Cir. 2012). In order to
overcome an assertion of qualified immunity, a
plaintiff must produce evidence that the alleged
conduct violated a statutory or constitutional right
and that the right was clearly established at the time
of the challenged conduct. See Morgan v. Swanson,
659 F.3d 359, 371 (5th Cir. 2011). The Supreme Court
held that the order in which these two considerations
are addressed is at the court’s discretion. See Pearson,
555 U.S. 236-42.
Plaintiff’s remaining claims of unreasonable
seizures of person and property arise pursuant to the
protections of the Fourth Amendment. The Fourth

28a
Amendment, 58 applied to state actors through the
Fourteenth Amendment, protects “[t]he right of the
people to be secure in their persons, houses, papers,
and effects[] against unreasonable searches and
seizures.”
U.S. Const. amend. IV. Reasonableness
is the ultimate measure of the constitutionality of a
seizure of person or property. See Trent v. Wade, 776
F.3d 368, 377 (5th Cir. 2015)(quoting Fernandez v.
California, 571 U.S. 292, 298, 134 S.Ct. 1126, 1132
(2014)).
A warrantless arrest must be supported by
“probable cause to believe that a criminal offense has
been or is being committed.” Devenpeck v. Alford, 543
U.S. 146, 152 (2004). The standard for the existence of
probable cause is an objective one requiring that the
officer draw a reasonable conclusion from the facts
available to him at the time of the arrest. Id.
A warrantless seizure of evidence in plain view
is reasonable when the officer is legally in the location
from which he viewed the item seized and the
“incriminating nature of the item [is] ‘immediately
apparent.’” United States v. Turner, 839 F.3d 429,

58

The full text of the Fourth Amendment is:
The right of the people to be secure in
their persons, houses, papers, and
effects, against unreasonable searches
and seizures, shall not be violated, and no
Warrants shall issue, but upon probable
cause, supported by Oath or affirmation,
and particularly describing the place to
be searched, and the persons or things to
be seized.

29a
433 (5th Cir. 2016)(quoting Horton v. California, 496
U.S. 128, 136 (1990), & Hicks, 480 U.S. at 326). “The
incriminating nature of an item is immediately
apparent if the officers have probable cause to believe
that the item is either evidence of a crime or
contraband.” Id. (quoting United States v. Buchanan,
70 F.3d 818, 826 (5th Cir. 1995)). Probable cause as it
relates to seizure of evidence requires that the officer
determine the existence of a “practical, nontechnical
probability that incriminating evidence is involved.”
Id. (quoting United States v. Espinoza, 826 F.2d 317,
319 (5th Cir. 1987))
Turning to the specific issues raised in this
round of motions, the court has reconsidered the
application of Threlkeld v. Texas, 558 S.W.2d 472
(Tex. Ct. Crim. Appeals 1977), in light of the parties’
recent briefing. Unfortunately for Plaintiff, the court
does not change the ruling articulated in the Amended
Memorandum,
Recommendation,
and
Order.
Threlkeld held
Prior to the enactment of the
Controlled Substances Act [the]
argument [that possession under the
provision was “not illegal per se but
becomes illegal only when not obtained
directly from, or pursuant to, a valid
prescription of a practitioner”] would
have been well taken. The traditional
rule upon which appellant relies,
however, is no longer applicable to
indictments charging possession of
controlled
substances.
[Section
481.184(a)’s predecessor] expressly
removed the burden of negating in an

30a
indictment
any
exemptions
or
exceptions under the act and placed the
burden of going forward with the
evidence with respect to such
exemptions or exceptions upon the
defendant.
Id. at 473.
In this round of briefing Plaintiff again failed to
bring any more recent case to the court’s attention
that called into question this holding. On the other
hand, Defendant Eder pointed the court to cases that
followed Threlkeld. See, e.g., Dowden v. Texas, 455
S.W.3d 252, 255 (Tex. App.—Fort Worth 2015, no
pet.)(following Threlkeld) Moore v. Texas, Nos. 12-1300041-CR, 12-13-00042-CR, 2014
WL 2521537,
at *2 (Tex. App.—Tyler May 30, 2014,
pet.
ref’d)
(unpublished)(same); Francois v. Texas, No. 14-9700419-CR, 1998 WL 148333, at *3 (Tex. App.—
Houston
[14th
Dist.]
Apr.
2,
1998,
no
pet.)(unpublished)(same). The Dowden opinion leaves
no question that this court’s prior interpretation of
Section 481.117(a) was against precedent. 59 There,
In the original Memorandum, Recommendation,
and Order on the summary judgment motions, the court
pointed out that it had previously interpreted Section
481.117(a) as prohibiting possession of a controlled
substance without a prescription, not as merely prohibiting
the possession of the controlled substance. See Doc. 52,
Mem., Recom., & Ord. Dated Jan. 8, 2018 p. 12. The court’s
interpretation implicitly held that the possession of a
prescription was not an exemption or an exception but,
rather, the lack of a prescription was an element of the
59

31a
the court stated, “But the lack of a valid prescription
or order is not an element of the offense that the State
must prove; it is an exception that the defendant has
the burden to present evidence on.” Dowden, 455
S.W.3d at 255 (addressing Section 481.116(a), which
uses the same language as Section 481.117(a) in
proscribing possession of Group 2 controlled
substances). It is not this court’s place to question
state appellate courts’ construction of their state law.
As possession alone was sufficient to give rise
to probable cause that Plaintiff violated Section
481.117(a), it is immaterial that Defendant Eder
lacked any information that could have given him
reason to believe that Plaintiff did not have valid
prescriptions for the pills. Plaintiff has not raised a
fact issue concerning whether Defendant Eder had
reason to believe that Plaintiff possessed the pills.
Their location alone gave rise to probable cause that
she constructively possessed them.
In her objections to the court’s Amended
Memorandum, Recommendation, and Order, Plaintiff
raised another issue. Finding the facts here analogous
to those under consideration in Hicks, Plaintiff
argued:
Here, police officers saw two pills in plain view.
One of the Defendants called poison control in
an attempt to identify the pills. After learning
what they were, he seized the items and
arrested Plaintiff. Plaintiff was subsequently
indicted.

crime.

32a
Plaintiff respectfully avers the absence of
evidence tending to demonstrate probable
cause to arrest Plaintiff for objects in plain view
is aptly demonstrated by his call to poison
control.
Additionally, if Defendants believed they might
have discovered evidence of a crime but
recognized they needed to take additional steps
before they could conduct a warrantless arrest,
the Fourth Amendment prohibited arrest
because they had to conduct an investigation
that was separate and apart from the warrant.
In other words, Defendants’ warrant for cocaine
was not even arguably a license to investigate a
completely unrelated alleged crime inside
Plaintiff’s home where Defendants themselves
had no evidence that the conduct in question
was a crime. Here, there is no procedural
safeguard once police entered Plaintiff’s home;
instead, Defendants impermissibly utilized
their discretion.
As a result, they are not
entitled to qualified immunity. 60
The court ordered Defendant Eder to pay
particular attention, in his final motion for summary
judgment, to the application of Hicks and the effects
of an illegal seizure on the legality of the ensuing
arrest. Apparently while contemplating the issue,
Defendant Eder recalled additional details about the
Doc. 65, Pl.’s Objs. to the Am. Mem., Recom., & Ord.
pp. 8-9 (footnotes omitted).

60

33a
incident. In connection with his motion, he provides
additional testimony in support of the new legal
theory that his search and seizure of the pills fell
within the authority granted by the cocaine search
warrant. He submits the following previously
undisclosed insight into his actions:
3.
I had no reason to believe any
other controlled substances were
inside the residence and I did not
anticipate finding other illegal drugs
there. During that limited search for
cocaine and the other items
specifically identified in the warrant,
Detective M. Hammons directed my
attention to two pills in open view on
a window sill adjacent to the bed we
found Stephanie Jones occupying in
her bedroom. I knew from my training
and experience as a narcotics
investigator that cocaine can be
packaged in pill form and I considered
that one or both pills could be cocaine.
4.
Without closer inspection of
these pills, I could not determine if
they were cocaine, but it was
immediately apparent to me the pills
were either controlled substances,
possibly cocaine, or dangerous drugs;
both of which are illicit contraband. I
had been trained that both controlled
substances and dangerous drugs are
illegal to possess in the circumstances
I found these two pills so probable

34a
cause
supported
my
search,
specifically by further inspecting the
pills I observed in open view. I was
unable to determine the pills were not
cocaine until after I discovered the
pills were controlled substances
hydrocodone and alprazolam, through
consultation by telephone with
representatives of a poison control
center.
5. I inadvertently discovered the
controlled substances hydrocodone
and alprazolam while performing a
search for cocaine authorized by the
search warrant. I did not perform a
separate search for any controlled
substance other than cocaine. At the
moment I discovered these two pills
were not cocaine, I knew they were
the
controlled
substances
hydrocodone and alprazolam. Since
the pills were controlled substances
that [Plaintiff] apparently possessed
illegally, I believed probabl[e] cause
existed for me to seize the controlled
substances.
6. I understood the search warrant
to authorize me to search the pills to
determine whether they were
cocaine. At the same time I
discovered the pills were not cocaine,
it was immediately apparent to me,
without any further search or
inspection, that the pills were the

35a
controlled substances hydrocodone
and alprazolam. The pills were not in
a pill bottle and I found no pill bottle
label that matched the hydrocodone
and alprazolam, or which showed for
whom the controlled substances were
prescribed. I had been trained that I
had legal authority to seize the
controlled substances under the plain
view doctrine enunciated by the
United States Supreme Court. 61
Although the court appreciates Defendant
Eder’s newly offered revelations on his state of mind,
they strain credulity as they were not raised in the
intervening years since the lawsuit was filed even
though they relate closely to issues addressed by the
court more than once. In addressing the motions to
dismiss nearly three years ago, the court held that the
warrant did not authorize the seizure of the
alprazolam and hydrocodone pills. 62 Yet, Defendant
Eder did not object to that finding or offer his insight
at that time. 63 The court may not disregard the
unchallenged testimony of an affiant based on a lack
of credibility, but the court does not find good cause to
change its prior determination that the warrant did
Doc. 70-15, Ex. 15 to Def. Eder’s 2nd Mot. For
Summ. J., Def. Eder’s Suppl. Decl. pp. 2-3.

61

62

12.

See Doc. 19, Mem. & Recom. Dated July 19, 2016 p.

In fact, in the twenty-eight years as a U.S.
Magistrate Judge reviewing complaints, search warrants,
and other related criminal filings, the court has never
heard that cocaine or crack cocaine has been pressed into
tablet form.

63

36a
not cover the pills based solely on Defendant Eder’s
last-minute recollections.
Returning to Plaintiff’s suggestion that the
Hicks decision can inform the court’s consideration of
whether Defendant Eder is entitled to qualified
immunity, the court first recounts the facts of that
case. There, a man was injured by a bullet that had
been fired from above through the ceiling of his
apartment. See Hicks, 480 U.S. at 323. Police officers
entered the upper-floor apartment “to search for the
shooter, for other victims, and for weapons.” Id. One
of the officers noticed expensive stereo equipment
and, finding the rest of the apartment to be “squalid
and otherwise ill-appointed[,]” suspected that the
components had been stolen.
Id. He moved some of
the equipment, including a turntable, in order to gain
access to the serial numbers. Id. Reporting the
information he discovered to headquarters, the officer
learned that the turntable had been stolen in an
armed robbery and seized it immediately. Id.
The officers’ presence in the apartment was
lawful pursuant to “the exigent circumstance of the
shooting.” Id. at 324. The U.S. Supreme Court
determined that the “mere recording of the serial
numbers did not constitute a seizure” but that the
moving of the components did constitute a search Id.
The search of the stereo equipment was “separate and
apart” from the search that was justified by the
shooting.
Id. at 324-25. The Court explained:
Merely inspecting those parts of the
turntable that came into view during
the latter search would not have
constituted an independent search,
because it would have produced no

37a
additional invasion of respondent’s
privacy interest. But taking actions,
unrelated to the objectives of the
authorized intrusion, which exposed to
view concealed portions of the
apartment or its contents, did produce
a new invasion of respondent’s privacy
unjustified by the exigent circumstance
that validated the entry. That is why .
. . the distinction between looking at a
suspicious object in plain view and
moving it even a few inches is much
more than trivial for purposes of the
Fourth Amendment. . . . A search is a
search, even if it happens to disclose
nothing but the bottom of a turntable.
Id. at 325 (internal citations and quotation marks
omitted).
The Court then turned to the question whether
the search of the stereo equipment was reasonable.
See id. That determination, the Court held, depended
on whether probable cause existed to believe that the
equipment had been stolen. See id. at 326 (ruling in
the first instance that “probable cause is required in
order to invoke the ‘plain view’ doctrine”). By
concession, the officer was determined to have
possessed “something less than probable cause.” Id.
The Court concluded, “In short, whether legal
authority to move the equipment could be found only
as an inevitable concomitant of the authority to seize
it, or also as a consequence of some independent power
to search certain objects in plain view, probable cause
to believe the equipment was stolen was required.” Id.

38a
at 328.
Plaintiff’s observation that similarities exist
between this case and Hicks is well-taken, but one
distinction eviscerates her argument. Unlike the
officer discussed in Hicks who conducted a search by
moving the equipment to gain access to additional
information, no evidence here indicates that any
officer moved Plaintiff’s pills in order to examine
them. According to the evidence, Detective Hammons
directed Defendant Eder to the pills, and Defendant
Eder contacted a poison control center to confirm his
suspicion that the pills were controlled substances
based on the information available in plain view.
Plaintiff misses the point of Hicks when
suggesting
that officers may not
conduct
investigations to determine the legality of an item
found in plain view. In Hicks, the Court did not find
that the officer violated the rights of the apartment
occupant by contacting headquarters for information.
Contacting police headquarters or a poison control
center is not a search or a seizure. The constitution
does not require probable cause, or even reasonable
suspicion, as support for those actions. The point is
that officers are limited to the information that is in
plain view as the basis for an investigation when
relying on the “plain view” doctrine. If it is necessary
to examine underneath or some other unseen portion
of the item, the officer must possess “probable cause
to believe that the item [was] either evidence of a
crime or contraband.” Turner, 839 F.3d at 433.
After Defendant Eder spoke with a poison
control center, he drew the reasonable conclusion that
he possessed probable cause to believe that Plaintiff
was committing the criminal offense of possession of a

39a
controlled substance because state case law excused
him from making any further inquiry. Plaintiff’s
arrest and the seizure of the pills occurred after he
acquired the necessary confirmation that the pills
were controlled substances. Defendant Eder is
therefore entitled to qualified immunity from liability
on Plaintiff’s remaining claims.
C. County Liability
A county may be held liable under Section 1983
only if it subjects the plaintiff to a deprivation of
constitutional rights or causes the plaintiff to be
subjected to the deprivation. Connick v. Thompson,
563 U.S. 51, 60 (2011). To succeed on a claim under
Section 1983, the plaintiff must demonstrate that an
official policy promulgated by the county policymaker
was the moving force behind the alleged constitutional
violation. Peña v. City of Rio Grande City, 879 F.3d
613, 621 (5th Cir. 2018). Official policy “includes the
decisions of a government’s law makers, the acts of its
policymaking officials, and practices so persistent and
widespread as to practically have the force of law.” Id.
at 621-22 (quoting Connick, 563 U.S. at 61).
The evidence does not support a constitutional
claim for false arrest. Regardless of Plaintiff’s
allegations regarding Defendant Fort Bend’s policies,
Plaintiff cannot seek liability against Defendant Fort
Bend in the absence of evidence of a constitutional
violation.
Plaintiff’s claims against Defendant Fort Bend
also cannot survive.
IV.

Conclusion
Based

on

the

foregoing,

the

court

40a
RECOMMENDS that Defendant Fort Bend’s motion
be GRANTED, that Defendant Eder’s motion be
GRANTED, and that Plaintiff’s motion be
DENIED. 64
The Clerk shall send copies of this
Memorandum and Recommendation to the respective
parties who have fourteen days from the receipt
thereof to file written objections thereto pursuant to
Federal Rule of Civil Procedure 72(b) and General
Order 2002-13. Failure to file written objections
within the time period mentioned shall bar an
aggrieved party from attacking the factual findings
and legal conclusions on appeal.
The original of any written objections shall be
filed with the United States District Clerk
electronically. Copies of such objections shall be
mailed to opposing parties and to the chambers of the
undersigned, 515 Rusk, Suite 7019, Houston, Texas
77002.
SIGNED in Houston, Texas, this 11th day of

February, 2019.

[handwritten signature]
U.S. MAGISTRATE JUDGE

In making these recommendations, the court in no way
seeks to condone the decisions of Defendant Eder in
pursuing an arrest and Defendant Fort Bend in obtaining
a felony indictment based on two prescribed pills found in
Plaintiff’s home. Not every wrong, though, rises to the level
of a constitutional violation.

64

41a
APPENDIX D
[Filed March 20, 2018]
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
STEPHANIE JONES,

§
§
Plaintiff,
§
§
v.
§
§
JEREMY EDER, J. DALE §
B. BAKER, R. NG,
§
and FORT BEND
§
COUNTY
§

CIVIL ACTION
NO. H-15-2919

ORDER ADOPTING IN PART AND
REVERSING IN PART MAGISTRATE JUDGE’S
AMENDED MEMORANDUM,
RECOMMENDATION, AND ORDER AND
ORDERING ADDITIONAL BRIEFING
Having reviewed the Magistrate Judge’s
Amended Memorandum, Recommendation, and Order
(Docket Entry No. 62) dated February 21, 2018;
Defendant[s] J. Dale’s and B. Baker’s Joint Objections
to the Magistrate Judge’s Amended Recommendation
to Partially Deny Defendant’s Motion for Summary
Judgment (Docket Entry No. 63); Defendant Ng’s and

42a
Eder’s Objections to Magistrate Judge’s Amended
Report and Recommendations Regarding Defendants’
Motion for Summary Judgment (Docket Entry No. 64);
Plaintiff’s Objections to the Magistrate Judge’s Report
and Recommendations (Dkt. #62) (Docket Entry No.
65); and Defendant[s] J. Dale’s and B. Baker’s Joint
Responses to Doc. 65, Plaintiff’s Objections to the
Magistrate
Judge’s
Amended
Report
and
Recommendations (Docket Entry No. 66), the court
concludes that the Magistrate Judge’s Amended
Memorandum, Recommendation, and Order should be
adopted in part and reversed in part
The court must review de novo portions of the
Magistrate
Judge's
proposed
findings
and
recommendations on dispositive matters to which the
parties have filed specific, written objections. See Fed.
R. Civ. P. 72(b); 28 u.s.c. § 636(b)(1). The court must
also consider timely objections to a Magistrate Judge's
order on any nondispositive matter and "modify or set
aside any part of the order that is clearly erroneous or
is contrary to law." Fed. R. Civ. P. 72(a); see also 28
U.S.C. § 636(b)(1)(A).
Defendants Josh Dale, Brian Baker, Jeremy
Eder, and Raymond Ng all object to the Magistrate
Judge's recommendation that their motions for
summary judgment be denied with regard to
Plaintiff's claim that they illegally seized $600 in
currency from a shirt pocket in her closet on the day
of the search. The court concludes that Plaintiff's
testimony regarding the disappearance of the money
is speculative and is not sufficient to create a genuine
issue of material fact. These objections are
SUSTAINED. Defendants', Ng and Eder, Motion for
Summary Judgment (Docket Entry No. 38) and
Defendant Sheriff Deputies J. Dale's and B. Baker's

43a
Joint Motion for Summary Judgment (Docket Entry
No. 39) are GRANTED with respect to this claim.
Plaintiff objects to the Magistrate Judge's
recommendation that the motions for summary
judgment be granted with regard to her claim that the
individual defendants illegally seized the alprazolam
and hydrocodone pills and illegally arrested her. The
court concludes that Plaintiff failed to produce any
evidence that Defendants Dale, Baker, and Ng
participated in the seizure of the pills or made the
decision to arrest Plaintiff. Plaintiff's objections raise
legal issues regarding the constitutionality of
Defendant Eder's warrantless seizure of the pills,
which calls into question the constitutionality of his
decision to arrest Plaintiff based on the seized pills.
Plaintiff's objections are OVERRULED IN PART
regarding Defendants Dale, Baker, and Ng and
SUSTAINED IN PART regarding Defendant Eder.
Defendants' , Ng and Eder, Motion for Summary
Judgment (Docket Entry No. 38) is GRANTED IN
PART with respect to Plaintiff's claims of illegal
seizure of the pills and of her person as to Defendant
Ng and DENIED IN PART with respect to those
claims as to Defendant Eder. Defendant Sheriff
Deputies J. Dale's and B. Baker's Joint Motion for
Summary Judgment (Docket Entry No. 39) is
GRANTED with respect to Plaintiff's claims of illegal
seizure of the pills and of her person.
The court must also address the Magistrate
Judge's observation that Defendant Fort Bend County
could not be held liable for maintaining a policy
leading to unconstitutional arrests in the absence of
evidence
that
Plaintiff
had
suffered
an
unconstitutional arrest. Defendant Fort Bend County
is a defendant pursuant to Plaintiff's Second Amended

44a
Complaint (Docket Entry No. 30), which alleges that
Defendant Fort Bend County's policy or custom of
inadequately
training,
supervising,
and/or
disciplining its officers was the moving force behind
Plaintiff's
allegedly
unconstitutional
arrest.
Defendant Fort Bend County never moved for
summary judgment on this issue, and it remains a
defendant with regard to Plaintiff's claims arising
from her arrest.
The Magistrate Judge's rulings striking
Plaintiff's Motion to Exclude Defendants' SummaryJudgment Evidence (Dkt. 38-2 and 39-3 Exhibit A)
and Memorandum in Support (Docket Entry No. 40)
and denying Plaintiff's Opposed Motion for Leave to
File an Amended Complaint (Docket Entry No. 42) are
neither clearly erroneous nor contrary to law. Those
rulings are ADOPTED. Plaintiff's motion to exclude
(Docket Entry No. 40) is STRICKEN and Plaintiff's
motion for leave (Docket Entry No. 42) is DENIED.
The claims remaining in this action are
Plaintiff's 42 U.S.C. § 1983 claims against Defendant
Eder for illegally seizing the alprazolam and
hydrocodone pills and for illegally arresting Plaintiff
and Plaintiff's claims against Defendant Fort Bend
County for its policies and/or customs on training,
supervising, and disciplining officers.
The court recognizes the Magistrate Judge has
performed yeoman's work in this case addressing the
parties' conflicting and meandering arguments. The
court will allow the parties to put forth their last and
best effort in a final round of motion practice pursuant
to the following guidelines:
(1) Defendant Eder may file a motion for
summary judgment on qualified immunity, paying

45a
particular attention to the arguments in Plaintiff's
most recent objections regarding the application of
Arizona v. Hicks, 107 S. Ct. 1149 (1987), and the
effects of an illegal seizure on the legality of the
subsequent arrest.
(2) Defendant Fort Bend County may file a
motion for summary judgment on its liability, paying
particular
attention
to
Defendant
Eder's
membership in Defendant Fort Bend County's
Narcotics Task Force.
(3) Plaintiff may file a motion for summary
judgment on the constitutionality of Texas Health
and Safety Code § 481.117(a), as applied.
The court will allow the parties twenty (20)
days from the date of this Order to file final motions
for summary judgment not to exceed twenty-five
pages that address these issues. Responses will be
due twenty days after the filing of the summary
judgment motions, and any replies will be due ten
days after the responses are filed. No delays or
additional briefing will be allowed.
SIGNED at Houston, Texas, on this the 20th
day of March, 2018.
______[handwritten signature]______
UNITED STATES DISTRICT JUDGE

46a
Appendix E
[Filed February 21, 2018]
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
STEPHANIE JONES,

§
§
Plaintiff,
§
§
v.
§
§
JEREMY EDER, J. DALE §
B. BAKER, R. NG,
§
and FORT BEND
§
COUNTY
§

CIVIL ACTION
NO. H-15-2919

AMENDED MEMORANDUM,
RECOMMENDATION, AND ORDER
Pending before the court 1 are (1) Defendants
Jeremy Eder (“Eder”) and Raymond Ng’s (“Ng”)
Motion for Summary Judgment (Doc. 38); (2)
Defendants Brian Baker (“Baker”) and Josh Dale’s
(“Dale”) Motion for Summary Judgment (Doc. 39); (3)
Plaintiff’s Motion to Exclude Defendant Officers’
This case was referred to the undersigned
magistrate judge pursuant to 28 U.S.C. § 636(b)(1)(A) and
(B), the Cost and Delay Reduction Plan under the Civil
Justice Reform Act, and Federal Rule of Civil Procedure 72.
See Doc. 11, Ord. Dated Dec. 28, 2015.

1

47a
Summary Judgment Evidence (Doc. 40); and (4)
Plaintiff’s Opposed Motion for Leave to File an
Amended Complaint (Doc. 42). The court has
considered the motions, the responses, all other
relevant filings, and the applicable law. The court
DENIES Plaintiff’s motion for leave to amend and
STRIKES Plaintiff’s motion to exclude. Furthermore,
for the reasons set forth below, the court
RECOMMENDS that Defendants Eder and Ng’s
motion be GRANTED IN PART AND DENIED IN
PART and Defendants Baker and Dale’s motion be
GRANTED IN PART AND DENIED IN PART.
The original Memorandum, Recommendation,
and Order is amended in light of Defendant Eder’s
change of course from the reliance on inapplicable
state law to the citation of applicable state law that
alters the court’s qualified-immunity analysis.
I.

Case Background

Plaintiff filed this civil rights action pursuant
to 42 U.S.C. § 1983 (“Section 1983”), alleging that four
peace officers violated her constitutional rights when
they arrested her and seized her property during a
search of her home.
A.

Factual Background

The four individual defendants (collectively
“Defendant Officers”) in this action were members of
Defendant Fort Bend County’s (“Fort Bend”)
Narcotics Task Force (“Task Force”). 2 Defendant
See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 6; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 5; Doc.
2

48a
Officers represented three local law-enforcement
agencies:
Defendant Eder worked for the
Rosenberg Police Department; Defendant Ng worked
for the Sugar Land Police Department; Defendants
Baker and Dale worked for Defendant Fort Bend’s
Sheriff’s Office. 3 Defendant Dale served as the Task
Force’s supervisor, and Defendant Baker served as
the assistant supervisor. 4
Defendant Eder reported to the Task Force that
“he had developed reliable information that Plaintiff’s
husband, Sherman McAndrew Jones [(“Sherman
Jones”),] was apparently operating a crack cocaine
sales and distribution business out of [his and
Plaintiff’s] residence,” which was located within 1,000
feet of an elementary school. 5 On January 29, 2014,
Defendant Eder obtained an arrest warrant for
Sherman Jones and a search warrant for the
39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Dale ¶ 5; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s
Mot. for Summ. J., Aff. of Def. Baker ¶ 5.
Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for Summ.
J., Decl. of Def. Eder ¶¶ 2, 6; Doc. 38-4, Ex. 4 to Defs. Eder
& Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶¶ 2, 5; Doc. 391, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of
Def. Dale ¶¶ 3-4, 7; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s
Mot. for Summ. J., Aff. of Def. Baker ¶¶ 3-4, 7.

3

Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 6; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 6.

4

Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 12; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 12.

5

49a
residence based on Defendant Eder’s affidavit
detailing an investigation into Sherman Jones’ illegal
activity. 6 The search warrant authorized entry into
the residence without knocking or announcing the
officers’ purpose in order to search for “illicit
contraband, namely Cocaine, and any illicit
contraband, as described in said affidavit.” 7 In the
supporting affidavit, Defendant Eder identified
“Cocaine” as the only drug targeted in the search and
listed currency among the types of evidence “relative
to the trafficking of narcotics.” 8
See Doc. 38-3, Ex. 3, to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 5; Doc. 38-6, Ex. 6 to Defs.
Eder & Ng’s Mot. for Summ. J., Warrant & Aff. in Support
of Warrant; Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot.
for Summ. J., Aff. of Def. Dale ¶ 13; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 13.
6

Doc. 38-6, Ex. 6 to Defs. Eder & Ng’s Mot. for Summ.
J., Warrant; see also Doc. 39-1, Ex. 1 to Defs. Baker &
Dale’s Mot. for Summ. J., Aff. of Def. Dale ¶¶ 13-14; Doc.
39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Baker ¶¶ 13-14; cf. Doc. 30, Pl.’s 2d Am. Compl. p.
7(stating that a Fort Bend district court issued the warrant
that allowed a search for “illicit items (including Cocaine)”
and “other specific items”); Doc. 32, Defs. Baker & Dale’s
Ans. to Pl.’s 2d Am. Compl. pp. 11-12 (admitting that the
warrant allowed a search for “illicit items (including
Cocaine)” and “other specific items” but denying that the
other items were not relevant to Plaintiff’s arrest as alleged
in Plaintiff’s amended complaint); Doc. 33, Defs. Eder &
Ng’s Ans. to Pl.’s 2dAm. Compl. pp. 3-4 (admitting that the
warrant allowed a search for “contraband and illegal
drugs”).
7

8

Doc. 38-6, Ex. 6 to Defs. Eder & Ng’s Mot. for Summ.

50a
On January 31, 2014, the Task Force, in
coordination with Defendant Fort Bend’s Regional
SWAT (Special Weapons and Tactics) team, executed
the search and arrest warrants. 9 Defendant Eder was
in charge of the operational aspects of the
investigation into Sherman Jones and “led the
execution of a search warrant upon Plaintiff’s
residence.” 10 The officers escorted Plaintiff outside
the residence where she remained throughout the
search. 11
During the search, a nonparty officer found one
and one-half pills in a small dish on a windowsill in a
bedroom where Plaintiff and her husband were
sleeping 12
Defendant
Eder
consulted
with
J., Def. Eder’s Aff. in Support of Warrant pp. 3-4.
See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 6; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 5; Doc.
39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Dale ¶¶ 14-15; Doc. 39-2, Ex. 2 to Defs. Baker &
Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 15.
9

Doc. 30, Pl.’s 2d Am. Compl. p. 1; see also Doc. 32,
Defs. Baker & Dale’s Ans. to Pl.’s 2d Am. Compl. p. 8; Doc.
33, Defs. Eder & Ng’s Ans. to Pl.’s 2d Am. Compl. p. 2; Doc.
39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Dale ¶¶ 8, 19; Doc. 39-2, Ex. 2 to Defs. Baker &
Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶¶ 8, 19.
10

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. pp. 34, 35; Doc. 41-1, Ex. A to Pl.’s
Consol. Resp. to Def. Officers’ Mots. for Summ. J., Dep. of
Pl. pp. 21, 107.
11

12

See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for

51a
representatives of a poison control center to confirm
that the partial pill was alprazolam and the whole pill
was hydrocodone. 13 One of the nonparty Task Force
members “seized and collected all narcotic evidence”
ostensibly “under the authority of the search
warrant,” including the alprazolam and hydrocodone
tablets. 14 Defendants Eder and Ng also searched the
residence for labels or pill containers for the pills but
found none. 15 In addition to the alprazolam and
hydrocodone pills, the officers discovered, among
other items, a digital scale, a police radio, cell phones,
miscellaneous papers, and a glass beaker. 16
Defendant Eder did not list any currency in the search
inventory, and Defendant Officers all denied that they
Summ. J., Decl. of Def. Eder ¶ 6; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 6; Doc.
39-3, Ex. 3-B-3 to Defs. Baker & Dale’s Mot. for Summ. J.,
Photograph.
See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 7.
13

Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 27; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 27.

14

See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 7; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 7.
15

See Doc. 38-6, Ex. 6 to Defs. Eder & Ng’s Mot. for
Summ. J., Search Warrant Return & Inventory; Doc. 39-1,
Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def.
Dale ¶ 33; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Baker ¶ 33.
16

52a
seized any currency. 17
At the scene, no officer asked Plaintiff whether
the alprazolam and hydrocodone pills belonged to her
or someone else, inquired whether anyone possessed a
prescription for the pills, or even mentioned the pills
to her at all. 18 Plaintiff asked why she and Sherman
Jones were outside during the search and what was
happening, but Defendant Eder responded that she
“needed to be quiet and let them do their job.” 19
Plaintiff did not communicate or interact “in any
substantive way” with Defendants Baker and Dale. 20
Defendant Eder alone made the decision to arrest
and effectuated the arrest of Plaintiff for jointly
Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for Summ.
J., Decl. of Def. Eder ¶ 13; Doc. 38-4, Ex. 4 to Defs. Eder &
Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 13; Doc. 39-1, Ex.
1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def.
Dale ¶ 41; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Baker ¶ 41; see also Doc. 38-6, Ex. 6
to Defs. Eder & Ng’s Mot. for Summ. J., Search Warrant
Return & Inventory.
17

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. p. 37; Doc. 41-1, Ex. A to Pl.’s Consol.
Resp. to Def. Officers’ Mots. for Summ. J., Dep. of Pl. p. 107;
Doc. 41-6, Ex. F to Pl.’s Consol. Resp. to Def. Officers’ Mots.
for Summ. J., Decl. of Pl. p. 1.
18

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. pp. 35-37.

19

Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶¶ 32, 36; Doc. 39-2, Ex. 2 to
Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker
¶¶ 32, 36.

20

53a
possessing the alprazolam and hydrocodone pills. 21
No officer notified Plaintiff of the charge on which she
was being arrested. 22 When Plaintiff returned to the
residence after being released from the jail facility,
she noticed that $600 in currency was missing from
the pocket of a shirt hanging in the closet. 23
A grand jury was empaneled to hear the
evidence against Plaintiff on the charge of possession
of a controlled substance in Penalty Group 3 in a drugfree zone. 24 Neither Plaintiff nor any of Defendant
Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for Summ.
J., Decl. of Def. Eder ¶ 12; see also Doc. 30, Pl.’s 2d Am.
Compl. p. 8 (stating that she was “charged with two counts
of possession of a controlled substance in a school zone”);
Doc. 38-4, Ex. 4 to Defs. Eder & Ng’s Mot. for Summ. J.,
Decl. of Def. Ng ¶ 11 (stating that Defendant Eder made
the decision to arrest Plaintiff); Doc. 38-5, Ex. 5 to Defs.
Eder & Ng’s Mot. for Summ. J., Indictment (listing charge
as “POSS CS PG 3 <28G DRUG FREE”); Doc. 39-1, Ex. 1
to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def. Dale
¶ 34 (stating that Defendant Eder made the decision to
arrest Plaintiff for joint possession); Doc. 39-2, Ex. 2 to
Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker
¶ 34 (stating that Defendant Eder made the decision to
arrest Plaintiff for joint possession).

21

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. p. 37; Doc. 41-6, Ex. F to Pl.’s Consol. Resp.
to Def. Officers’ Mots. for Summ. J., Decl. of Pl. p. 1.

22

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. For
Summ. J., Dep. of Pl. pp. 44-45, 48-49, 75. Plaintiff alleged
that Defendant Officers seized the $600. See Doc. 30, Pl.’s
2d Am. Compl. p. 6.
23

24

See Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for

54a
Officers appeared before the grand jury. 25
At the
time of the grand jury hearing, Plaintiff had not
provided her attorney with the label from the original
container for either pill found in her home, and
Defendant Officers did not know that she was
claiming that she had a prescription for hydrocodone
and her father had a prescription for alprazolam. 26
Summ. J., Indictment (listing charge as “POSS CS PG 3
<28G DRUG FREE”).
See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 10; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 9; Doc.
38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ. J., Dep. of
Pl. p. 108; Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 38; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 38.
25

Doc. 38-1, Ex. 1 to Defs. Eder & Ng’s Mot. for Summ.
J., Pl.’s Resps. to Defs. Eder & Ng’s Reqs. for Admiss. No.
18; See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 11 (“I could not have
informed the [g]rand [j]ury that Plaintiff claimed to have a
prescription for the hydrocodone or claimed her father had
a prescription for the alprazolam because Plaintiff never
made that representation to me and no one informed me
Plaintiff had ever so contended.”); Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 10
(same); Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 39 (“I could not have informed
the [g]rand [j]ury that Plaintiff was claiming to have a
prescription for the hydrocodone (or that she was claiming
that her father had a prescription for the alprazolam)
because Plaintiff never made that representation to me. In
fact, no one ever informed me that Plaintiff had ever made
either of those claims until after she filed this suit.”); Doc.
39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.

26

55a
On February 17, 2014, the grand jury returned
a true bill finding probable cause for the felony charge
that Plaintiff knowingly and intentionally possess[ed]
a controlled substance” within 1,000 feet of an
elementary school. 27 On October 20, 2014, the
presiding judge dismissed the charges against
Plaintiff on the prosecutor’s motions for lack of
evidence to prove the case beyond a reasonable
doubt. 28 A handwritten notation on the motions
of Def. Baker ¶ 39 (same).
Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for Summ.
J., Indictments; see also Doc. 38-3, Ex. 3 to Defs. Eder &
Ng’s Mot. for Summ. J., Decl. of Def. Eder ¶ 10; Doc. 39-1,
Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def.
Dale ¶ 38; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Baker ¶ 38.

27

Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for Summ.
J., Mots. To Dismiss & Ords. of Dismissal; see also Doc. 30,
Pl.’s 2d Am. Compl. p. 9 (stating that the dismissal order
noted that the evidence was insufficient to prove the
beyond a reasonable doubt and that the links between
Plaintiff and the drugs were insufficient); Doc. 32, Defs.
Baker & Dale’s Ans. to Pl.’s 2d Am. Compl. p. 13
(admitting, with regard to the dismissal of the charges,
only that the prosecutor dismissed them “with leave to
refile”); Doc. 33, Defs. Eder & Ng’s Ans. to Pl.’s 2d Am.
Compl. p. 4 (admitting that “an assistant district attorney
exercised prosecutorial discretion and withdrew the
criminal charges the same district attorney’s office found
were supported by probable cause and warranted criminal
charges [and] . . . that an assistant district attorney formed
the opinion that[,] although the charges filed against
Plaintiff were supported by probable cause, the prosecutor
was of the opinion that State of Texas could not prove the
28

56a
stated “INSUFF LINKS BETWEEN DEFENDANT
AND DRUGS.” 29
Plaintiff testified that she did not learn that the
alprazolam and hydrocodone pills served as the basis
of her arrest until she read the indictment. 30 Plaintiff
also testified that she possessed a valid prescription
for the hydrocodone and that her father possessed a
valid prescription for the alprazolam. 31 Plaintiff
represented that she had given the alprazolam
prescription and the prescription bottles for both
alprazolam and hydrocodone to her criminal defense
attorney but, at the time of her deposition, had not
attempted to have them returned to her. 32
In discovery for this case, Plaintiff produced a
prescription for Lortab (a narcotic pain reliever
containing hydrocodone and acetaminophen), which
charges in criminal court under the heightened burden of
beyond reasonable doubt”).
Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for Summ.
J., Mots. to Dismiss & Ords. of Dismissal.

29

Doc. 41-1, Ex. A to Pl.’s Consol. Resp. to Def.
Officers’ Mots. for Summ. J., Dep. of Pl. p. 107.

30

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. pp. 10-20; Doc. 41-1, Ex. A to Pl.’s Consol.
Resp. to Def. Officers’ Mots. for Summ. J., Dep. of Pl. p. 9;
see also Doc. 41-2, Ex. B to Pl.’s Consol. Resp. to Def.
Officers’ Mots. for Summ. J., Prescription; Doc. 41-3, Ex. C
to Pl.’s Consol. Resp. to Def. Officers’ Mots. for Summ. J.,
Progress Note Dated May 16, 2013.

31

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. pp. 12-15, 20-21.

32

57a
was prescribed for pain associated with a facial
abscess in January 13, 2013, and which provided for
fifteen pills with no refills. 33 Plaintiff also produced a
medical note pertaining to James Jackson’s visit to an
emergency room on May 16, 2013. 34 The note included
a prescription for Xanax (brand name for alprazolam)
to be taken once or twice per day as needed. 35 The
prescription was for sixty pills with no refill. 36
Plaintiff testified that her father occasionally lived in
the residence, and, when he did, he stayed in her sons’
room. 37
B.

Procedural Background

Plaintiff filed her complaint on October 5, 2015,
alleging unreasonable seizures of her person and
property (pills and currency) in violation of the Fourth
and Fourteenth Amendments to the United States
See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. pp. 83-84 (describing her medical
issue as an ear infection); Doc. 41-2, Ex. B to Pl.’s Consol.
Resp. to Def. Officers’ Mots. for Summ. J., Prescription;
Doc. 41-8, Ex. H to Pl.’s Consol. Resp. to Def. Officers’ Mots.
for Summ. J., After Care Instructions p. 2.
33

See Doc. 41-3, Ex. C to Pl.’s Consol. Resp. to Def.
Officers’ Mots. for Summ. J., Progress Note Dated May 16,
2013.
34

35

See id.

36

See id.

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. pp. 25-27, 70-71.
37

58a
Constitution. 38 Eder filed a motion to dismiss. 39 On
November 2, 2015, Defendant Plaintiff filed an
amended complaint on November 23, 2015, and, on
December 2, 2015, Eder filed a supplemental motion
arguing that Plaintiff’s amended complaint also failed
to state a claim for relief. 40 On February 24, 2016,
Defendant Ng filed a motion to dismiss. 41 On April
11, 2016, Defendants Fort Bend, Baker, and Dale filed
a motion to dismiss. 42
On July 19, 2016, the court entered a
memorandum recommending that Defendants’
motions to dismiss be granted in part and denied in
part. 43
The court interpreted Plaintiff’s privacy
and failure-to-protect claims as alleging violations of
substantive due process and found those claims
unavailable as a matter of law. 44 The court
additionally found that Plaintiff failed to state a claim
against Defendant Fort Bend because the factual
allegations were inadequate with regard to Plaintiff’s
assertion that Defendant Fort Bend maintained a
38

See Doc. 1, Pl.’s Compl.

39

See Doc. 7, Def. Eder’s Mot. to Dismiss.

See Doc. 8, Pl.’s Am. Compl.; Doc. 9, Def. Eder’s
Suppl. Mot. to Dismiss.
40

41

See Doc. 15, Def. Ng’s Mot. to Dismiss.

42

See Doc. 17, Defs.’ Mot. to Dismiss.

43

See Doc. 19, Mem. & Recom. Dated July 19, 2016.

44

See id. pp. 15-19.

59a
policy of failing to train, discipline, or supervise its
officers. 45
The court suggested that more specific
allegations regarding how the county’s training policy
was inadequate could remedy Plaintiff’s allegations
against Defendant Fort Bend. 46 As
to
Plaintiff’s
claims of wrongful seizure of person and property
under the Fourth Amendment, the court
recommended denying the motions. 47
In the Memorandum and Recommendation, the
court made legal findings of continuing importance. 48
One is that the warrant did not authorize the
seizure of the alprazolam and hydrocodone pills. 49
The court also determined that alprazolam and
hydrocodone are included in Penalty Group 3 and are
covered by Texas Health and Safety Code § (“Section”)
481.117(a), 50 which states:
Except as authorized by this chapter,
a person commits an offense if the
person knowingly or intentionally
possesses a controlled substance
listed in Penalty Group 3, unless the
person obtains the substance directly
from or under a valid prescription or
45

See id. pp. 19-25.

46

Id. p. 23.

47

See id. pp. 8-15.

48

See id. pp. 11-15.

49

See id. pp. 11-12.

50

See id. p. 12.

60a
order of a practitioner acting in the
course of professional practice.
The court interpreted the statute to mean that
“possession of a controlled substance via a
prescription is not a crime; it is the possession of a
controlled substance in the absence of a prescription
that is proscribed by the statute.” 51 The court
therefore concluded that the absence of a prescription
is an element of the crime, not “an affirmative defense
that may be disregarded when an officer is assessing
the legality of possessing one hydrocodone pill found
on a nightstand in that person’s residence.” 52
Plaintiff and Defendants Eder and Ng filed
objections
to
the
Memorandum
and
53
Recommendation. On August 24, 2016, prior to the
district court’s consideration of the objections,
Plaintiff filed a motion for leave to amend her
complaint for a second time. 54 At the time of her
Id. p. 15 (citing Section 481.117 and Burnett v.
Texas, 488 S.W.3d 913, 920 (Tex. App.—Eastland 2016)).
The court discussed Section 483.041 only in its analysis of
Kelly v. State, Nos. 09-09-00151-CR, 09-09-00152-CR, 0909-00153-CR, 2010 WL 1478907, at **1, 3-4 (Tex. App.—
Beaumont Apr. 14, 2010)(unpublished), which addressed a
conviction for possession of a dangerous drug without a
prescription under Section 483.041 and did not mention
Section 481.117. See Doc. 19, Mem. & Recom. Dated July
19, 2016 p. 13.
51

52

Id. p. 15.

53

See Doc. 21, Defs. Eder & Ng’s Objs.; Doc. 22, Pl.’s

Objs.
54

See Doc. 25, Pl.’s Opposed Mot. for Leave to File a

61a
motion, the court had not yet entered a scheduling
order. Plaintiff sought leave to amend her complaint
to add the following allegations: (1) that Defendant
Officers knew or should have known that Plaintiff and
another resident possessed valid prescriptions for the
pills found in the residence; (2) that Defendant
Officers did not inquire whether Plaintiff had a
prescription; (3) that Defendant Fort Bend had a
policy, practice, procedure, custom, or training which
permitted its officers to conduct an arrest inside a
home without first discerning whether an individual
had a prescription for the substance(s) found; (4) that
Defendants’ position on the possession of a valid
prescription
as
an
affirmative
defense
is
unconstitutional and was the moving force behind
Plaintiff’s arrest; and (5) that Defendant Officers did
not inform her of the charge for possession of a
controlled substance in a school zone. 55
Plaintiff sought to make a few other modifications to
her complaint but proposed no changes to either the
privacy or failure-to-protect claim. 56
On August 31, 2016, the district judge adopted
the Memorandum and Recommendation, effectively
dismissing the privacy and failure- to-protect claims
as legally insufficient and the claims against
Defendant Fort Bend as factually insufficient. 57
On September 16, 2016, two days after
Plaintiff’s motion for leave to amend was submitted to
2d Am. Compl.
55

See id. pp. 1-2.

56

See id.

57

See Doc. 26, Ord. Dated Aug. 31, 2016.

62a
the court pursuant to Local Rule 7.3, the court granted
Plaintiff’s motion for leave to amend. 58
Federal Rule of Civil Procedure 15(a)(2), which
applies in the absence of a scheduling order, advises
the court grant leave freely “when justice so requires.”
Here, justice required leave be granted because,
despite the recommendation and its adoption,
Plaintiff filed for leave while the undersigned’s
recommendation was pending before the district court
and sought to rectify the pleading deficiencies upon
which Defendant Fort Bend’s motion had been
granted. At the time, the case was in its nascent
stages.
As the court granted Plaintiff’s motion for leave
to amend with no exceptions, the court allowed
Plaintiff to make all of the changes requested in her
motion, including the additional factual allegations
against Defendant Fort Bend. 59 That is, the court
found the amended allegations regarding Defendant
Fort Bend’s policy or custom to be sufficient to state a
claim against Defendant Fort Bend, thus reinstating
the county as a defendant. In contrast, Plaintiff did
not seek leave to amend the privacy and failure-to-

58

See Doc. 29, Ord. Dated Sept. 16, 2016.

See id. No final judgment was requested or entered
on behalf of Defendant Fort Bend prior to the court’s
granting of leave to amend. Federal Rule of Civil Procedure
54(b) states that, absent a final judgment, any order “that
adjudicates fewer than all the claims or the rights and
liabilities of fewer than all the parties does not end the
action as to any of the claims or parties and may be revised
at any time before the entry of a judgment adjudicating all
the claims and all the parties’ rights and liabilities.”
59

63a
protect claims, which were dismissed on legal
grounds. Those claims could not have been remedied
through additional factual detail (had Plaintiff offered
any) and were not revived by the court’s order
granting leave to amend. 60 No party objected to the
order granting Plaintiff leave to amend.
After amendment, Plaintiff’s pleading raised
the following causes of action: (1) Fourth Amendment
unreasonable seizure of her person (count 1); and (2)
Fourth Amendment unreasonable seizure of her
property (count 2). With regard to these claims,
Plaintiff alleged that Defendant Fort Bend had “a
policy, procedure, custom, practice, or protocol of
inadequately
training,
supervising,
and/or
disciplining its officers” and could be expected to
violate Fourth Amendment rights by taking:
the unconstitutional official position
that its officers need not establish
the sine qua non of a criminal offense
(in this case, the lack of a
prescription); instead, Defendants
unconstitutionally believe that said
element is an affirmative defense
which may be disregarded by officers
in the field when they seek to
In count 3, Plaintiff alleged violations of a right to
privacy with regard to Plaintiff’s prescription medication
inside her home, and, in counts 4 - 6, Plaintiff alleged
violations of a right to protection from unreasonable
seizure inside her home, from unreasonable seizure of her
papers and effects inside her home, and from unreasonable
intrusions into her privacy. See Doc. 30, Pl.’s 2d Am.
Compl. pp. 17-31.
60

64a
determine probable cause. 61
Plaintiff asserted that Defendant Fort Bend
“created an extremely high risk that constitutional
violations would ensue from its failures to inform its
peace officers . . . of their relevant constitutional
duties.” 62 Defendant Fort Bend did not file an answer
to Plaintiff’s Second Amended Complaint. 63
On September 21, 2016, Defendants Baker and
Dale filed an answer to the amended complaint,
asserting twenty-two defenses. 64 They also “reurge[d]
and incorporate[d] . . . by reference their previously
filed [j]oint [m]otion to [d]ismiss.” 65 This onesentence motion to dismiss fails to challenge the
sufficiency of the additional facts alleged, to explain
how the amendments affect the causes of action
alleged against them, or to raise any new argument
for dismissal. Absent new, applicable arguments for
dismissal, the court finds that this one-sentence effort
is not a legitimate motion to dismiss that requires the
court’s consideration. It is therefore stricken from the
61

Id. pp. 31-32 (emphasis omitted).

62

Id. p. 34.

Without discussing the legal effect of the court’s
order granting leave to amend, Defendants Baker & Dale
repeatedly stated in their answer that Defendant Fort
Bend had been dismissed. See, e.g., Doc. 32, Defs. Baker &
Dale’s Ans. to Pl.’s 2d Am. Compl. pp. 10, 15, 24.
63

See Doc. 32, Defs. Baker & Dale’s Ans. to Pl.’s 2d
Am. Compl. pp. 1-8.
64

65

Id. pp. 1-2 (emphasis omitted).

65a
record.
On September 30, 2016, Defendants Eder and
Ng filed an amended answer, asserting three
defenses. 66 Shortly thereafter, the court held a
scheduling conference, and among the deadlines set
were October 28, 2016, for amending pleadings and
April 21, 2017, for filing dispositive and
nondispositive motions. 67
On April 21, 2017, Defendants Eder and Ng
jointly filed a motion for summary judgment, as did
Defendants Baker and Dale. 68 In addition to filing a
timely response, Plaintiff filed a motion to exclude
summary judgment evidence, specifically, the expert
report of Kurt Sistrunk (“Sistrunk”), which both pairs
of Defendant Officers cited in their motions for
summary judgment. 69
On May 22, 2017, while the briefing continued
on the motions for summary judgment, Plaintiff filed
a motion for leave to amend her claim a third time. 70
See Doc. 33, Defs. Eder & Ng’s Ans. to Pl.’s 2d Am.
Compl. pp. 1-2.
66

See Doc. 34, Min. Entry Ord. Dated Oct. 4, 2016;
Doc. 35, Docket Control Ord. Dated Oct. 4, 2016.
67

See Doc. 38, Defs. Eder & Ng’s Mot. for Summ. J.;
Doc. 39, Defs. Baker & Dale’s Mot. for Summ. J.
68

See Doc. 38-2, Ex. 2 to Defs. Eder & Ng’s Mot. for
Summ. J., Report of Sistrunk; Doc. 39-3, Ex. 3-A to Defs.
Baker & Dale’s Mot. for Summ. J., Report of Sistrunk; Doc.
40, Pl.’s Mot. to Exclude Defs.’ Summ. J. Evid.; Doc. 41, Pl.’s
Consol. Resp. to Def. Officers’ Mots. for Summ. J.
69

See Doc. 42, Pl.’s Opposed Mot. for Leave to File an
Amended Complaint.
70

66a
Plaintiff filed the motion based on testimony obtained
through discovery suggesting that Defendant Fort
Bend intentionally maintained a policy of treating a
prescription for a controlled substance as an
“affirmative defense[] to a crime (which can be ignored
by both officers in the field and the State).” 71 Plaintiff
sought to amend her complaint to reassert claims
against Defendant Fort Bend, which she agreed had
been dismissed months earlier. 72
Plaintiff cited evidence and statements from
Defendant Officers’ motions for summary judgment in
support of her allegation that Defendant Fort Bend’s
policy was to consider possession of a prescription to
be an affirmative defense. 73
As the motion was
filed months after the court’s deadline for amending
pleadings, Plaintiff argued that leave to amend should
be freely given upon a showing of good cause. 74
Plaintiff argued that, in her Second Amended
Complaint, she had made “a good faith allegation that
Defendant Fort Bend County was subject to [imputed]
liability,” but she “could neither have guessed nor
responsibly alleged that Defendants’ purported
authority to arrest Plaintiff was the county- wide
application of a facially inapplicable statute and said
statu[t]e is not listed in any charging instrument.” 75

71

Id. p. 1.

72

See id. p. 2.

73

See id. pp. 2-7.

74

See id. p. 7.

75

Id. p. 8.

67a
In her motion, Plaintiff presented a lengthy
discussion of the factors routinely considered in
determining whether good cause for amendment
exists. 76
As discussed above, the court previously
granted Plaintiff leave to amend in order to add
factual allegations that Defendant Fort Bend
maintained a policy or tolerated a custom of allowing
arrests for possession of controlled substances without
determining whether the arrestees possessed the
relevant prescriptions.
That theory was the
primary point of Plaintiff’s earlier motion for leave to
amend, and Plaintiff’s Second Amended Complaint
contains sufficiently detailed allegations to put
Defendant Fort Bend on notice as to the nature of
Plaintiff’s claim of imputed liability. The evidence
Plaintiff has amassed in support of her theory of
county liability becomes relevant at the summaryjudgment stage of this action, not at the pleading
stage.
To repeat, Plaintiff’s Second Amended
Complaint was sufficient to establish a claim against
Defendant Fort Bend based on its policy or custom of
shifting an element of the relevant possession crime
to the defendant in the form of an affirmative defense.
Because she was able to sufficiently plead the same
factual basis for the claim against Defendant Fort
Bend in August 2016, her assertion that she did not
have a basis to make the allegation until discovery
simply rings untrue. As a result, the court finds that
Plaintiff fails to establish good cause for amending,
and her motion must be denied. 77
76
77

See id. pp. 7-21.
To be clear, the court finds the amendment

68a
The parties completed discovery earlier this
year, and Defendant Officers filed motions for
summary judgment, which are fully briefed. Before
addressing those motions, the court considers
Plaintiff’s motion to exclude the expert testimony of
Sistrunk.
II.

Plaintiff’s Motion to Exclude
Summary Judgment Evidence

This motion targets the expert report of Kurt
Sistrunk. Plaintiff argues that the report: (1) presents
an improper legal opinion; (2) is irrelevant; (3) draws
prejudicial conclusions from the evidence; (4) is not
based on reliable principles, methods, or application
to the facts; (5) is inadmissible under Federal Rule of
Evidence 403 because it either will mislead or confuse
the jury or will be cumulative of the court’s
instructions; and (6) contains hearsay. Defendants
argue that it is an untimely filed Daubert 78 motion.
An expert’s opinion is admissible in evidence if
the expert’s knowledge will help the jury understand
the evidence and the opinion “is based on sufficient
facts or data,” “reliable principles and methods,” and
the reliable application of “the principles and methods
to the facts of the case.” Fed. R. Evid. 702. In addition
to launching one clear Daubert challenge to Sistrunk’s
report, Plaintiff adds several other challenges
unnecessary because Plaintiff’s Second Amended
Complaint is the live pleading, which alleges constitutional
claims against Defendant Fort Bend pursuant to the same
theory as in her proposed amendment.
78

(1993).

Daubert v. Merrell Dow Pharm., Inc., 509 U.S. 579

69a
pursuant to the Federal Rules of Evidence.
Plaintiff cites Daubert in her motion but, in her
reply, offers a rather confusing non-Daubert
description of the motion: “[I]t is designedly a motion
to exclude for the purposes of summary judgment
evidence so that Plaintiff can wield it as evidence
against Fort Bend County.” 79
Plaintiff’s alternative description fails to avoid
the obvious—that the motion is an untimely filed
Daubert motion. The deadline for filing nondispositive
motions was April 21, 2017. 80 Plaintiff filed this
motion on May 12, 2017. 81 Plaintiff spends little effort
toward showing good cause for missing the deadline.
She argues in her reply that Plaintiff’s counsel did not
and could not have fully comprehended “the nature of
Defendants’ argument invoking Texas Health and
Safety Code § 483.001[,] et[ ] seq. . . . until after
Defendants filed their motions for summary
judgment.” 82
This statement does not come close to satisfying
Federal Rule of Civil Procedure 16’s good cause
requirement. Importantly, no evidence indicates that
Plaintiff was charged under the provisions of Chapter
483 of the Texas Health and Safety Code, and, as
explained in a subsequent section, possession of
Doc. 48, Pl.’s Consol. Reply to Defs.’ Resps. to Pl.’s
Mot. to Exclude Summ. J. Evid. p. 1.

79

80

See Doc. 35, Docket Control Ord. Dated Oct. 4, 2016.

81

See Doc. 40, Pl.’s Mot. to Exclude Defs.’ Summ. J.

Evid.

See Doc. 48, Pl.’s Consol. Reply to Defs.’ Resps. to
Pl.’s Mot. to Exclude Summ. J. Evid. p. 2.
82

70a
alprazolam and hydrocodone does not fall within that
statute’s coverage.
Plaintiff’s motion to exclude is untimely and
must be stricken.
III.

Defendant Officers’ Motions
for Summary Judgment

Defendants Eder and Ng argue that the
evidence fails to show that they violated Plaintiff’s
constitutional rights or that they are not entitled to
qualified immunity. Specifically, they argue that
Defendant Eder arrested Plaintiff with probable
cause, that Defendant Ng did not arrest Plaintiff, and
that no evidence supports the allegation that they
seized currency from Plaintiff.
Defendants Baker and Dale argue that the
evidence shows that they were not personally involved
in the constitutional violations alleged by Plaintiff.
They specifically contend that they had no knowledge
whether valid prescriptions covered the alprazolam
and hydrocodone pills, that they did not influence the
grand jury or withhold information from the grand
jury, and that they did not seize the currency.
In their motion, they based their probablecause argument entirely on Texas Health and Safety
Code Chapter 483.
Plaintiff responds that Defendant Eder did not
have probable cause to arrest her and that the other
Defendant Officers permitted Defendant Eder to
arrest her without probable cause. She also contends
that she was not asked whether she possessed a
prescription for the pills, that she was not notified of
the charge on which her arrest was based, and that
the grand jury’s indictment was not based on all

71a
relevant facts.
The admissibility of certain evidence is
disputed. After outlining the applicable law, the court
addresses the evidentiary issues before turning to the
merits of Defendant Officers’ dispositive motions.
A. Applicable Law
Procedural law and substantive law guide the
court’s review of the pending dispositive motions.
1. Summary Judgment
Summary judgment is warranted when the
evidence reveals that no genuine dispute exists
regarding any material fact and the moving party is
entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(a); Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986); Stauffer v. Gearhart, 741 F.3d 574, 581 (5th
Cir. 2014). A material fact is a fact that is identified
by applicable substantive law as critical to the
outcome of the suit. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986); Ameristar Jet Charter, Inc.
v. Signal Composites, Inc., 271 F.3d 624, 626 (5th Cir.
2001). To be genuine, the dispute regarding a material
fact must be supported by evidence such that a
reasonable jury could resolve the issue in favor of
either party. See Royal v. CCC & R Tres Arboles,
L.L.C., 736 F.3d 396, 400 (5th Cir. 2013)(quoting
Anderson, 477 U.S. at 248).
The movant must inform the court of the basis
for the summary judgment motion and must point to
relevant excerpts from pleadings, depositions,
answers to interrogatories, admissions, or affidavits
that demonstrate the absence of genuine factual

72a
issues. Celotex Corp., 477 U.S. at 323; Topalian v.
Ehrman, 954 F.2d 1125, 1131 (5th Cir. 1992). The
movant may meet this burden by demonstrating an
absence of evidence in support of one or more elements
of the case for which the nonmovant bears the burden
of proof.
See Celotex Corp., 477 U.S. at 322;
Exxon Corp. v. Oxxford Clothes, Inc., 109 F.3d 1070,
1074 (5th Cir. 1997).
If the movant carries its
burden, the nonmovant may not rest on the
allegations or denials in the pleading but must
respond with evidence showing a genuine factual
dispute.
Stauffer, 741 F.3d at 581 (citing
Hathaway v. Bazany, 507 F.3d 312, 319 (5th Cir.
2007)).
2. Section 1983
Amendment

and

Fourth

In
order to
prevail
on
claim
83
under Section 1983, a plaintiff must establish that
the defendant deprived the plaintiff of her
constitutional rights while acting under the color of
83

The provision reads, in relevant part:

Every person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State . . . , subjects, or
causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper
proceeding for redress . . . .
42 U.S.C. § 1983.

73a
state law. Moody v. Farrell, 868 F.3d 348, 351 (5th Cir.
2017). Government officials have qualified immunity
from Section 1983 “liability for civil damages insofar
as their conduct does not violate clearly established
statutory or constitutional rights of which a
reasonable person would have known.” Pearson v.
Callahan, 555 U.S. 223, 231 (2009)(quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982)). Qualified
immunity protects an officer even for reasonable
mistakes in judgment. See id. (quoting Groh v.
Ramirez, 540 U.S. 551, 567 (2004))(“The protection of
qualified immunity applies regardless of whether the
government official’s error is ‘a mistake of law, a
mistake of fact, or a mistake based on mixed questions
of law and fact.’”); Ashcroft v. Al-Kidd, 563 U.S. 731,
743 (2011)(“Qualified immunity gives government
officials breathing room to make reasonable but
mistaken judgments about open legal questions.”).
By invoking qualified immunity, a summary
judgment movant shifts the burden to the nonmovant
to rebut the movant’s assertion. Cantrell v. City of
Murphy, 666 F.3d 911, 918 (5th Cir. 2012). In order to
overcome an assertion of qualified immunity, a
plaintiff must produce evidence that the alleged
conduct violated a statutory or constitutional right
and that the right was clearly established at the time
of the challenged conduct.See Morgan v. Swanson,
659 F.3d 359, 371 (5th Cir. 2011). The Supreme Court
held that the order in which these two considerations
are addressed is at the court’s discretion. See
Pearson, 555 U.S. 818-21.
Plaintiff’s remaining claims of unreasonable
seizure of person and property arise pursuant to the
protections of the Fourth Amendment. The Fourth

74a
Amendment, 84 applied to state actors through the
Fourteenth Amendment, protects “[t]he right of the
people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and
seizures.”
U.S. Const. amend. IV. Reasonableness
is the ultimate measure of the constitutionality of a
seizure of person or property. See Trent v. Wade, 776
F.3d 368, 377 (5th Cir.
2015)(internal
quotation
marks omitted)(quoting Fernandez v. California, ___
U.S. ___, 134 S.Ct. 1126, 1132 (2014)).
A warrantless arrest must be supported by
“probable cause to believe that a criminal offense has
been or is being committed.” Devenpeck v. Alford, 543
U.S. 146, 152 (2004). The standard for the existence of
probable cause is an objective one requiring that the
officer draw a reasonable conclusion from the facts
available to him at the time of the arrest.
Id.; see
also Blackwell v. Barton, 34 F.3d 298, 303 (5th Cir.
1994)(stating that probable cause exists if a
reasonable person, based on the facts available at the
time, would believe that an offense has been
committed and that the individual being arrested is
the guilty party).
A warrantless seizure of evidence in plain view
is reasonable when the officer is legally in the location
from which he viewed the item seized and the
84

The full text of the Fourth Amendment is:

The right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and
seizures, shall not be violated, and no Warrants shall issue,
but upon probable cause, supported by Oath or affirmation,
and particularly describing the place to be searched, and
the persons or things to be seized.

75a
“incriminating nature of the item [is] immediately
apparent.” United States v. Turner, 839 F.3d 429,
433 (5th Cir. 2016)(quoting Horton v. California, 496
U.S. 128, 136 (1990), and Arizona v. Hicks, 480 U.S.
321, 326 (1987)). “The incriminating nature of an item
is immediately apparent if the officers have probable
cause to believe that the item is either evidence of a
crime or contraband.” Id. (quoting United States v.
Buchanan, 70 F.3d 818, 826 (5th Cir. 1995)).
Probable cause as it relates to seizure of
evidence requires that the officer determine the
existence of a “practical, nontechnical probability that
incriminating evidence is involved.” Id. (quoting
United States v. Espinoza, 826 F.2d 317, 319 (5th Cir.
1987)).
These constitutional standards were clearly
established at the time of Plaintiff’s arrest, which
leaves the court only to consider whether Plaintiff
produced sufficient evidence that Defendant Officers’
conduct violated Plaintiff’s constitutional rights to be
free from unreasonable arrests and seizures.
B. Discussion on Evidentiary Issues
A party must support its factual positions on
summary judgment by citing to particular evidence in
the record. Fed. R. Civ. P. 56(c)(1). An affidavit or
declaration is competent summary judgment evidence
if it is based “on personal knowledge, set[s] out facts
that would be admissible in evidence, and show[s] that
the affiant or declarant is competent to testify on the
matters stated.” Fed. R. Civ. P. 56(c)(4). Conclusory
allegations, unsubstantiated assertions, improbable
inferences, and speculation are not competent
evidence. Roach v. Allstate Indem. Co., 476 F. App’x

76a
778, 780 (5th Cir. 2012)(unpublished)(citing S.E.C. v.
Recile, 10 F.3d 1093, 1097 (5th Cir. 1993)).
Federal Rule of Civil Procedure 56(c)(2) allows
a movant to object to exhibits that contain material
that “cannot be presented in a form that would be
admissible in evidence” under the Federal Rules of
Evidence.
Cf. Lee v. Offshore Logistical & Transp.,
L.L.C., 859 F.3d 353, 355 (5th Cir. 2017)(explaining
that the rule seeks “[t]o avoid the use of materials that
lack authenticity or violate other evidentiary rules”).
The proponent of the challenged exhibit must prove
admissibility. See id. (quoting Fed. R. Civ. P. 56,
Advisory Comm. Notes, 2010 Amendment, as stating
that the proponent may show that the exhibit is
admissible as presented or that it can be presented in
admissible form). The trial court has discretion to
determine whether “to admit or exclude evidence.”
See MCI Comm’ns Servs., Inc. v. Hagan, 641 F.3d 112,
117 (5th Cir. 2011)(stating that the standard of review
for evidentiary decisions is abuse of discretion).
Only relevant evidence is admissible. Fed. R.
Evid. 402. Relevant evidence has a “tendency to make
a fact more or less probable than it would be without
the evidence” and relates to a fact “of consequence in
determining the action.” Fed. R. Evid. 401. Relevant
evidence may be excluded “if its probative value is
substantially outweighed by a danger of . . . unfair
prejudice, confusing the issues, misleading the jury,
undue delay, wasting time, or needlessly presenting
cumulative evidence.” Fed. R. Evid. 403. Hearsay is
not admissible evidence. Fed. R. Evid. 802.
Hearsay is a statement, not made while
testifying in the current litigation, that is offered for
“the truth of the matter asserted in the statement.”
Fed. R. Evid. 801. The Federal Rules of Evidence list

77a
twenty-nine exceptions to the rule against hearsay.
Fed. R. Evid. 803-804, 807.
1. Plaintiff’s Objections
Plaintiff objects to statements in the
declarations of Defendants Eder and Ng and the
affidavits of Defendants Baker and Dale. Plaintiff also
challenges the admissibility of the grand jury
indictment, the search and arrest warrants, and
Defendant Eder’s Offense Report. 85 Plaintiff contends
that evidence related to the following topics is
irrelevant and/or more prejudicial than valuable: (1)
Defendant Officers’ licensure and training; (2) the
investigation into Sherman Jones, Plaintiff’s
husband, including information regarding the
confidential informant and cocaine sales; (3) the
arrest and search warrants; (4) the grand jury
indictment; (5) the guidance of prosecutors and judges
on the interpretation of the criminal law on which
Defendant Eder relied; and (6) any searches
performed by Defendant Officers for prescription
bottles or labels. The grand jury indictment and the
searches for prescription bottles go to the key issue of
whether probable cause existed to support Plaintiff’s
arrest. The other topics are more tangentially
relevant but, at the very least, provide background
and/or provide insight into the course of events.
None of the above topics is more prejudicial
Defendants Eder and Ng withdrew Defendant
Eder’s Offense Report as an exhibit, mooting all of
Plaintiff’s objections thereto. See Doc. 43, Defs. Eder &
Ng’s Objs. & Reply to Pl.’s Resp. to Defs.’ Mot. for Summ.
J. p. 7.
85

78a
than valuable with the possible exception of the
details of the investigation into Sherman Jones, which
provides the justification for the search of Plaintiff’s
residence. That investigation is unrelated to her
arrest and the seizure of the alprazolam and
hydrocodone pills. That said, the court is not
prejudiced by the information on summary judgment
and will leave consideration of what evidence should
be presented at trial to the trial judge. These
objections are overruled.
Plaintiff objects to statements on other topics
made by Defendants Baker and Dale in their
affidavits: (1) details of the execution of the search
warrant, including interaction with the children
present, the discovery of the alprazolam and
hydrocodone pills, and other evidence found; (2) their
lack of involvement in thetransportation of Plaintiff
to the jail or any other interaction with her; (3)
discussion of the criminal classification of the pills
found; (4) their opinions on whether the arrest was
reasonable and whether they legally carried out their
duties. The details of the execution of the search
warrant are relevant to the legality of Plaintiff’s
arrest. Defendants Baker and Dale’s lack of contact
with Plaintiff is relevant to whether they played any
role in arresting her, and their opinions on the
reasonableness and legality of Defendant Officers’
actions speak to qualified immunity. The other
statements factually meet the liberal relevance
standard in that they provide background and
context. These objections are overruled.
Plaintiff complains that the Defendant Officers’
statements about the nonparty officer’s discovery of
the pills and the identification of those pills with the
assistance of a poison control center amounted to

79a
hearsay, of which they lacked personal knowledge.
Plaintiff continues this line of objections to the
conclusion that no evidence exists to prove that an
alprazolam was found in Plaintiff’s bedroom. This is
an absurd argument in light of the absence of a
dispute about either the discovery of the alprazolam
or the identification of the types of pills found.
Plaintiff alleged in her complaint that Defendant
Officers “found one and a half prescription pills,” that
she “was the ultimate user of the hydrocodone on her
nightstand,” and that her “father was the ultimate
user of the alprazolam seized by Defendant
[Officers].” 86 These objections are overruled.
Plaintiff objects to several statements in
Defendants Baker’s and Dale’s affidavits as offering
inadmissible legal conclusions, in part, because they
were not identified as experts. One of the statements
expresses the opinion that a reasonable officer would
not have believed that the arrest was unconstitutional
based on the facts and circumstances facing
Defendant Eder. Another of the challenged
statements concludes that the officers were legally in
the home and the alprazolam and hydrocodone pills
were in plain view. The third discusses the criminal
statute regarding possession of controlled substances.
In fact, Defendants Baker and Dale did identify
themselves as non-retained experts. 87 These
statements, to the extent that they are legal
conclusions are within these officers’ expert
knowledge. These objections are overruled.
86

See Doc. 30, Pl.’s 2d Am. Compl. pp. 8, 10.

See Doc. 37, Defs. Baker & Dale’s Designation of
Expert Witnesses pp.4-5.
87

80a
Several statements are inadmissible. Both
Defendants Baker and Dale stated in their affidavits
that, in their experiences, “local criminals, upon being
made aware of a law enforcement raid having been
made upon a suspected drug house, will often break
into that house as soon as possible after law
enforcement leaves the scene, in order to search for
any leftover weapons, money, and/or drugs.” 88 That
opinion is speculative, as are the remaining
statements of similar effect in their affidavits
regarding what they believe happened to the $600
that Plaintiff alleged was taken from her home.
Additionally, Defendants Baker and Dale made
statements in their affidavits about Plaintiff’s
deposition testimony regarding the extent of her
knowledge of her husband’s involvement in drug
activity. They have no personal knowledge of that
topic. Finally, Defendants Eder and Ng both stated
that they do not believe that any law enforcement
officer seized the $600. These statements are also
speculative. These objections are sustained.
2. Defendants
Objection

Eder

and

Ng’s

Defendants Eder and Ng object to Plaintiff’s
Exhibit C, the medical note pertaining to James
Jackson’s visit to an emergency room that included a
prescription for alprazolam. Plaintiff cites this
prescription as proof that her father possessed a

Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 42; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 42.

88

81a
prescription for the partial pill found in her bedroom
during the search. 89 The note, which is supported by a
business records affidavit, passes the lenient test for
relevance in that it arguably has a slight tendency to
make more probable than not that Plaintiff’s father
(assuming her father’s name is James Jackson) had a
prescription for alprazolam. Defendants Eder & Ng’s
objection is overruled.
C. Discussion
on
Judgment Issues

Summary

The remaining causes of action are based on the
seizure of Plaintiff’s person by arrest and the seizures
of $600 in currency and the alprazolam and
hydrocodone pills.
1. Arrest
Defendant Eder, as the arresting officer, is in a
different position vis-à-vis liability than the other
Defendant Officers. The court first addresses the
evidence against him.
a. Defendant Eder
Defendant Eder originally argued that Section
§ 483.041 supported Plaintiff’s arrest and that the
only element of the crime was possession of a
dangerous drug. Similar to the language of Section

See Doc. 41, Pl.’s Consol. Resp. to Def. Officers’
Mots. for Summ. J. pp. 2, 15.
89

82a
481.117(a), 90 Section 483.041(a) reads:
A person commits an offense if the
person possesses a dangerous drug
unless the person obtains the drug
from a pharmacist acting in the
manner
described
by
Section
483.042(a)(1) or a practitioner acting
in the manner described by Section
483.042(a)(2).
“Dangerous drug” is defined as “a device or a drug that
is unsafe for self-medication and that is not included
in Schedules I through V or Penalty Groups 1 through
4 of Chapter 481 (Texas Controlled Substances Act).”
Tex. Health & Safety Code § 483.001(2). Section
483.042(a)(1) refers to drugs delivered by pharmacists
pursuant to a prescription, and Section 483.042(a)(2)
refers to practitioners acting in the course of practice.
Alprazolam and hydrocodone are in Penalty Group 3
and do not fall within the coverage of Section
483.041(a). See Tex. Health & Safety Code §
481.104(a)(2),(4). Accordingly, Section 483.041(a)
cannot justify Plaintiff’s arrest for possession of
alprazolam and hydrocodone. 91
90

Section 481.117(a) states:
Except as authorized by this chapter, a person
commits an offense if the person knowingly or
intentionally possesses a controlled substance listed
in Penalty Group 3, unless the person obtains the
substance directly from or under a valid
prescription or order of a practitioner acting in the
course of professional practice.

91

Moreover, no evidence indicates that Plaintiff was

83a
In
the
original
Memorandum,
Recommendation, and Order on the summary
judgment motions, the court pointed out that it had
previously interpreted Section 481.117(a) as
prohibiting possession of a controlled substance
without a prescription, not as merely prohibiting the
possession of the controlled substance. 92 Despite that
earlier ruling, Defendant Eder persisted in arguing on
summary judgment that Section 483.041(a) supported
Plaintiff’s arrest. In his objections, Defendant Eder
switches statutes, arguing that Section 481.184(a)
places the burden on the defendant to negate any
exemption or exception allowed by the Texas
Controlled Substances Act. Section 481.184(a) states:
The state is not required to negate an
exemption or exception provided by
this chapter in a complaint,
information, indictment, or other
pleading or in any trial, hearing, or
other proceeding under this chapter.
A person claiming the benefit of an
exemption or exception has the
arrested pursuant to Section 483.041(a) or that the grand
jury considered that provision. In fact, the evidence is
undisputed that Plaintiff was charged under Section
481.117(a). The court stated as much in its July 2016
Memorandum and Recommendation that addressed
Defendants’ motions to dismiss.
See Doc. 19, Mem. & Recom. Dated July 19, 2016 p.
15 (citing Burnett, 488 S.W.3d at 920, as stating that,
although the State had represented that it was illegal to
carry pills outside of their prescription containers, the
court could find no such law).
92

84a
burden of going forward with the
evidence with respect to the
exemption or exception.
The court’s interpretation implicitly held that
this provision did not apply because the possession of
a prescription was not an exemption or an exception
but the lack of a prescription was an element of the
crime. Defendant Eder points the court to Threlkeld v.
Texas, 558 S.W.2d 472, 473 (Tex. Ct. Crim. Appeals
1977), which held:
Prior to the enactment of the
Controlled Substances Act [the]
argument [that possession under the
provision was “not illegal per se but
becomes illegal only when not
obtained directly from, or pursuant
to, a valid prescription of an
practitioner”] would have been well
taken. The traditional rule upon
which appellant relies, however, is
no longer applicable to indictments
charging possession of controlled
substances. [Tex. Health & Safety
Code
481.184(a)’s
predecessor]
expressly removed the burden of
negating in an indictment any
exemptions or exceptions under the
act and placed the burden of going
forward with the evidence with
respect to such exemptions or
exceptions upon the defendant.
Neither Plaintiff nor the court’s own research

85a
uncovered any more recent cases that call into
question Threlkeld’s holding.
Faced with this applicable law, the court must
reconsider its analysis of probable cause. Plaintiff
does not dispute that the presence of the controlled
substances in her shared bedroom arguably gave rise
to probable cause that she knowingly or intentionally
possessed the pills (jointly with her husband). 93 As
possession alone was enough to give Defendant Eder
probable cause existed to believe that Plaintiff
violated Section 481.117(a), Plaintiff has failed to
raise a fact issue on her constitutional claim of false
arrest against Defendant Eder.
b. Defendants Baker, Dale, and
Ng
Absent evidence that Defendant Eder, the
arresting officer, unconstitutionally seized Plaintiff,
the other Defendant officers cannot be held liable.
Defendant Officers stated under oath that Defendant
Eder arrested Plaintiff based only on his own
assessment of probable cause. Plaintiff produced no
evidence contradicting this conclusion. No evidence
suggests that Defendant Eder requested or received
any input from any of the other Defendant Officers or
even places the other Defendant Officers in proximity
to Plaintiff and Defendant Eder at the time of
Plaintiff’s arrest. Absent personal involvement in any
aspect of Plaintiff’s arrest, Defendants Baker, Dale,
and Ng could not be held liable for false arrest, even if
She also does not contend that probable cause was
lacking with regard to possession within 1,000 feet of a
school.

93

86a
Defendant Eder had lacked probable cause. Plaintiff’s
claims of supervisory or bystander liability also fail in
the absence of evidence of a false arrest.
Plaintiff’s Fourth Amendment claim that her
right to be free from unreasonable arrest was violated
cannot survive summary judgment.
2. Seizure of Property
Plaintiff’s unconstitutional seizure of property
concerns the seizure of the alprazolam and
hydrocodone pills and the disappearance of $600.
As the court previously held, the warrant did
not authorize the seizure of the alprazolam and
hydrocodone pills. The constitutionality of the seizure
therefore rests on whether the circumstances gave
rise to “probable cause to believe that the item [was]
either evidence of a crime or contraband.” Turner, 839
F.3d at 433. Because Defendant Eder had probable
cause to believe that Plaintiff was committing the
criminal offense of possession of a controlled
substance, seizure of the pills was constitutional.
Regarding Plaintiff’s claim that Defendant Officers
illegally seized $600 in currency, Plaintiff testified
that it disappeared from a shirt pocket in her closet on
the day of the search. The evidence indicates that it
was not seized pursuant to the search warrant as it
was not listed on the inventory that was returned to
the court. Defendant Officers also deny that they
“seized” the currency and make no argument that
probable cause existed for the seizure of that money.
Nevertheless, Plaintiff’s testimony regarding the
disappearance of the $600 raises a fact question
whether Defendant Officers were responsible for the
disappearance of the funds during their search of the

87a
residence. If so, their actions clearly violated
Plaintiff’s constitutional right to be free from
unreasonable seizures. The jury will have to resolve
this dispute.
This claim survives summary judgment as to
all Defendant Officers.
3. Liability of Defendant Fort Bend
A county may be held liable under Section 1983
only for its own illegal acts, not pursuant to a theory
of vicarious liability. Connick v. Thompson, 563 U.S.
51, 60 (2011). To succeed on a claim under Section
1983, the plaintiff must demonstrate that an official
policy promulgated by the county policymaker was the
moving force behind the alleged constitutional
violation. Peña v. City of Rio Grande City, F.3d , 2018
WL 386661, at *5 (5th Cir. 2018).
The evidence does not support a constitutional
claim for false arrest. Regardless of Plaintiff’s
allegations regarding Defendant Fort Bend’s policies,
Plaintiff cannot seek liability against Defendant Fort
Bend in the absence of a constitutional violation. With
regard to Plaintiff’s only remaining constitutional
claim for illegal seizure of cash, Plaintiff made no
allegation and produced no evidence of a policy or
widespread custom of officers’ taking currency
without probable cause from the scenes of arrests.
Plaintiff’s claims against Defendant Fort Bend
cannot survive.
IV.

Conclusion

Based
on
the
foregoing,
the
court
RECOMMENDS that Defendants Eder and Ng’s

88a
motion be GRANTED IN PART AND DENIED IN
PART and Defendants Baker and Dale’s motion be
GRANTED IN PART AND DENIED IN PART. The
court DENIES Plaintiff’s motion for leave to amend
and STRIKES Plaintiff’s motion to exclude.
The following claim must proceed to trial:
Plaintiff’s claim against Defendants Baker, Dale,
Eder, and Ng for unconstitutional seizure of Plaintiff’s
currency.
The Clerk shall send copies of this Amended
Memorandum, Recommendation, and Order to the
respective parties who have fourteen days from the
receipt thereof to file written objections thereto
pursuant to Federal Rule of Civil Procedure 72(b) and
General Order 2002-13. Failure to file written
objections within the time period mentioned shall bar
an aggrieved party from attacking the factual findings
and legal conclusions on appeal.
The original of any written objections shall be
filed with the United States District Clerk
electronically. Copies of such objections shall be
mailed to opposing parties and to the chambers of the
undersigned, 515 Rusk, Suite 7019, Houston, Texas
77002.
SIGNED in Houston, Texas, this 21 day of
February, 2018.

[handwritten signature]
U.S. MAGISTRATE JUDGE

89a
APPENDIX F
[Filed January 8, 2018]
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
STEPHANIE JONES,

§
§
Plaintiff,
§
§
v.
§
§
JEREMY EDER, J. DALE §
B. BAKER, R. NG,
§
and FORT BEND
§
COUNTY
§

CIVIL ACTION
NO. H-15-2919

MEMORANDUM, RECOMMENDATION, AND
ORDER
Pending before the court 1 are (1) Defendants
Jeremy Eder (“Eder”) and Raymond Ng’s (“Ng”)
Motion for Summary Judgment (Doc. 38); (2)
Defendants Brian Baker (“Baker”) and Josh Dale’s
(“Dale”) Motion for Summary Judgment (Doc. 39); (3)
Plaintiff’s Motion to Exclude Defendant Officers’
This case was referred to the undersigned
magistrate judge pursuant to 28 U.S.C. § 636(b)(1)(A) and
(B), the Cost and Delay Reduction Plan under the Civil
Justice Reform Act, and Federal Rule of Civil Procedure 72.
See Doc. 11, Ord. Dated Dec. 28, 2015.

1

90a
Summary Judgment Evidence (Doc. 40); and (4)
Plaintiff’s Opposed Motion for Leave to File an
Amended Complaint (Doc. 42). The court has
considered the motions, the responses, all other
relevant filings, and the applicable law. The court
DENIES Plaintiff’s motion for leave to amend and
STRIKES
Plaintiff’s
motion
to
exclude.
Furthermore, for the reasons set forth below, the
court RECOMMENDS that Defendants Eder and
Ng’s motion be GRANTED IN PART AND
DENIED IN PART and Defendants Baker and
Dale’s motion be GRANTED IN PART AND
DENIED IN PART.
I.

Case Background

Plaintiff filed this civil rights action pursuant
to 42 U.S.C. § 1983 (“Section 1983”), alleging that
four peace officers violated her constitutional rights
when they arrested her and seized her property
during a search of her home.
A.

Factual Background

The four individual defendants (collectively
“Defendant Officers”) in this action were members of
the Fort Bend County (“Fort Bend”) Narcotics Task
Force (“Task Force”). 2 Defendant Officers represented
See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 6; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 5; Doc.
39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Dale ¶ 5; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s
2

91a
three local law-enforcement agencies: Defendant Eder
worked for the Rosenberg Police Department;
Defendant Ng worked for the Sugar Land Police
Department; Defendants Baker and Dale worked for
Defendant Fort Bend’s Sheriff’s Office. 3 Defendant
Dale served as the Task Force’s supervisor, and
Defendant Baker served as the assistant supervisor. 4
Defendant Eder reported to the Task Force that
“he had developed reliable information that Plaintiff’s
husband, Sherman McAndrew Jones[(“Sherman
Jones”),] was apparently operating a crack cocaine
sales and distribution business out of [his and
Plaintiff’s] residence,” which was located within 1,000
feet of an elementary school. 5 On January 29, 2014,
Defendant Eder obtained an arrest warrant for
Sherman Jones and a search warrant for the
residence based on Defendant Eder’s affidavit
detailing an investigation into Sherman Jones’ illegal
Mot. for Summ. J., Aff. of Def. Baker ¶ 5.
Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for Summ.
J., Decl. of 3 Def. Eder ¶¶ 2, 6; Doc. 38-4, Ex. 4 to Defs. Eder
& Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶¶ 2, 5; Doc. 391, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of
Def. Dale ¶¶ 3-4, 7; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s
Mot. for Summ. J., Aff. of Def. Baker ¶¶ 3-4, 7.

3

Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 6; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 6.

4

Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 12; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 12.

5

92a
activity. 6 The search warrant authorized entry into
the residence without knocking or announcing the
officers’ purpose in order to search for “illicit
contraband, namely Cocaine, and any illicit
contraband, as described in said affidavit.” 7 In
the supporting affidavit, Defendant Eder identified
“Cocaine” as the only drug targeted in the search and
listed currency among the types of evidence “relative
to the trafficking of narcotics.” 8
See Doc. 38-3, Ex. 3, to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 5; Doc. 38-6, Ex. 6 to Defs.
Eder & Ng’s Mot. for Summ. J., Warrant & Aff. in Support
of Warrant; Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot.
for Summ. J., Aff. of Def. Dale ¶ 13; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 13.
6

Doc. 38-6, Ex. 6 to Defs. Eder & Ng’s Mot. for Summ.
J., Warrant; see also Doc. 39-1, Ex. 1 to Defs. Baker &
Dale’s Mot. for Summ. J., Aff. of Def. Dale ¶¶ 13-14; Doc.
39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Baker ¶¶ 13-14; cf. Doc. 30, Pl.’s 2d Am. Compl. p.
7(stating that a Fort Bend district court issued the warrant
that allowed a search for “illicit items (including Cocaine)”
and “other specific items”); Doc. 32, Defs. Baker & Dale’s
Ans. to Pl.’s 2d Am. Compl. pp. 11-12 (admitting that the
warrant allowed a search for “illicit items (including
Cocaine)” and “other specific items” but denying that the
other items were not relevant to Plaintiff’s arrest as alleged
in Plaintiff’s amended complaint); Doc. 33, Defs. Eder &
Ng’s Ans. to Pl.’s 2d Am. Compl. pp. 3-4 (admitting that the
warrant allowed a search for “contraband and illegal
drugs”).
7

Doc. 38-6, Ex. 6 to Defs. Eder & Ng’s Mot. for Summ.
J., Def. Eder’s Aff. in Support of Warrant pp. 3-4.

8

93a
On January 31, 2014, the Task Force, in
coordination with the Fort Bend Regional SWAT
(Special Weapons and Tactics) team, executed the
search and arrest warrants. 9 Defendant Eder was in
charge of the operational aspects of the investigation
into Sherman Jones and “led the execution of a search
warrant upon Plaintiff’s residence.” 10 The officers
escorted Plaintiff outside the residence where she
remained during the search. 11
During the search, a nonparty officer found one
and one-half pills in a small dish on a windowsill in a
bedroom where Plaintiff and her husband were
sleeping. 12
Defendant
Eder
consulted
with
See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 6; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 5; Doc.
39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Dale ¶¶ 14-15; Doc. 39-2, Ex. 2 to Defs. Baker &
Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 15.
9

Doc. 30, Pl.’s 2d Am. Compl. p. 1; see also Doc. 32,
Defs. Baker & Dale’s Ans. to Pl.’s 2d Am. Compl. p. 8; Doc.
33, Defs. Eder & Ng’s Ans. to Pl.’s 2d Am. Compl. p. 2; Doc.
39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Dale ¶¶ 8, 19; Doc. 39-2, Ex. 2 to Defs. Baker &
Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶¶ 8, 19.
10

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. pp. 34, 35; Doc. 41-1, Ex. A to Pl.’s
Consol. Resp. to Def. Officers’ Mots. for Summ. J., Dep. of
Pl. pp. 21, 107.
11

See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 6; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 6; Doc.
39-3, Ex. 3-B-3 to Defs. Baker & Dale’s Mot. for Summ. J.,
12

94a
representatives of a poison control center to confirm
that the partial pill was alprazolam and the whole pill
was hydrocodone. 13 One of the nonparty Task Force
members “seized and collected all narcotic evidence”
ostensibly “under the authority of the search
warrant,” including the alprazolam and hydrocodone
tablets. 14 Defendant Eder and Ng also searched the
residence for labels or pill containers for the pills but
found none. 15 In addition to the alprazolam and
hydrocodone pills, the offices discovered, among other
items, a digital scale, a police radio, cell phones,
miscellaneous papers, and a glass beaker. 16
Defendant Eder did not list any currency in the search
inventory, and Defendant Officers all denied they
seized any currency. 17
Photograph.
See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 7.
13

Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 27; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 27.

14

See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 7; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 7.
15

See Doc. 38-6, Ex. 6 to Defs. Eder & Ng’s Mot. for
Summ. J., Search Warrant Return & Inventory; Doc. 39-1,
Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def.
Dale ¶ 33; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Baker ¶ 33.
16

Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for Summ.
J., Decl. of Def. Eder ¶ 13; Doc. 38-4, Ex. 4 to Defs. Eder &

17

95a
At the scene, no officer asked Plaintiff whether
the alprazolam and hydrocodone pills belonged to her
or someone else, inquired whether anyone possessed a
prescription for the pills, or even mentioned the pills
to her at all. 18 Plaintiff asked aloud why she and
Sherman Jones were outside during the search and
what was happening, but Defendant Eder responded
that she “needed to be quiet and let them do their
job.” 19 Plaintiff did not communicate or interact “in
any substantive way” with Defendants Baker and
Dale. 20
Defendant Eder alone made the decision to
arrest and effectuated the arrest of Plaintiff for jointly
possessing the alprazolam and hydrocodone pills. 21 No
Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 13; Doc. 39-1, Ex.
1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def.
Dale ¶ 41; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Baker ¶ 41; see also Doc. 38-6, Ex. 6
to Defs. Eder & Ng’s Mot. for Summ. J., Search Warrant
Return & Inventory.
See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. p. 37; Doc. 41-1, Ex. A to Pl.’s Consol.
Resp. to Def. Officers’ Mots. for Summ. J., Dep. of Pl. p. 107;
Doc. 41-6, Ex. F to Pl.’s Consol. Resp. to Def. Officers’ Mots.
for Summ. J., Decl. of Pl. p. 1.
18

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. pp. 35-37.

19

Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶¶ 32, 36; Doc. 39-2, Ex. 2 to
Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker
¶¶ 32, 36.

20

21

Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for Summ.

96a
officer notified Plaintiff of the charge on which she
was being arrested. 22 When Plaintiff returned to the
residence after being released from the jail facility,
she noticed that $600 in currency was missing from
the pocket of a shirt hanging in the closet. 23
A grand jury was empaneled to hear the
evidence against Plaintiff on the charge of possession
of a controlled substance in Penalty Group 3 in a drugfree zone. 24 Neither Plaintiff nor any of Defendant
J., Decl. of Def. Eder ¶ 12; see also Doc. 30, Pl.’s 2d Am.
Compl. p. 8 (stating that she was “charged with two counts
of possession of a controlled substance in a school zone”);
Doc. 38-4, Ex. 4 to Defs. Eder & Ng’s Mot. for Summ. J.,
Decl. of Def. Ng ¶ 11 (stating that Defendant Eder made
the decision to arrest Plaintiff); Doc. 38-5, Ex. 5 to Defs.
Eder & Ng’s Mot. for Summ. J., Indictment (listing charge
as “POSS CS PG 3 <28G DRUG FREE”); Doc. 39-1, Ex. 1
to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def. Dale
¶ 34 (stating that Defendant Eder made the decision to
arrest Plaintiff for joint possession); Doc. 39-2, Ex. 2 to
Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker
¶ 34 (stating that Defendant Eder made the decision to
arrest Plaintiff for joint possession).
Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. p. 37; Doc. 41-6, Ex. F to Pl.’s Consol. Resp.
to Def. Officers’ Mots. for Summ. J., Decl. of Pl. p. 1.

22

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. pp.44-45, 48-49, 75. Plaintiff alleged
that Defendant Officers seized the $600. See Doc. 30, Pl.’s
2d Am. Compl. p. 6.
23

See Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for
Summ. J., Indictment (listing charge as “POSS CS PG 3
<28G DRUG FREE”).
24

97a
Officers appeared before the grand jury. 25 At the time
of the grand jury hearing, Plaintiff had not provided
her attorney with the label from the original container
for either pill found in her home, and Defendant
Officers did not know that she was claiming that she
had a prescription for hydrocodone and her father had
a prescription for alprazolam. 26 On February 17, 2014,
See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 10; Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 9; Doc.
38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ. J., Dep. of
Pl. p. 108; Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 38; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 38.
25

Doc. 38-1, Ex. 1 to Defs. Eder & Ng’s Mot. for Summ.
J., Pl.’s Resps. to Defs. Eder & Ng’s Reqs. for Admiss. No.
18; See Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for
Summ. J., Decl. of Def. Eder ¶ 11 (“I could not have
informed the [g]rand [j]ury that Plaintiff claimed to have a
prescription for the hydrocodone or claimed her father had
a prescription for the alprazolam because Plaintiff never
made that representation to me and no one informed me
Plaintiff had ever so contended.”); Doc. 38-4, Ex. 4 to Defs.
Eder & Ng’s Mot. for Summ. J., Decl. of Def. Ng ¶ 10
(same); Doc. 39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 39 (“I could not have informed
the [g]rand [j]ury that Plaintiff was claiming to have a
prescription for the hydrocodone (or that she was claiming
that her father had a prescription for the alprazolam)
because Plaintiff never made that representation to me. In
fact, no one ever informed me that Plaintiff had ever made
either of those claims until after she filed this suit.”); Doc.
39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Baker ¶ 39 (same).
26

98a
the grand jury returned a true bill finding probable
cause for the felony charge that Plaintiff “knowingly
and intentionally possess[ed] a controlled substance”
within 1,000 feet of an elementary school. 27 On
October 20, 2014, the presiding judge dismissed the
charges against Plaintiff on the prosecutor’s motions
for lack of evidence to prove the case beyond a
reasonable doubt. 28 A handwritten notation on the
motions stated “INSUFF LINKS BETWEEN

Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for Summ.
J., Indictments; see also Doc. 38-3, Ex. 3 to Defs. Eder &
Ng’s Mot. for Summ. J., Decl. of Def. Eder ¶ 10; Doc. 39-1,
Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff. of Def.
Dale ¶ 38; Doc. 39-2, Ex. 2 to Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Baker ¶ 38.
27

Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for Summ.
J., Mots. to Dismiss & Ords. of Dismissal; see also Doc. 30,
Pl.’s 2d Am. Compl. p. 9 (stating that the dismissal order
noted the evidence was insufficient to prove the beyond a
reasonable doubt and that the links between Plaintiff and
the drugs); Doc. 32, Defs. Baker & Dale’s Ans. to Pl.’s 2d
Am. Compl. p. 13 (admitting, with regard to the dismissal
of the charges, only that the prosecutor dismissed them
“with leave to refile”); Doc. 33, Defs. Eder & Ng’s Ans. to
Pl.’s 2d Am. Compl. p. 4 (admitting that “an assistant
district attorney exercised prosecutorial discretion and
withdrew the criminal charges the same district attorney’s
office found were supported by probable cause and
warranted criminal charges [and] . . . that an assistant
district attorney formed the opinion that[,] although the
charges filed against Plaintiff were supported by probable
cause, the prosecutor was of the opinion that State of Texas
could not prove the charges in criminal court under the
heightened burden of beyond reasonable doubt”).
28

99a
DEFENDANT AND DRUGS.” 29
Plaintiff testified that she did not learn that the
alprazolam and hydrocodone pills served as the basis
of her arrest until she read the indictment. 30 Plaintiff
also testified that she possessed a valid prescription
for the hydrocodone and that her father possessed a
valid prescription for the alprazolam. 31 Plaintiff
represented that she had given the alprazolam
prescription and the prescription bottles for both
alprazolam and hydrocodone to her criminal defense
attorney but, at the time of her deposition, had not
attempted to have them returned to her. 32
In discovery for this case, Plaintiff produced a
prescription for Lortab (a narcotic pain reliever
containing hydrocodone and acetaminophen), which
was prescribed for pain associated with a facial
abscess in January 13, 2013, and which provided for
fifteen pills with no refills. 33 Plaintiff also produced a

Doc. 38-5, Ex. 5 to Defs. Eder & Ng’s Mot. for Summ.
J., Mots. to Dismiss & Ords. of Dismissal.

29

Doc. 41-1, Ex. A to Pl.’s Consol. Resp. to Def.
Officers’ Mots. for Summ. J., Dep. of Pl. p. 107.

30

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. pp. 10-20; Doc. 41-1, Ex. A to Pl.’s Consol.
Resp. to Def. Officers’ Mots. for Summ. J., Dep. of Pl. p. 9;
see also Doc. 41-2, Ex. B to Pl.’s Consol. Resp. to Def.
Officers’ Mots. for Summ. J., Prescription; Doc. 41-3, Ex. C
to Pl.’s Consol. Resp. to Def. Officers’ Mots. for Summ. J.,
Progress Note Dated May 16, 2013.
31

Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for Summ.
J., Dep. of Pl. pp. 12-15, 20-21.

32

100a
medical note pertaining to James Jackson’s visit to an
emergency room on May 16, 2013. 34 The note included
a prescription for Xanax (brand name for alprazolam)
to be taken once or twice per day as needed. 35 The
prescription was for sixty pills with no refill. 36
Plaintiff testified that her father occasionally lived in
the residence, and, when he did, he stayed in her sons’
room. 37
B.

Procedural Background

Plaintiff filed her complaint on October 5, 2015,
alleging unreasonable seizures of her person and
property (pills and currency) in violation of the Fourth
and Fourteenth Amendments to the United States
Constitution. 38 On November 2, 2015, Defendant Eder
See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. pp. 83-84 (describing her medical
issue as an ear infection); Doc. 41-2, Ex. B to Pl.’s Consol.
Resp. to Def. Officers’ Mots. for Summ. J., Prescription;
Doc. 41-8, Ex. H to Pl.’s Consol. Resp. to Def. Officers’ Mots.
for Summ. J., After Care Instructions p. 2.
33

See Doc. 41-3, Ex. C to Pl.’s Consol. Resp. to Def.
Officers’ Mots. for Summ. J., Progress Note Dated May 16,
2013.
34

35

See id.

36

See id.

See Doc. 38-8, Ex. 8 to Defs. Eder & Ng’s Mot. for
Summ. J., Dep. of Pl. pp. 25-27, 70-71.
37

38

See Doc. 1, Pl.’s Compl.

101a
filed a motion to dismiss. 39 Plaintiff filed an amended
complaint on November 23, 2015, and, on December 2,
2015, Eder filed a supplemental motion arguing that
Plaintiff’s amended complaint also failed to state a
claim for relief. 40 On February 24, 2016, Defendant Ng
filed a motion to dismiss. 41 On April 11, 2016,
Defendants Fort Bend, Baker, and Dale filed a motion
to dismiss. 42
On July 19, 2016, the court entered a
memorandum recommending that Defendants’
motions to dismiss be granted in part and denied in
part. 43 The court interpreted Plaintiff’s privacy and
failure-to-protect claims as alleging violations of
substantive due process and found those claims
unavailable as a matter of law. 44 The court
additionally found that Plaintiff failed to state a claim
against Defendant Fort Bend because the factual
allegations were inadequate with regard to Plaintiff’s
assertion that Defendant Fort Bend maintained a
policy of failing to train, discipline, or supervise its
officers. 45 The court suggested that more specific

39

See Doc. 7, Def. Eder’s Mot. to Dismiss.

See Doc. 8, Pl.’s Am. Compl.; Doc. 9, Def. Eder’s
Suppl. Mot. to Dismiss.
40

41

See Doc. 15, Def. Ng’s Mot. to Dismiss.

42

See Doc. 17, Defs.’ Mot. to Dismiss.

43

See Doc. 19, Mem. & Recom. Dated July 19, 2016.

44

See id. pp. 15-19.

102a
allegations regarding how the county’s training policy
was inadequate could remedy Plaintiff’s allegations
against Defendant Fort Bend. 46 As to Plaintiff’s
claims of wrongful seizure of person and property
under the Fourth Amendment, the court
recommended denying the motions. 47
In the Memorandum and Recommendation, the
court made legal findings of continuing importance. 48
One is that the warrant did not authorize the seizure
of the alprazolam and hydrocodone pills. 49 The court
also determined that alprazolam and hydrocodone are
included in Penalty Group 3 and are covered by Texas
Health and Safety Code § 481.117(a) (“Section
481.117”), 50 which states:
Except as authorized by this chapter, a person
commits an offense if the person knowingly or
intentionally possesses a controlled substance
listed in Penalty Group 3, unless the person
obtains the substance directly from or under
a valid prescription or order of a practitioner
acting in the course of professional practice.
The court interpreted the statute to mean that
45

See id. pp. 19-25.

46

Id. p. 23.

47

See id. pp. 8-15.

48

See id. pp. 11-15.

49

See id. pp. 11-12.

50

See id. p. 12.

103a
“possession of a controlled substance via a
prescription is not a crime; it is the possession of a
controlled substance in the absence of a prescription
that is proscribed by the statute.” 51 The court
therefore concluded that the absence of a prescription
is an element of the crime, not “an affirmative defense
that may be disregarded when an officer is assessing
the legality of possessing one hydrocodone pill found
on a nightstand in that person’s residence.” 52
Plaintiff and Defendants Eder and Ng filed
objections
to
the
Memorandum
and
Recommendation. 53 On August 24, 2016, prior to the
district court’s consideration of the objections,
Plaintiff filed a motion for leave to amend her
complaint for a second time. 54 At the time of her
Id. p. 15 (citing Section 481.117 and Burnett v.
Texas, 488 S.W.3d 913, 920 (Tex. App.—Eastland 2016)).
The court discussed Texas Health and Safety Code §
483.041 (“Section 483.041”) only in its analysis of Kelly v.
State, Nos. 09-09-00151-CR, 09-09-00152-CR, 09-0900153-CR, 2010 WL 1478907, at **1, 3-4 (Tex. App.—
Beaumont Apr. 14, 2010)(unpublished), which addressed a
conviction for possession of a dangerous drug without a
prescription under Section 483.041 and did not mention
Section 481.117. See Doc. 19, Mem. & Recom. Dated July
19, 2016 p. 13.
51

52

Id. p. 15.

53

See Doc. 21, Defs. Eder & Ng’s Objs.; Doc. 22, Pl.’s

Objs.

See Doc. 25, Pl.’s Opposed Mot. for Leave to File a
2d Am. Compl.
54

104a
motion, the court had not yet entered a scheduling
order. Plaintiff sought leave to amend her complaint
to add the following allegations: (1) that Defendant
Officers knew or should have known that Plaintiff and
another resident possessed valid prescriptions for the
pills found in the residence; (2) that Defendant
Officers did not inquire whether Plaintiff had a
prescription; (3) that Defendant Fort Bend had a
policy, practice, procedure, custom, or training which
permitted its officers to conduct an arrest inside a
home without first discerning whether an individual
had a prescription for the substance(s) found; (4) that
Defendants’ position on the possession of a valid
prescription
as
an
affirmative
defense
is
unconstitutional and was the moving force behind
Plaintiff’s arrest; and (5) that Defendant Officers did
not inform her of the charge for possession of a
controlled substance in a school zone. 55 Plaintiff
sought to make a few other modifications to her
complaint but proposed no changes to the privacy or
failure-to-protect claim. 56
On August 31, 2016, the district judge adopted
the Memorandum and Recommendation, effectively
dismissing the privacy and failure- to-protect claims
as legally insufficient and the claims against
Defendant Fort Bend as factually insufficient. 57 On
September 16, 2016, two days after Plaintiff’s motion
for leave to amend was submitted to the court
pursuant to Local Rule 7.3, the court granted
55

See id. pp. 1-2.

56

See id.

57

See Doc. 26, Ord. Dated Aug. 31, 2016.

105a
Plaintiff’s motion for leave to amend. 58
Federal Rule of Civil Procedure 15(a)(2), which
applies in the absence of a scheduling order, advises
the court grant leave freely “when justice so requires.”
Here, justice required leave be granted because,
despite the recommendation and its adoption,
Plaintiff filed for leave while the undersigned’s
recommendation was pending before the district court
and sought to rectify the pleading deficiencies upon
which Defendant Fort Bend’s motion had been
granted. At the time, the case was in its nascent
stages.
As the court granted Plaintiff’s motion for leave
to amend with no exceptions, the court allowed
Plaintiff to make all of the changes requested in her
motion, including the additional factual allegations
against Defendant Fort Bend. 59 That is, the court
found the amended allegations regarding Defendant
Fort Bend’s policy or custom to be sufficient to state a
claim against Defendant Fort Bend, thus reinstating
the county as a defendant. In contrast, Plaintiff did
not seek leave to amend the privacy and failure-toprotect claims, which were dismissed on legal
58

See Doc. 29, Ord. Dated Sept. 16, 2016.

See id. No final judgment was requested or entered
on behalf of Defendant Fort Bend prior to the court’s
granting of leave to amend. Federal Rule of Civil Procedure
54(b) states that, absent a final judgment, any order “that
adjudicates fewer than all the claims or the rights and
liabilities of fewer than all the parties does not end the
action as to any of the claims or parties and may be revised
at any time before the entry of a judgment adjudicating all
the claims and all the parties’ rights and liabilities.”
59

106a
grounds. Those claims could not have been remedied
through additional factual detail (had Plaintiff offered
any) and were not revived by the court’s order
granting leave to amend. 60
After amendment, Plaintiff’s pleading raised
the following causes of action: (1) Fourth Amendment
unreasonable seizure of her person (count 1); and (2)
Fourth Amendment unreasonable seizure of her
property (count 2). With regard to these claims,
Plaintiff alleged that Defendant Fort Bend had “a
policy, procedure, custom, practice, or protocol of
inadequately
training,
supervising,
and/or
disciplining its officers” and could be expected to
violate Fourth Amendment rights by taking:
the unconstitutional official position that its
officers need not establish the sine qua non of
a criminal offense (in this case, the lack of a
prescription);
instead,
Defendants
unconstitutionally believe that said element
is an affirmative defense which may be
disregarded by officers in the field when they
seek to determine probable cause. 61
Plaintiff asserted that Defendant Fort Bend “created
In count 3, Plaintiff alleged violations of a right to
privacy with regard to Plaintiff’s prescription medication
inside her home, and, in counts 4- 6, Plaintiff alleged
violations of a right to protection from unreasonable
seizure inside her home, from unreasonable seizure of her
papers and effects inside her home, and from unreasonable
intrusions into her privacy. See Doc. 30, Pl.’s 2d Am.
Compl. pp. 17-31.
60

61

Id. pp. 31-32 (emphasis omitted).

107a
an extremely high risk that constitutional violations
would ensue from its failures to inform its peace
officers . . . of their relevant constitutional duties.” 62
Defendant Fort Bend did not file an answer to
Plaintiff’s Second Amended Complaint. 63
On September 21, 2016, Defendants Baker and
Dale filed an answer to the amended complaint,
asserting twenty-two defenses. 64 The also “reurge[d]
and incorporate[d] . . . by reference their previously
This onefiled [j]oint [m]otion to [d]ismiss.” 65
sentence motion to dismiss fails to challenge the
sufficiency of the additional facts alleged, to explain
how the amendments affect the causes of action
alleged against them, or to raise any new arguments
for dismissal. Absent new, applicable arguments for
dismissal, the court finds that this one-sentence effort
is not a legitimate motion to dismiss that requires
the court’s consideration. It is therefore stricken from
the record.
On September 30, 2016, Defendants Eder and
Ng filed an amended answer, asserting three

62

Id. p. 34.

Without discussing the legal effect of the court’s
order granting leave to amend, Defendants Baker & Dale
repeatedly stated in their answer that Defendant Fort
Bend had been dismissed. See, e.g., Doc. 32, Defs. Baker &
Dale’s Ans. to Pl.’s 2d Am. Compl. pp. 10, 15, 24.
63

See Doc. 32, Defs. Baker & Dale’s Ans. to Pl.’s 2d
Am. Compl. pp. 1-8.
64

65

Id. pp. 1-2 (emphasis omitted).

108a
defenses. 66 Shortly thereafter, the court held a
scheduling conference, and among the deadlines set
were October 28, 2016, for amending pleadings and
April 21, 2017, for filing dispositive and nondispositive
motions. 67
On April 21, 2017, Defendants Eder and Ng
jointly filed a motion for summary judgment, as did
Defendants Baker and Dale. 68 In addition to filing a
timely response, Plaintiff filed a motion to exclude
summary judgment evidence, specifically, the expert
report of Kurt Sistrunk (“Sistrunk”), which both pairs
of Defendant Officers cited in their motions for
summary judgment. 69
On May 22, 2017, while the briefing continued
on the motions for summary judgment, Plaintiff filed
a motion for leave to amend her claim a third time. 70
Plaintiff filed the motion based on testimony obtained
through discovery suggesting that Defendant Fort
See Doc. 33, Defs. Eder & Ng’s Ans. to Pl.’s 2d Am.
Compl. pp. 1-2.
66

See Doc. 34, Min. Entry Ord. Dated Oct. 4, 2016;
Doc. 35, Docket Control Ord. Dated Oct. 4, 2016.
67

See Doc. 38, Defs. Eder & Ng’s Mot. for Summ. J.;
Doc. 39, Defs. Baker & Dale’s Mot. for Summ. J.
68

See Doc. 38-2, Ex. 2 to Defs. Eder & Ng’s Mot. for
Summ. J., Report of Sistrunk; Doc. 39-3, Ex. 3-A to Defs.
Baker & Dale’s Mot. for Summ. J., Report of Sistrunk; Doc.
40, Pl.’s Mot. to Exclude Defs.’ Summ. J. Evid.; Doc. 41, Pl.’s
Consol. Resp. to Def. Officers’ Mots. for Summ. J.
69

See Doc. 42, Pl.’s Opposed Mot. for Leave to File an
Amended Complaint.
70

109a
Bend intentionally maintained a policy of treating a
prescription for a controlled substance as an
“affirmative defense[] to a crime (which can be ignored
by both officers in the field and the State).” 71 Plaintiff
sought to amend her complaint to reassert claims
against Defendant Fort Bend, which she agreed had
been dismissed months earlier. 72
Plaintiff cited evidence and statements from
Defendant Officers’ motions for summary judgment in
support of her allegation that Defendant Fort Bend’s
policy was to consider possession of a prescription to
be an affirmative defense. 73 As the motion was filed
months after the court’s deadline for amending
pleadings, Plaintiff argued that leave to amend should
be freely given upon a showing of good cause. 74
Plaintiff argued that, in her Second Amended
Complaint, she had made “a good faith allegation that
Defendant Fort Bend County was subject to [imputed]
liability,” but she “could neither have guessed nor
responsibly alleged that Defendants’ purported
authority to arrest Plaintiff was the county- wide
application of a facially inapplicable statute and said
statu[t]e is not listed in any charging instrument.” 75
In her motion, Plaintiff presented a lengthy discussion

71

Id. p. 1.

72

See id. p. 2.

73

See id. pp. 2-7.

74

See id. p. 7.

75

Id. p. 8.

110a
of the factors routinely considered in determining
whether good cause for amendment exists. 76
As discussed above, the court previously
granted Plaintiff leave to amend in order to add
factual allegations that Defendant Fort Bend
maintained a policy or tolerated a custom of allowing
arrests for possession of controlled substances without
determining whether the arrestees possessed the
relevant prescriptions. That theory was the primary
point of Plaintiff’s earlier motion for leave to amend,
and Plaintiff’s Second Amended Complaint contains
sufficiently detailed allegations to put Defendant Fort
Bend on notice as to the nature of Plaintiff’s claim of
imputed liability. The evidence Plaintiff has amassed
in support of her theory of county liability becomes
relevant at the summary-judgment stage of this
action, not at the pleading stage.
To repeat, Plaintiff’s Second Amended
Complaint is sufficient to establish a claim against
Defendant Fort Bend based on its policy or custom of
shifting an element of the relevant possession crime
to the defendant in the form of an affirmative defense.
Because she was able to sufficiently plead the same
factual basis for the claim against Defendant Fort
Bend in August 2016, her assertion that she did not
have a basis to make the allegation until discovery
simply rings untrue. As a result, the court finds that
Plaintiff fails to establish good cause for amending,
and her motion must be denied. 77
76

See id. pp. 7-21.

To be clear, the court finds the amendment
unnecessary because Plaintiff’s Second Amended
Complaint is the live pleading, which alleges constitutional
claims against Defendant Fort Bend pursuant to the same

77

111a
The parties completed discovery earlier this year,
and Defendant Officers filed motions for summary
judgment, which are fully briefed. Before addressing
those motions, the court considers Plaintiff’s motion to
exclude the expert testimony of Sistrunk.
II.

Plaintiff’s Motion to Exclude Summary
Judgment Evidence

This motion targets the expert report of Kurt
Sistrunk. Plaintiff argues that the report: (1) presents
an improper legal opinion; (2) is irrelevant; (3) draws
prejudicial conclusions from the evidence; (4) is not
based on reliable principles, methods, or application
to the facts; (5) is inadmissible under Federal Rule of
Evidence 403 because it either will mislead or confuse
the jury or will be cumulative of the court’s
instructions; and (6) contains hearsay. Defendants
argue that it is an untimely filed Daubert 78 motion.
An expert’s opinion is admissible in evidence if
the expert’s knowledge will help the jury understand
the evidence and the opinion “is based on sufficient
facts or data,” “reliable principles and methods,” and
the reliable application of “the principles and methods
to the facts of the case.” Fed. R. Evid. 702. In addition
to launching one clear Daubert challenge to Sistrunk’s
report, Plaintiff adds several other challenges
pursuant to the Federal Rules of Evidence. Plaintiff
cites Daubert in her motion but, in her reply, offers a
rather confusing non-Daubert description of the
motion: “[I]t is designedly a motion to exclude for the
theory as in her proposed amendment.
78

(1993).

Daubert v. Merrell Dow Pharm., Inc., 509 U.S. 579

112a
purposes of summary judgment evidence so that
Plaintiff can wield it as evidence against Fort Bend
County.” 79
Plaintiff’s alternative description
fails to
avoid the obvious—that the motion is an untimely
filed Daubert motion.
The deadline for filing
nondispositive motions was April 21, 2017. 80 Plaintiff
filed this motion on May 12, 2017. 81 Plaintiff’s spends
little effort toward showing good cause for missing the
deadline. She argues in her reply that Plaintiff’s
counsel did not and could not have fully
comprehended “the nature of Defendants’ argument
invoking Texas Health and Safety Code § 483.001[,]
et[] seq. . . .until after Defendants filed their motions
for summary judgment.” 82 This statement does not
come close to satisfying Federal Rule of Civil
Procedure
16’s
good
cause
requirement.
Importantly, no evidence indicates that
Plaintiff was charged under the provisions of
Chapter 483 of the Texas Health and Safety
Code, and, as explained in a subsequent section,
possession of alprazolam and hydrocodone does not
fall within that statute’s coverage.
Plaintiff’s motion to exclude is untimely and

Doc. 48, Pl.’s Consol. Reply to Defs.’ Resps. to Pl.’s
Mot. to Exclude Summ. J. Evid. p. 1.

79

80

See Doc. 35, Docket Control Ord. Dated Oct. 4, 2016.

81

See Doc. 40, Pl.’s Mot. to Exclude Defs.’ Summ. J.

Evid.

See Doc. 48, Pl.’s Consol. Reply to Defs.’ Resps. to
Pl.’s Mot. to Exclude Summ. J. Evid. p. 2.
82

113a
must be stricken.
III.

Defendant Officers’ Motions for
Summary Judgment

Defendants Eder and Ng argue that the
evidence fails to show that they violated Plaintiff’s
constitutional rights or that they are not entitled to
qualified immunity. Specifically, they argue that
Defendant Eder arrested Plaintiff with probable
cause, that Defendant Ng did not arrest Plaintiff, and
that no evidence supports the allegation that they
seized currency from Plaintiff.
Defendants Baker and Dale argue that the
evidence shows that they were not personally involved
in the constitutional violations alleged by Plaintiff.
They specifically contend that they had no knowledge
whether valid prescriptions covered the alprazolam
and hydrocodone pills, that they did not influence the
grand jury or withhold information from the grand
jury, and that they did not seize the currency.
Plaintiff responds that Defendant Eder did not
have probable cause to arrest her and that the other
Defendant Officers permitted Defendant Eder to
arrest her without probable cause. She also contends
that she was not asked whether she possessed a
prescription for the pills, that she was not notified of
the charge on which her arrest was based, and that
the grand jury’s indictment was not based on all
relevant facts.
The admissibility of certain evidence is
disputed. After outlining the applicable law, the court
addresses the evidentiary issues before turning to the
merits of Defendant Officers’ dispositive motions.

114a
A.

Applicable Law

Procedural and substantive law guide the
court’s review of the pending dispositive motions.
1.

Summary Judgment

Summary judgment is warranted when the
evidence reveals that no genuine dispute exists
regarding any material fact and the moving party is
entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(a); Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986); Stauffer v. Gearhart, 741 F.3d 574, 581 (5th
Cir. 2014). A material fact is a fact that is identified
by applicable substantive law as critical to the
outcome of the suit. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986); Ameristar Jet Charter, Inc.
v. Signal Composites, Inc., 271 F.3d 624, 626 (5th Cir.
2001). To be genuine, the dispute regarding a material
fact must be supported by evidence such that a
reasonable jury could resolve the issue in favor of
either party. See Royal v. CCC & R Tres Arboles,
L.L.C., 736 F.3d 396, 400 (5th Cir. 2013)(quoting
Anderson, 477 U.S. at 248).
The movant must inform the court of the basis
for the summary judgment motion and must point to
relevant excerpts from pleadings, depositions,
answers to interrogatories, admissions, or affidavits
that demonstrate the absence of genuine factual
issues. Celotex Corp., 477 U.S. at 323; Topalian v.
Ehrman, 954 F.2d 1125, 1131 (5th Cir. 1992). The
movant may meet this burden by demonstrating an
absence of evidence in support of one or more elements
of the case for which the nonmovant bears the burden
of proof. See Celotex Corp., 477 U.S. at 322; Exxon

115a
Corp. v. Oxxford Clothes, Inc., 109 F.3d 1070, 1074
(5th Cir. 1997). If the movant carries its burden, the
nonmovant may not rest on the allegations or denials
in the pleading but must respond with evidence
showing a genuine factual dispute. Stauffer, 741 F.3d
at 581 (citing Hathaway v. Bazany, 507 F.3d 312, 319
(5th Cir. 2007)).
2.

Section
1983
Amendment

and

Fourth

In order to prevail on a claim under Section
1983, 83 a plaintiff must establish that the defendant
deprived the plaintiff of her constitutional rights
while acting under the color of state law. Moody v.
Farrell, 868 F.3d 348, 351 (5th Cir. 2017).
Government officials have qualified immunity
from Section 1983 “liability for civil damages insofar
as their conduct does not violate clearly established
statutory or constitutional rights of which a

83

The provision reads, in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State . . . , subjects, or causes to be subjected, any
citizen of the United States or other person within
the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other
proper proceeding for redress . . . .

42 U.S.C. § 1983.

116a
reasonable person would have known.” Pearson v.
Callahan, 555 U.S. 223, 231 (2009)(quoting Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982)). Qualified
immunity protects an officer even for reasonable
mistakes in judgment. See id. (quoting Groh v.
Ramirez, 540 U.S. 551, 567 (2004))(“The protection of
qualified immunity applies regardless of whether the
government official’s error is ‘a mistake of law, a
mistake of fact, or a mistake based on mixed questions
of law and fact.’”); Ashcroft v. Al-Kidd, 563 U.S. 731,
743 (2011)(“Qualified immunity gives government
officials breathing room to make reasonable but
mistaken judgments about open legal questions.”).
By invoking qualified immunity, a summary
judgment movant shifts the burden to the nonmovant
to rebut the movant’s assertion. Cantrell v. City of
Murphy, 666 F.3d 911, 918 (5th Cir. 2012). In order
to overcome an assertion of qualified immunity, a
plaintiff must produce evidence that the alleged
conduct violated a statutory or constitutional right
and that the right was clearly established at the time
of the challenged conduct.See Morgan v. Swanson,
659 F.3d 359, 371 (5th Cir. 2011). The Supreme Court
held that the order in which these two considerations
are addressed is at the court’s discretion. See
Pearson, 555 U.S. 818-21.
Plaintiff’s remaining claims of unreasonable
seizures of person and property arise pursuant to the
protections of the Fourth Amendment. The Fourth
Amendment, 84 applied to state actors through the
84

The full text of the Fourth Amendment is:
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no

117a
Fourteenth Amendment, protects “[t]he right of the
people to be secure in their persons, houses, papers,
and effects, against unreasonable searches and
seizures.”
U.S. Const. amend. IV. Reasonableness
is the ultimate measure of the constitutionality of a
seizure of person or property. See Trent v. Wade,
776 F.3d 368, 377 (5th Cir. 2015)(internal quotation
marks omitted)(quoting Fernandez v. California, 134
S.Ct. 1126, 1132 (2014)).
A warrantless arrest must be supported by
“probable cause to believe that a criminal offense has
been or is being committed.” Devenpeck v. Alford, 543
U.S. 146, 152 (2004). The standard for the existence
of probable cause is an objective one requiring that the
officer draw a reasonable conclusion from the facts
available to him at the time of the arrest. Id.; see also
Blackwell v. Barton, 34 F.3d 298, 303 (5th Cir.
1994)(stating that probable cause exists if a
reasonable person, based on the facts available at the
time, would believe that an offense has been
committed and that the individual being arrested is
the guilty party).
A warrantless seizure of evidence in plain view
is reasonable when the officer is legally in the location
from which he viewed the item seized and the
“incriminating nature of the item [is] immediately
apparent.” United States v. Turner, 839 F.3d 429, 433
(5th Cir. 2016)(quoting Horton v. California, 496 U.S.
128, 136 (1990), and Arizona v. Hicks, 480 U.S. 321,
326 (1987)). “The incriminating nature of an item is
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons
or things to be seized.

118a
immediately apparent if the officers have probable
cause to believe that the item is either evidence of a
crime or contraband.” Id. (quoting United States v.
Buchanan, 70 F.3d 818, 826 (5th Cir. 1995)). Probable
cause as it relates to seizure of evidence requires that
the officer determine the existence of a “practical,
nontechnical probability that incriminating evidence
is involved.” Id. (quoting United States v. Espinoza,
826 F.2d 317, 319 (5th Cir. 1987)).
These constitutional standards were clearly
established at the time of Plaintiff’s arrest, which
leaves the court only to consider whether Plaintiff
produced sufficient evidence that Defendant Officers’
conduct violated Plaintiff’s constitutional rights to be
free from unreasonable arrests and seizures.
B.

Discussion on Evidentiary Issues

A party must support its factual positions on
summary judgment by citing to particular evidence in
the record. Fed. R. Civ. P. 56(c)(1). An affidavit or
declaration is competent summary judgment evidence
if it is based “on personal knowledge, set[s] out facts
that would be admissible in evidence, and show[s] that
the affiant or declarant is competent to testify on the
matters stated.” Fed. R. Civ. P. 56(c)(4). Conclusory
allegations, unsubstantiated assertions, improbable
inferences, and speculation are not competent
evidence. Roach v. Allstate Indem. Co., 476 F. App’x
778, 780 (5th Cir. 2012) (unpublished)(citing S.E.C. v.
Recile, 10 F.3d 1093, 1097 (5th Cir. 1993)).
Federal Rule of Civil Procedure 56(c)(2) allows
a movant to object to exhibits that contain material
that “cannot be presented in a form that would be
admissible in evidence” under the Federal Rules of

119a
Evidence. Cf. Lee v. Offshore Logistical & Transp.,
L.L.C., 859 F.3d 353, 355 (5th Cir. 2017)(explaining
that the rule seeks “[t]o avoid the use of materials that
lack authenticity or violate other evidentiary rules”).
The proponent of the challenged exhibit must prove
admissibility. See id. (quoting Fed. R. Civ. P. 56,
Advisory Comm. Notes, 2010 Amendment, as stating
that the proponent may show that the exhibit is
admissible as presented or that it can be presented in
admissible form). The trial court has discretion to
determine whether “to admit or exclude evidence.” See
MCI Comm’ns Servs., Inc. v. Hagan, 641 F.3d 112, 117
(5th Cir. 2011)(stating that the standard of review for
evidentiary decisions is abuse of discretion).
Only relevant evidence is admissible. Fed. R.
Evid. 402. Relevant evidence has a “tendency to make
a fact more or less probable than it would be without
the evidence” and relates to a fact “of consequence in
determining the action.” Fed. R. Evid. 401. Relevant
evidence may be excluded “if its probative value is
substantially outweighed by a danger of . . . unfair
prejudice, confusing the issues, misleading the jury,
undue delay, wasting time, or needlessly presenting
cumulative evidence.” Fed. R. Evid. 403.
Hearsay is not admissible evidence. Fed. R.
Evid. 802. Hearsay is a statement, not made while
testifying in the current litigation, that is offered for
“the truth of the matter asserted in the statement.”
Fed. R. Evid. 801. The Federal Rules of Evidence list
twenty-nine exceptions to the rule against hearsay.
Fed. R. Evid. 803-804, 807.

120a
1.

Plaintiff’s Objections

Plaintiff objects to statements in the
declarations of Defendants Eder and Ng and the
affidavits of Defendants Baker and Dale. Plaintiff also
challenges the admissibility of the grand jury
indictment, the search and arrest warrants, and
Defendant Eder’s Offense Report. 85
Plaintiff contends that evidence related to the
following topics is irrelevant and/or more prejudicial
than valuable: (1) Defendant Officers’ licensure and
training; (2) the investigation into Sherman Jones,
Plaintiff’s husband, including information regarding
the confidential informant and cocaine sales; (3) the
arrest and search warrants; (4) the grand jury
indictment; (5) the guidance of prosecutors and judges
on the interpretation of the criminal law on which
Defendant Eder relied; and (6) any searches
performed by Defendant Officers for prescription
bottles or labels. The grand jury indictment and the
searches for prescription bottles go to the key issue of
whether probable cause existed to support Plaintiff’s
arrest.
The other topics are
more
tangentially
relevant but, at the very least, provide background
and/or provide insight into the course of events.
None of the above topics is more prejudicial
than valuable with the possible exception of the
Defendants Eder and Ng withdrew Defendant
Eder’s Offense Report as an exhibit, mooting all of
Plaintiff’s objections thereto. See Doc. 43, Defs. Eder &
Ng’s Objs. & Reply to Pl.’s Resp. to Defs.’ Mot. for Summ.
J. p. 7.
85

121a
details of the investigation into Sherman Jones, which
provides the justification for the search of Plaintiff’s
residence. That investigation is unrelated to her
arrest and the seizure of the alprazolam and
hydrocodone pills. That said, the court is not
prejudiced by the information on summary judgment
and will leave consideration of what evidence should
be presented at trial to the trial judge. These
objections are overruled.
Plaintiff objects to statements on other topics
made by Defendants Baker and Dale in their
affidavits: (1) details of the execution of the search
warrant, including interaction with the children
present, the discovery of the alprazolam and
hydrocodone pills, and other evidence found; (2) their
lack of involvement in the transportation of Plaintiff
to the jail or any other interaction with her; (3)
discussion of the criminal classification of the pills
found; (4) their opinions on whether the arrest was
reasonable and whether they legally carried out their
duties. The details of the execution of the search
warrant are relevant to the legality of Plaintiff’s
arrest. Defendants Baker and Dale’s lack of contact
with Plaintiff is relevant to whether they played any
role in arresting her, and their opinions on the
reasonableness and legality of Defendant Officers’
actions speak to qualified immunity. The other
statements factually meet the liberal relevance
standard in that they provide background and
context. These objections are overruled. Plaintiff
complains that the Defendant Officers’ statements
about the nonparty officer’s discovery of the pills and
the identification of those pills with the assistance of
a poison control center amounted to hearsay, of which
they lacked personal knowledge. Plaintiff continues

122a
this line of objections to the conclusion that no
evidence exists to prove that an alprazolam was found
in Plaintiff’s bedroom. This is an absurd argument in
light of the absence of a dispute about either the
discovery of the alprazolam or the identification of the
types of pills found. Plaintiff alleged in her complaint
that Defendant Officers “found one and a half
prescription pills,” that she “was the ultimate user of
the hydrocodone on her nightstand,” and that her
“father was the ultimate user of the alprazolam seized
by Defendant [Officers].” 86 These objections are
overruled.
Plaintiff objects to several statements in
Defendants Baker’s and Dale’s affidavits as offering
inadmissible legal conclusions, in part, because they
were not identified as experts. One of the statements
expresses the opinion that a reasonable officer would
not have believed that the arrest was unconstitutional
based on the facts and circumstances facing
Defendant Eder. Another of the challenged
statements concludes that the officers were legally in
the home and the alprazolam and hydrocodone pills
were in plain view. The third discusses the criminal
statute regarding possession of controlled substances.
In fact, Defendants Baker and Dale did identify
themselves as non-retained experts. 87 These
statements, to the extent that they are legal
conclusions are within these officers’ expert
knowledge. These objections are overruled.
Several statements are inadmissible. Both
86

See Doc. 30, Pl.’s 2d Am. Compl. pp. 8, 10.

See Doc. 37, Defs. Baker & Dale’s Designation of
Expert Witnesses pp.
87

123a
Defendants Baker and Dale stated in their affidavits
that, in their experiences, “local criminals, upon being
made aware of a law enforcement raid having been
made upon a suspected drug house, will often break
into that house as soon as possible after law
enforcement leaves the scene, in order to search for
any leftover weapons, money, and/or drugs.” 88 That
opinion is speculative, as are the remaining
statements of similar effect in their affidavits
regarding what they believe happened to the $600
that Plaintiff alleged was seized from her home.
Additionally, Defendants Baker and Dale made
statements in their affidavits about Plaintiff’s
deposition testimony regarding the extent of her
knowledge of her husband’s involvement in drug
activity.
They have no personal knowledge of that
topic. Finally, Defendants Eder and Ng both stated
that they do not believe that any law enforcement
officer seized the $600. These statements are also
speculative. These objections
are sustained.
2.

Defendants Eder and Ng’s Objection

Defendants Eder and Ng object to Plaintiff’s
Exhibit C, the medical note pertaining to James
Jackson’s visit to an emergency room that included a
prescription for alprazolam. Plaintiff cites this
prescription as proof that her father possessed a
prescription for the partial pill found in her bedroom

Doc. 39-1, Ex. To Defs. Baker & Dale’s Mot. for
Summ. J., Aff. of Def. Dale ¶ 42; Doc. 39-2, Ex. 2 to Defs.
Baker & Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶ 42.

88

124a
during the search. 89 The note, which is supported by a
business records affidavit, passes the lenient test for
relevance in that it arguably has a slight tendency to
make more probable than not that Plaintiff’s father
(assuming her father’s name is James Jackson) had a
prescription for alprazolam. Defendants Eder & Ng’s
objection is overruled.
C.

Discussion on Summary Judgment Issues

The remaining causes of action are based on the
seizure of Plaintiff’s person by arrest and the seizure
of $600 in currency and the alprazolam and
hydrocodone pills.
1.

Arrest

Defendant Eder, as the arresting officer, is in a
different position vis-à-vis liability than the other
Defendant Officers. The court first addresses the
evidence against him.
a.

Defendant Eder

Defendant Eder argues that Texas Health and
Safety Code § 483.041 (“Section 483.041”) applies to
Plaintiff’s arrest and that the only element of the
crime is possession of a dangerous drug. 90 Section
See Doc. 41, Pl.’s Consol. Resp. to Def. Officers’
Mots. for Summ. J. pp. 2, 15.
89

See Doc. 38, Defs. Eder & Ng’s Mot. for Summ. J. p.
7 (citing Texas Health and Safety Code § 483.071, which
states that exceptions, excuses, provisos, and exemptions
90

125a
483.041(a) reads:
A person commits an offense if
the
person
possesses
a
dangerous drug unless the
person obtains the drug from a
pharmacist acting in the
manner described by Section
483.042(a)(1) or a practitioner
acting in the manner described
by Section 483.042(a)(2).
“Dangerous drug” is defined as “a device or a drug that
is unsafe for self-medication and that is not included
in Schedules I through V or Penalty Groups 1 through
4 of Chapter 481 (Texas Controlled Substances Act).”
Tex. Health & Safety Code § 483.001(2). As previously
noted by the court, the parties do not dispute that
alprazolam and hydrocodone are in Penalty Group 3. 91
See Texas Health & Safety Code § 481.104(a)(2),(4).
As they are in Penalty Group 3, alprazolam and
hydrocodone do not fall within the coverage of Section
483.041(a). Accordingly, Section 483.041(a) cannot
justify Plaintiff’s arrest for possession of alprazolam
and hydrocodone.
Moreover, no evidence indicates that Plaintiff
need not be negated by the State. Defendants Baker and
Dale, on the other hand, testified that Section 481.117
applied to the pills found in Plaintiff’s residence. See Doc.
39-1, Ex. 1 to Defs. Baker & Dale’s Mot. for Summ. J., Aff.
of Def. Dale ¶¶ 30-31; Doc. 39-2, Ex. 2 to Defs. Baker &
Dale’s Mot. for Summ. J., Aff. of Def. Baker ¶¶ 30-31.
91

12.

See Doc. 19, Mem. & Recom. Dated July 19, 2016 p.

126a
was arrested pursuant to Section 483.041(a) or that
the grand jury considered that provision. The evidence
is undisputed that Plaintiff was charged under
Section 481.117(a). As this court found in its prior
memorandum, that statute, properly interpreted,
prohibits possession of a controlled substance without
a prescription, not merely the possession of the
controlled substance. 92
Plaintiff does not dispute that the presence of
the controlled substances in her shared bedroom
arguably gave rise to probable cause that she jointly
possessed the pills. 93 The key issue is whether
Defendant Eder had reason to find probable cause
that Plaintiff did not have prescriptions at the time of
the arrest. Critical to Defendant Eder’s probable
cause assessment was whether any facts in his
possession showed probable cause to believe that
Plaintiff did not possess prescriptions for alprazolam
and hydrocodone.
The undisputed evidence is that Defendant
Eder did not inquire whether Plaintiff had a
prescription for either medication; nor did he notify
her of the charge against her, much less explain that
it involved the two pills found in her bedroom. 94 The
See Doc. 19, Mem. & Recom. Dated July 19, 2016 p.
15 (citing Burnett, 488 S.W.3d at 920, as stating that,
although the State had represented that it was illegal to
carry pills outside of their prescription containers, the
court could find no such law).
92

She also does not contend that probable cause was
lacking with regard to possession within 1,000 feet of a
school.

93

94

Defendant Eder’s Offense Report stated that, after

127a
only investigation into the existence of prescriptions,
according to the evidence, was Defendants Eder and
Ng’s fruitless search for labels and/or containers for
the pills. 95 Defendant Eder admitted that he had no
actual knowledge whether Plaintiff had any
prescription, stating that neither Plaintiff nor anyone
else gave him that information. 96 Viewing the
evidence most favorably to Plaintiff as the court must,
she had no opportunity to provide that information or
any reason to believe that Defendant Eder needed
that information.
To compound matters, Defendant Eder
admitted that he had filed several cases based on his
understanding that Texas law allowed him “to arrest
a person who[m] [he] found possessing hydrocodone or
alprazolam that was not kept in the prescription
being transported to the jail, Plaintiff and her husband
declined to make a statement about “the narcotics located
inside their residence.” Doc. 38-13, Ex. 13 to Defs. Eder &
Ng’s Mot. for Summ. J., Offense Rep. Defendants Eder and
Ng withdrew this report from the summary judgment
evidence. See Doc. 43, Defs. Eder & Ng’s Objs. & Reply to
Pl.’s Resp. to Defs.’ Mot. for Summ. J. p. 7. The court finds
no evidence that even suggests Defendant Eder spoke with
Plaintiff about the alprazolam and hydrocodone before
arresting her.
The court questions whether the plain-view
discovery of the alprazolam and hydrocodone pills
authorized Defendants Eder and Ng to perform a
warrantless search for prescription labels and pill
containers.

95

Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for Summ.
J., Decl. of Def. Eder ¶ 11.

96

128a
bottle in which it was dispensed that identified the
individual the drug was prescribed for and delivered
to.” 97
No
doubt,
Defendant
Eder’s
clear
misinterpretation of Texas law clouded his
investigation and probable cause assessment.
Regardless, the question is whether a reasonable
person in Defendant Eder’s position would have
believed, at the time of the arrest, that probable cause
existed to find that Plaintiff possessed alprazolam and
hydrocodone without prescriptions, that is, probable
cause that she was committing a crime. See
Devenpeck, 543 U.S. at 152 (stating that probable
cause must be judged on the information known at the
time of the seizure); Blackwell, 34 F.3d at 303 (stating
that probable cause is based on the facts available at
the time).
The evidence known to Defendant Eder at the
time he arrested Plaintiff was only that: (1) one and
one-half pills in Penalty Group 3 were in a small dish
on the windowsill in a bedroom Plaintiff shared with
her husband in their residence; (2) the warrants
justifying Defendant Eder’s presence in the residence
were based on an investigation into illegal sales of
crack cocaine (not alprazolam or hydrocodone); and (3)
no prescription information was found in the
residence. The court finds that a reasonable jury could
conclude that these facts are insufficient to establish
even arguable probable cause to believe that a
criminal offense was being committed. A jury must
make that determination, considering the small
quantity of commonly prescribed controlled
substances found outside of their prescription bottle
Doc. 38-3, Ex. 3 to Defs. Eder & Ng’s Mot. for Summ.
J., Decl. of Def. Eder ¶¶ 8-9.

97

129a
by the bedside, the failure to inquire about
prescriptions, and the lack of a connection between
the suspected illegal activity and the pills.
Even if Defendant Eder lacked probable cause,
the grand jury indictment could break the chain of
causation on his liability. Under the independent
intermediary doctrine, an officer cannot be held liable
when a grand jury hears all of the facts supporting the
warrant and finds probable cause. See Buehler v. City
of Austin/Austin Police Dep’t, 824 F.3d 548, 554 (5th
Cir. 2016)(quoting Hand v. Gary, 838 F.2d 1420, 1427
(5th Cir. 1988)).
This court previously found that, taking
Plaintiff’s allegations as true, if information regarding
the existence of valid prescriptions had been
presented to the grand jury, the true bill would not
have issued. 98 The evidence now before the court
suggests that Plaintiff possessed a prescription for the
hydrocodone, and her father, who occasionally lived in
Plaintiff’s residence, possessed a prescription for the
alprazolam. The court cannot guess what the grand
jury may have decided if presented with that evidence,
but other evidence suggests that the grand jury was
given no instruction about prescriptions, including
that a crime was committed only if they were lacking.
Under such circumstances, it cannot be said that the
grand jury received all of the relevant facts or
instruction on the relevant law. Accordingly, the
independent intermediary doctrine does not apply to
protect Defendant Eder from liability.
An officer who is mistaken about the law may
still be entitled to qualified immunity; however, the
mistake must be a reasonable one. See Al-Kidd, 563
98

Doc. 19, Mem. & Recom. Dated July 19, 2016 p. 10.

130a
U.S. at 743. In this case, Defendant Eder was
mistaken about the interpretation of Section
481.117(a) in that he misunderstood that, in order to
justify Plaintiff’s arrest, he needed probable cause to
believe that Plaintiff did not possess prescriptions for
the alprazolam and hydrocodone. Thus, his
entitlement to qualified immunity depends on
whether his interpretation of that statute was
reasonable.
Defendant Eder offered the testimony of
Sistrunk as evidence of a reasonable interpretation of
Section 483.041, a statute this court has found both
legally and factually inapplicable to Plaintiff’s arrest.
Sistrunk’s testimony, therefore, does not support a
finding
that
Defendant
Eder
reasonably
misinterpreted Section 481.117(a). In fact, the court
has determined that the text of Section 481.117(a)
leaves no debate that the crime of possession of a
controlled substance is committed, not by possession
alone, but by possession without a prescription. The
testimony of the other Defendant Officers may
support a finding of reasonableness but their
testimony cannot justify qualified immunity when the
correct interpretation is so plainly apparent on the
face of the statute.
Fact questions remain both as to whether a
reasonable person in Defendant Eder’s position would
have determined that probable cause justified
Plaintiff’s arrest (constitutionality determination)
and as to whether Defendant Eder’s misinterpretation
of the law supporting the arrest was reasonable
(qualified-immunity determination).

131a
b.

Defendants Baker, Dale, and Ng

The evidence here is unequivocal on the
identity of the arresting officer. Defendant Officers
stated under oath that Defendant Eder arrested
Plaintiff based only on his own assessment of probable
cause. Plaintiff produced no evidence contradicting
this conclusion. No evidence suggests that Defendant
Eder requested or received any input from any of the
other Defendant Officers or even places the other
Defendant Officers in proximity to Plaintiff and
Defendant Eder at the time of Plaintiff’s arrest.
Absent personal involvement in any aspect of
Plaintiff’s arrest, Defendants Baker, Dale, and Ng
cannot be held liable, even if Defendant Eder lacked
probable cause.
Plaintiff contends that, although they had no
personal involvement, Defendants Baker and Dale
admitted that they assumed a supervisory role at the
scene. Plaintiff argues that they are therefore subject
to supervisory liability as a matter of law and liable
under Section 1983 because they allowed Defendant
Eder to arrest Plaintiff under inapplicable law. 99
Plaintiff misunderstands supervisory liability.
Supervisors cannot be held liable merely on a theory
of vicarious liability; they must have affirmatively
participated in the unconstitutional conduct by failing
to supervise or train in a way that led to the violation
of the plaintiff’s rights and demonstrated deliberate
indifference to those rights. See Roberts v. City of
The court notes again that no evidence suggests
that Defendant Eder arrested Plaintiff under any law other
than Section 481.117(a). The “inapplicable law” to which
Plaintiff refers is Section 483.041(a), which was raised as
part of Defendant Eder’s after-the-fact legal arguments.

99

132a
Shreveport, 397 F.3d 287, 292 (5th Cir. 2005). As
previously stated, Plaintiff points to no evidence of
Defendants Baker and Dale’s participation in
Plaintiff’s arrest and makes no allegation that their
supervisory activities led to the alleged constitutional
violation.
With regard to their supervisory roles, Plaintiff
also raises the theory of liability based on failure to
protect. The court previously found that Plaintiff
failed to assert a plausible substantive due process
claim against Defendants Baker, Dale, and Ng for
failure to protect Plaintiff from the allegedly unlawful
arrest. 100 Plaintiff’s argument in opposition to
summary
judgment simply restates this doomed
claim.
Although Plaintiff did not plead her claims
against Defendants Baker, Dale, and Ng pursuant to
the theory of bystander liability, she cites cases
discussing bystander liability in a footnote of her
response in support of the assertion that the failure to
protect amounts to personal involvement. 101
“[A]n officer may be liable under [Section] 1983
under a theory of bystander liability where the officer
(1) knows that a fellow officer is violating an
individual’s constitutional rights; (2) has a reasonable
opportunity to prevent the harm; and (3) chooses not
to act.” Whitley v. Hanna, 726 F.3d 631, 646 (5th Cir.
2013)(internal quotation marks omitted)(quoting
100

19.

Doc. 19, Mem. & Recom. Dated July 19, 2016 pp. 17-

See Doc. 41, Pl.’s Consol. Resp. to Def. Officers’
Mots. for Summ. J. p. 22 n.74.
101

133a
Randall v. Prince George’s Cty., Md., 302 F.3d 188,
204 (4th Cir. 2002)). To be liable, the officer must
have been present when constitutional violation
occurred and must have acquiesced in its
perpetration. See id.
The evidence fails to demonstrate that
Defendants Baker, Dale, and Ng knew that Defendant
Eder was violating Plaintiff’s constitutional rights
but, rather, indicates that they believed he was not.
Plaintiff points to no evidence that Defendant Eder
consulted the other Defendant Officers, that they were
in the immediate vicinity at the time of the arrest, or
that they acquiesced in any affirmative way to her
arrest.
Plaintiff’s Fourth Amendment claims of an
unconstitutional arrest against Defendants Baker,
Dale, and Ng cannot survive summary judgment.
2.

Seizure of Property

Plaintiff’s unconstitutional seizure of property
concerns the seizure of the alprazolam and
hydrocodone pills and disappearance of $600.
As the court previously held, the warrant did
not authorize the seizure of the alprazolam and
hydrocodone pills. 102 The constitutionality of the
seizure therefore rests on whether the circumstances
See Doc. 19, Mem. & Recom. Dated July 19, 2016 p.
12. The court questions whether Defendant Eder had the
authority to seize the pills under the plain-view doctrine.
Under the court’s interpretation of Section 481.117(a), the
alprazolam and hydrocodone pills were only incriminating
if possessed without a prescription.
102

134a
gave rise to “probable cause to believe that the item
[was] either evidence of a crime or contraband.”
Turner, 839 F.3d at 433. That determination rests in
turn on whether Defendant Eder had probable cause
to believe that Plaintiff was committing the criminal
offense of possession of a controlled substance.
As
discussed
above
regarding
the
constitutionality of Plaintiff’s arrest, a fact issue
precludes the court’s deciding the matter of whether
Defendant Eder had probable cause to believe that
Plaintiff was committing a crime. Therefore, the court
also cannot decide whether the seizure of the pills was
constitutional without first allowing the jury to do its
job.
An interesting point is that Plaintiff did not sue
the officer responsible for collecting and seizing the
evidence.
However, as Defendant Eder made the
decision to arrest Plaintiff, he may be constitutionally
liable if the seizure of the pills was not supported by
probable cause. The evidence does not suggest that
Defendants Baker, Dale, and Ng were involved to any
degree in the seizure of the pills or, as explained
above, the underlying arrest.
Plaintiff’s claim of unreasonable seizure of
the pills survives summary judgment, but only
against Defendant Eder. Regarding Plaintiff’s claim
that Defendant Officers seized $600 in currency,
Plaintiff testified that it disappeared from a shirt
pocket in her closet on the day of the search. The
evidence indicates that it was not seized pursuant to
the search warrant as it was not listed on the
inventory that was returned to the court. Defendant
Officers also deny that they “seized” the currency and
make no argument that probable cause existed for the
seizure of that money. Nevertheless, Plaintiff’s

135a
testimony regarding the disappearance of the $600
raises a fact question whether Defendant Officers
were responsible for the disappearance of the funds
during their search of the residence. If so, their
actions clearly violated Plaintiff’s constitutional right
to be free from unreasonable seizures. The jury will
have to resolve this dispute.
This claim survives summary judgment in its
entirety.
IV.

Conclusion

Based
on
the
foregoing,
the
court
RECOMMENDS that Defendants Eder and Ng’s
motion be GRANTED IN PART AND DENIED IN
PART and Defendants Baker and Dale’s motion be
GRANTED IN PART AND DENIED IN PART. The
court DENIES Plaintiff’s motion for leave to amend
and STRIKES Plaintiff’s motion to exclude.
The following claims must proceed to trial:
Plaintiff’s claims against Defendant Eder for
unconstitutional seizures of her person, her pills, and
her currency; Plaintiff’s claim against Defendants
Baker, Dale, and Ng for unconstitutional seizure of
Plaintiff’s currency; and Plaintiff’s policy claim
against Defendant Fort Bend for unconstitutional
seizures of her person and her pills. 103
The Clerk shall send copies of this
Memorandum, Recommendation, and Order to the
respective parties who have fourteen days from the
Plaintiff made no allegation and produced no
evidence of a policy or widespread custom of officers’ taking
currency without probable cause from the scenes of arrests.
103

136a
receipt thereof to file written objections thereto
pursuant to Federal Rule of Civil Procedure 72(b) and
General Order 2002-13. Failure to file written
objections within the time period mentioned shall bar
an aggrieved party from attacking the factual findings
and legal conclusions on appeal.
The original of any written objections shall be
filed with the United States District Clerk
electronically. Copies of such objections shall be
mailed to opposing parties and to the chambers of the
undersigned, 515 Rusk, Suite 7019, Houston, Texas
77002.
SIGNED in Houston, Texas, this 8th day of
January, 2018.
[handwritten signature]
U.S. MAGISTRATE JUDGE

137a
Appendix G
[Filed July 19, 2016]
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
STEPHANIE JONES,

§
§
Plaintiff,
§
§
v.
§
§
JEREMY EDER, J. DALE §
B. BAKER, R. NG,
§
and FORT BEND
§
COUNTY
§

CIVIL ACTION
NO. H-15-2919

MEMORANDUM AND RECOMMENDATION
Pending before the court 1 are Defendants
Jeremy Eder (“Eder”), Raymond Ng (“Ng”), and Fort
Bend County (“Fort Bend”) and Defendants J. Dale
(“Dale”) and B. Baker’s (“Baker”) Motions to Dismiss
(Docs. No. 7, 15, 17). The court has considered the
motions, the responses, and the applicable law. For
the
reasons
set
forth
below,
the
court
This case was referred to the undersigned
magistrate judge pursuant to 28 U.S.C. § 636(b)(1)(A) and
(B), the Cost and Delay Reduction Plan under the Civil
Justice Reform Act, and Federal Rule of Civil Procedure
72. Doc. 11.
1

138a
RECOMMENDS that Defendants’ motions
GRANTED IN PART and DENIED IN PART.
I.

be

Case Background

Plaintiff filed this civil rights action against a
police officer, three Fort Bend deputies, and Fort Bend
for violating Plaintiff’s constitutional rights. The
allegations arise out of Plaintiff’s arrest following the
search of her home subsequent to a search warrant.
A.

Factual History

The following factual account is derived from
Plaintiff’s live complaint.
Plaintiff and her family reside in Rosenberg,
Texas. 2 Defendant Eder, a City of Rosenberg police
officer, signed an affidavit based on his alleged
knowledge of illegal activity at the home, and the
240th District Court of Fort Bend County issued a
search warrant for a search of Plaintiff’s home. 3 The
search warrant authorized officers to search and seize
cocaine and contraband as described in the affidavit. 4
On the morning of January 31, 2014, Eder and
the other defendant officers executed the warrant,
holding Plaintiff and her children, aged eleven and
twelve, at gunpoint. 5 The officers found one-and-onehalf pills outside of their prescription containers: one
hydrocodone pill on Plaintiff’s nightstand and half of
See Doc. 8, Pl.’s Am. Compl. p. 6.
See id.
4 See id. p. 6; Doc. 7-1, Ex. 1 to Def. Eder’s Mot. to
Dismiss, Search Warrant signed Jan. 29, 2014.
5 See Doc. 8, Pl.’s Am. Compl. pp. 6-7.
2
3

139a
a single alprazolam (“Xanax”) pill somewhere in the
home, as well as six- hundred dollars in cash. 6 At the
time of the search, Plaintiff had a valid prescription
for hydrocodone, and her father, who lived in the
home, but was not present during the search, had a
valid prescription for Xanax. 7 The prescription
information for both the hydrocodone and Xanax were
located in the home at the time of the search. 8 Plaintiff
was arrested and charged with felony possession of
controlled substances within a school zone. 9 The
seizure of the six hundred dollars was not recorded by
the officers. 10
Although Plaintiff was indicted by a grand jury,
her case was dismissed due to insufficient evidence on
October 20, 2014. 11 At the time this lawsuit was filed,
Plaintiff had not recovered either the pills or the
money seized during the search. 12
II.
B.

Legal Standard

Procedural History

Plaintiff filed her complaint on October 15,
2015, alleging unreasonable search and seizure of her
property in violation of the Fourth and Fourteenth
Amendments to the United States Constitution
See id. p. 7. Plaintiff’s complaint states only that
she was “not in possession” of the Xanax pill, but does not
state where the pill was found. See id. p. 7.
7
See id. pp. 7, 9.
8
See id. p. 12.
9
See id.
10
See id. p. 7.
11
See id. p. 8.
12
See id. p. 7.
6

140a
pursuant to 42 U.S.C. § 1983 (“Section 1983”). 13 On
November 2, 2015, Defendant Eder filed a motion to
dismiss. 14 Plaintiff filed an amended complaint on
November 23, 2015, adding claims that Defendant
officers failed to protect Plaintiff’s right to privacy and
arrested her without probable cause and that Fort
Bend failed to train its officers. 15 Eder filed a
supplemental brief arguing that Plaintiff’s amended
complaint still failed to state a claim for relief on
December 2, 2015. 16 Plaintiff filed a response to Eder’s
motion on December 20, 2015. 17
On February 24, 2016, Defendant Ng filed a
motion to dismiss. 18 Plaintiff filed a response on
March 16, 2016. 19 On April 11, 2016, Defendants Fort
Bend, Dale, and Baker filed a motion to dismiss. 20
Plaintiff filed a response on May 2, 2016. 21
A. Dismissal Standard
Pursuant to Federal Rule of Civil Procedure
(“Rule”) 12(b)(6), dismissal of an action is appropriate
whenever the complaint, on its face, fails to state a
claim upon which relief can be granted. When
considering a motion to dismiss, the court should
See Doc. 1, Pl.’s Compl.
See Doc. 7, Def. Eder’s Mot. to Dismiss.
15
See Doc. 8, Pl.’s Am. Compl.
16
See Doc. 9, Suppl. to Def. Eder’s Mot. to Dismiss.
17
See Doc. 10, Pl’s Resp. to Def. Eder’s Mot. to
Dismiss.
18
See Doc. 15, Def. Ng’s Mot. to Dismiss.
19
See Doc. 16, Pl.’s Resp. to Def. Ng’s Mot. to
Dismiss.
20
See Doc. 17, Defs.’ Mot. to Dismiss.
21
See Doc. 18, Pl.’s Resp. to Defs.’ Mot. to Dismiss.
13
14

141a
construe the allegations in the complaint favorably to
the pleader and accept as true all well-pleaded facts.
Sullivan v. Leor Energy, LLC, 600 F.3d 542, 546 (5th
Cir. 2010).
A complaint need not contain “detailed factual
allegations” but must include sufficient facts to
indicate the plausibility of the claims asserted, raising
the “right to relief above the speculative level.” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007); see
also Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Plausibility means that the factual content “allows the
court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Iqbal,
556 U.S. at 678. A plaintiff must provide “more than
labels and conclusions” or “a formulaic recitation of
the elements of a cause of action.” Twombly, 550 U.S.
at 555. In other words, the factual allegations must
allow for an inference of “more than a sheer possibility
that a defendant has acted unlawfully.” Iqbal, 556
U.S. at 678.
B. Qualified Immunity
“[G]overnment
officials
performing
discretionary functions generally are shielded from
liability for civil damages insofar as their conduct does
not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.” Harlow v. Fitzgerald, 457 U.S.
800, 818 (1982); Gentilello v. Rege, 627 F.3d 540, 547
(5th Cir. 2010) (finding qualified immunity applied in
a suit brought by a professor against university
supervisors).
While qualified immunity is an affirmative
defense, a plaintiff “has the burden to negate the

142a
assertion of qualified immunity once properly raised.”
Collier v. Montgomery, 569 F.3d 214, 217 (5th Cir.
2009). A plaintiff can meet this burden by alleging
facts showing that the defendant committed a
constitutional violation and that the defendant’s
actions were objectively unreasonable in light of the
clearly established law at the time those actions were
taken. Atteberry v. Nocono General Hosp., 430 F.3d
245, 253 (5th Cir. 2005). The Fifth Circuit has stated
that upon an assertion of qualified immunity, a
plaintiff must meet a heightened pleading standard to
explain why the defendant cannot maintain the
defense. Schultea v. Wood, 47 F.3d 1427, 1433-34 (5th
Cir. 1995).
III.

Analysis

Defendants move to dismiss all of Plaintiff’s
claims. Defendants argue that Plaintiff fails to state a
claim under either the Fourth or Fourteenth
Amendment. Defendant officers assert that qualified
immunity protects them from any liability. Defendant
Fort Bend contends that Plaintiff has failed to allege
any plausible facts that show there is a custom or
policy which could have been the moving force behind
any constitutional violation. Defendants Baker and
Dale additionally argue that Plaintiff’s complaint fails
to state any personal involvement against them. The
court considers Defendants’ arguments in turn.
A.

Section 1983 Standard
A plaintiff can establish a prima facie case

143a
under Section 1983 22 for the deprivation of civil rights
by establishing: (1) a violation of a federal
constitutional or statutory right; and (2) that the
violation was committed by an individual acting under
the color of state law. Doe v. Rains Cty. Indep. Sch.
Dist., 66 F.3d 1402, 1406 (5th Cir. 1995). The statute
creates no substantive rights but instead provides
remedies for deprivations of rights created under
federal law. Graham v. Connor, 490 U.S. 386, 393-94
(1989).
“A municipality is liable only for acts directly
attributable to it through some official action or
imprimatur.” Valle v. City of Houston, 613 F.3d 536,
541 (5th Cir. 2010) (citation omitted). To establish
municipal liability under Section 1983, a plaintiff
must prove three elements: “1) a policymaker; 2) an
official policy; and 3) a violation of constitutional
rights whose moving force is the policy or custom.”
Zarnow v. City of Wichita Falls, 614 F.3d 161, 166 (5th
Cir. 2010). A local government may be sued under
Section 1983 “if it is alleged to have caused a
constitutional tort through a policy statement,
22

The provision reads, in relevant part:

Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State . .
. , subjects, or causes to be subjected, any citizen of the
United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall
be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress . . .
42 U.S.C. § 1983.

144a
ordinance, regulations, or decision officially adopted
and promulgated by that body’s officers.” Id. (quoting
City of St. Louis v. Praprotnik, 485 U.S. 112, 121
(1988) (plurality opinion)). “Alternatively, official
policy is a persistent, widespread practice of city
officials or employees, which, although not authorized
by officially adopted and promulgated policy, is so
common and well settled as to constitute a custom
that fairly represents municipal policy.” Brown v.
Bryan Cty., Okla., 219 F.3d 450, 457 (5th Cir. 2000).
B.

Fourth Amendment Liability

Plaintiff argues that Defendants violated her
Fourth Amendment rights by wrongfully arresting for
possession of a controlled substance after finding two
legally prescribed pills outside of their prescribed
containers in her residence. Defendants respond that
they are entitled to qualified immunity because they
found the pills pursuant to a search warrant. They
further argue that a grand jury indictment
independently establishes probable cause, and
therefore probable cause necessarily existed when the
officers found pills outside their prescribed containers.
The Fourth Amendment states that “no
warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.” U.S. Const. amend. IV. “Probable
cause exists where the facts and circumstances within
the officer’s knowledge at the time of the arrest ‘are
sufficient for a reasonable person to conclude that the
suspect had committed or was committing an
offense.’” Freeman v. Gore, 483 F.3d 404, 413 (5th Cir.
2007) (quoting United States v. Levine, 80 F.3d 129,

145a
132 (5th Cir. 1996)). “[P]robable cause is a fluid
concept—turning on the assessment of probabilities in
particular factual contexts—not readily, or even
usefully, reduced to a neat set of legal rules.” Fields v.
City of South Houston, 922 F.2d 1183, 1189 (5th Cir.
1991) (quoting Illinois v. Gates, 462 U.S. 213, 232
(1983)); see also Levine, 80 F.3d at 132 (“The presence
of probable cause is a mixed question of fact and law”).
A grand jury indictment is usually sufficient to
establish probable cause. See Gerstein v. Pugh, 420
U.S. 103, 117 (1975). When facts supporting an arrest
“are placed before an independent intermediary such
as a magistrate or grand jury, the intermediary's
decision breaks the chain of causation for false arrest,
insulating the initiating party.” Cuadra v. Houston
Indep. Sch. Dist., 626 F.3d 808, 813 (5th Cir. 2010).
The chain of causation remains intact, however, if “it
can be shown that the deliberations of that
intermediary were in some way tainted by the actions
of the defendant.” Hand v. Gary, 838 F.2d 1420, 1428
(5th Cir. 1988). In other words, “the chain of causation
is broken only where all the facts are presented to the
grand jury, where the malicious motive of the law
enforcement officials does not lead them to withhold
any relevant information from the independent
intermediary....” Id. at 1427–28.
Defendants argue that probable cause existed
because Plaintiff was indicted by a grand jury, noting
that the eventual dismissal was “without prejudice to
refile.” Plaintiff responds that a grand jury indictment
breaks the chain of causation only when all the
evidence is presented to a grand jury. Plaintiff argues
that if Defendant officers had included all information
in their reports and in their grand jury testimony, no
reasonable grand jury would have indicted her for

146a
possession of a prescription medication that she had a
legal right to possess.
In their motion to dismiss, Defendants have
provided a copy of the grand jury indictment, along
with notice that the charges were subsequently
dismissed for insufficient evidence. Accepting
Plaintiff’s well-pleaded allegations as true, the court
agrees that if all relevant facts were presented to a
grand jury, namely, that Plaintiff and her father had
valid prescriptions for the prescription medications in
her home at the time of the search, that a grand jury
would not have indicted her. The Fifth Circuit has
held that officers may not rely on qualified immunity
when they deliberately conceal exculpatory evidence.
Hernandez v. Terrones, 397 F. App’x 954, 965 (5th Cir.
2010) (unpublished) (quoting Geter v. Fortenberry,
849 F.2d 1550, 1162 (5th Cir. 1989) for the proposition
that an officer may not willfully ignore exculpatory
evidence). Based on the complaint’s allegations,
Defendants are not entitled to qualified immunity at
this time. See Basler v. Barron, 2016 WL 1672573, *4
(S.D. Tex. Apr. 27, 2016) (holding that allegation of
withheld information was sufficient to deny qualified
immunity in Rule 12(b)(6) context).
Defendants next argue that the officers are
entitled to qualified immunity because the complaint
concedes that the seizure of the pills and Plaintiff’s
subsequent arrest were pursuant to a valid search
warrant. The parties disagree whether the search
warrant authorized the seizure of the prescription
medication as Defendants characterize the pills as
“illegal drugs” found during a legal search and
Plaintiff argues that her possession of the pills was

147a
legal. 23
The warrant authorized officers to seize cocaine
and “any illicit contraband” as described in the
affidavit. 24 The affidavit, in turn, describes
contraband
including
equipment,
currency,
25
Defendants argue that
telephones, and firearms.
the pills were “illegal drugs” based on Section 481.117
of the Texas Health and Safety Code and that
probable cause for Plaintiff’s arrest was therefore
“necessarily extant.”
The court does not agree. Section 481.117(a)
states that:
Except as authorized by this chapter, a
person commits an offense if the person
knowingly or intentionally possesses a
controlled substance listed in Penalty
Group 3, unless the person obtains the
substance directly from or under a valid
prescription or order of a practitioner
acting in the course of professional
practice.
Tex. Health & Safety Code § 481.117(a). The parties
do not dispute that Xanax and hydrocodone are
included in Penalty Group 3. See Tex. Health & Safety
Code § 481.117(a)(2), (4) (listing “alprazolam” and
“dihydrocodeinone”). But, by the statute’s language,
See Doc. 7, Def. Eder’s Mot. to Dismiss p. 4; Doc. 15,
Def. Ng’s Mot. to Dismiss p. 4; Doc. 17, Defs.’ Mot. to
Dismiss p. 11.
24
See Doc. 7-1, Ex. 1 to Def. Eder’s Mot. to Dismiss,
Search Warrant signed Jan. 29, 2014.
25
See Ex. 7-1, Doc. 7-1, Ex. 1 to Def. Eder’s Mot. to
Dismiss, Aff. of Def. Eder pp. 2-3.
23

148a
hydrocodone and Xanax are not “illegal drugs” when
they are obtained by valid prescriptions. See Tex.
Health & Safety Code § 481.117(a). Nor are they
“contraband” as defined by the warrant.
Finding that seizure of prescription medication
was not included in the warrant, the court must
consider whether qualified immunity nonetheless
applies to Plaintiff’s arrest. The issue to be decided is
whether Plaintiff has alleged that Defendants’ actions
were objectively unreasonable in light of the clearly
established law at the time of their action. See
Atteberry, 430 F.3d at 253.
“[A] warrantless arrest by a law officer is
reasonable under the Fourth Amendment where there
is probable cause to believe that a criminal offense has
been or is being committed.” Devenpeck v. Alford, 543
U.S. 146, 152 (2004). “[I]f a reasonable officer could
have concluded that there was probable cause upon
the facts then available to him, qualified immunity
will apply.” Brown v. Lyford, 243 F.3d 185, 190 (5th
Cir. 2001).
Defendants argue that the presence of any
controlled substance outside of its pharmacy-labeled
bottle is sufficient to establish probable cause to arrest
Plaintiff and in support cite the court to Kelly v. State,
2010 WL 1478907, at *1, 3-4 (Tex. App.–Beaumont
2010). There, the defendant challenged his conviction
for possession of a dangerous drug without a
prescription on the grounds of insufficient evidence,
claiming that he had a prescription for the drug. 26
There, the defendant was charged with violating
Texas Health and Safety Code §§ 483.041(a), and
483.042(2)(1), (2).
26

149a
The court first considered that the Texas
Health and Safety Code prohibits possession of a
controlled substance except as prescribed by a
licensed practitioner. Section 483.041(a) states, “A
person commits an offense if the person possesses a
dangerous drug unless the person obtains the drug
from a pharmacist acting in the manner described by
Section 483.042(a)(1) or a practitioner acting in the
manner described by Section 483.042(a)(2).”
Dovetailing with Section 481.117(a) quoted
above, Section 482.042 requires that any prescription
drug must have a label attached to the immediate
container in which the drug is delivered or offered to
be delivered to the ultimate consumer of the drug. Tex.
Health and Safety Code § 483.042(a)(1)(B).
Although Kelly testified that he had
prescriptions for the drugs seized from his person at
the time of his arrest, other facts suggested that his
possession of the medications was not legal. Kelly
could not produce an original prescription bottle for
any of the drugs found on his person and could not
recall the name of the prescribing physician or the
pharmacy that filled the prescriptions. Some pills
were found in several plastic bags stuffed in his boots;
some pills were commingled in an unlabeled pill bottle
also found in a boot. Kelly also falsely claimed to the
arresting officer that he had the pills because was
working undercover.
In light of this testimony, the court found that
the evidence was legally sufficient to sustain a verdict
for possession of dangerous drugs without a
prescription. Notably, the court did not hold that the
mere presence of a controlled substance outside of its
labeled container was sufficient to sustain a conviction
for this offense. Thus, Kelly does not provide the

150a
Defendant officers a reasonable basis to arrest
Plaintiff for possessing a controlled substance outside
of its pharmacy bottle.
Defendants next argue that although Plaintiff’s
complaint states that she held a prescription and was
the ultimate user of the hydrocodone and that her
father was the ultimate user of the Xanax, these are
affirmative defenses and therefore do not apply
Defendant officers’ probable cause determination.
However, as explained above, possession of a
controlled substance via a prescription is not a crime;
it is the possession of a controlled substance in the
absence of a prescription that is proscribed by the
statute. See Tex. Health & Safety Code § 481.117
(stating that a “person commits an offense . . . unless
the person obtains the substance directly from . . . a
valid prescription.”). See also Burnett v. State, 2016
WL 1723035 at *4 (Tex. App.–Eastland Apr. 29, 2016)
(stating that although the State had represented that
it was illegal to carry pills outside of their prescription
containers, the court could find no such law.)
Thus, the court cannot agree that an
individual’s valid prescription for a controlled
substance is an affirmative defense that may be
disregarded when an officer is assessing the legality
of possessing one hydrocodone pill found on a
nightstand in that person’s residence. 27
The court finds that Defendant officers are not
entitled to qualified immunity based on the
allegations
in
Plaintiff’s
complaint.
It
is
RECOMMENDED that Defendants’ motions to
If this were the case, then many citizens risk a
warrantless arrest for placing their prescribed
medications in a weekly pill container.
27

151a
dismiss Plaintiff’s Fourth Amendment claims be
DENIED at this time.
C.

Due Process Violation

Plaintiff additionally argues that Defendants
violated her Fourteenth Amendment right to privacy
concerning her storage of prescription medication and
that Defendants failed to protect her medical privacy
from unreasonable intrusions. Defendants respond
that Plaintiff has not stated a claim under the
Fourteenth Amendment because she cannot bring a
Fourteenth Amendment due process claim when her
claim was more properly brought under the Fourth
Amendment.
The Supreme Court has consistently held that
when a “more specific” provision exists, a
constitutional claim must be considered under the
provision, not the more general standard of traditional
due process. Cty. of Sacramento v. Lewis, 523 U.S.
833, 834-44 (1998); Albright v. Oliver, 510 U.S. 266,
273 (1994). The Fourth Amendment states that “the
right of the people to be secure in their persons,
houses, papers and effects against unreasonable
searches and seizures shall not be violated.” U.S.
Const. amend. IV.
Plaintiff responds that her claim is not based on
an unlawful arrest, which she admits would be
precluded by the Fourth Amendment, but is instead
based on Defendants’ violation of her Fourteenth
Amendment right to privacy. The court characterizes
this claim of a right to privacy as a substantive due
process claim as it relates to certain personal decisions
for her medical care.
In Whalen v. Roe, 429 U.S. 589 (1977), the

152a
Supreme Court recognized that the Fourteenth
Amendment’s substantive due process protection
covered both “the individual interest in avoiding
disclosure of personal matters,” and the “interest in
independence in making certain kinds of important
decisions.” Id. at 599. The Supreme Court has found
that the latter protection applies to personal decisions
“relating to marriage, procreation, contraception,
family relationships, child rearing, and education.”
Lawrence v. Texas, 539 U.S. 558, 573-74 (2003).
Plaintiff contends that she has a “clearly
established” Fourteenth Amendment right to privacy
concerning her storage and use of prescription
medication. Although Plaintiff avers that her right is
clearly established, the court can find no cases that
support the proposition that the government may not
invade a plaintiff’s privacy with regard to her storage
and use of medication. While there is a due process
right protecting the disclosure of an individual’s
prescription medication, there is no clearly
established analogous right protecting an individual’s
method of storage and use of the medication. See
Whalen, 429 U.S. at 599-600 (acknowledging the right
of privacy over the disclosure of personal matters).
The court accordingly RECOMMENDS that
Plaintiff’s substantive due process claim be
DISMISSED.
D.

Failure to Protect

Plaintiff alleges that Defendants failed to
protect her from an “unreasonably unlawful arrest,” a
substantive due process claim under the Fourteenth
Amendment. Defendants argue there are no
allegations of conduct that create a plausible claim

153a
based on the officers’ failure to protect Plaintiff.
Ordinarily, a state official has no constitutional
duty to protect an individual from private violence.
See DeShaney v. Winnebago Cty. Dep’t of Soc. Servs.,
489 U.S. 189, 197, (1989) (holding that state’s “failure
to protect an individual against private violence
simply does not constitute a violation of the Due
Process Clause”). In DeShaney, however, the Court
clarified that this general rule is not absolute: “in
certain limited circumstances the Constitution
imposes upon the State affirmative duties of care and
protection with respect to particular individuals.” Id.
at 198. When the state affirmatively acts to restrain
an individual's freedom to act on his own behalf
“through incarceration, institutionalization, or other
similar restraint of personal liberty,” the state creates
a “special relationship” between the individual and
the state which imposes upon the state a
constitutional duty to protect that individual from
dangers, including, in certain circumstances, private
violence. Id. at 200.
In addition to instances of a “special
relationship,” several courts have read the Court’s
opinion in DeShaney to suggest a second exception to
the general rule against state liability for private
violence. Several circuits have interpreted the
Supreme Court’s language in DeShaney to suggest
that state officials may have a duty to protect an
individual from injuries inflicted by a third party if the
state actor played an affirmative role in creating or
exacerbating a dangerous situation that led to the
individual’s injury. The Fifth Circuit, however, has
repeatedly stated that it does not recognize the “statecreated danger” theory of liability under DeShaney.
See Scanlan v. Texas A&M Univ., 343 F.3d 533, 537

154a
(5th Cir. 2003); Piotrowski v. City of Houston, 237
F.3d 567, 584 (5th Cir. 2001).
Here, Plaintiff alleges that Defendants failed to
protect her from an unreasonable arrest. Plaintiff does
not allege that any private violence occurred; she
instead argues that Defendants failed to protect
Plaintiff from being arrested by the officers
themselves. Although Defendants’ arrest of Plaintiff
creates a special relationship, Plaintiff does not assert
that she suffered any injury during or after her arrest.
To the extent that Plaintiff complains that her arrest
was unlawful, the “more specific provision” of the
Fourth Amendment, not the due process standard of
the Fourteenth Amendment, applies. See Cty. of
Sacramento, 523 at 834-44.
Plaintiff has not asserted a plausible claim that
Defendants failed to protect her from arrest. The court
accordingly RECOMMENDS that Plaintiff’s failure
to protect claim be DISMISSED.
E.

Fort Bend’s Motion to Dismiss

Defendant Fort Bend argues that Plaintiff
cannot maintain a claim against it based on a policy
or custom responsible for her alleged constitutional
violation. Plaintiff responds that she has pleaded a
viable failure-to-train claim against Fort Bend.
A county may be held liable under Section 1983
only for its own illegal acts, not pursuant to a theory
of vicarious liability. Connick v. Thompson,563 U.S.
51, 60 (2011). To succeed on a claim under Section
1983, a plaintiff must demonstrate that the county
“had some inadequate custom or policy that acted as
the moving force behind a constitutional violation.”
Forgan v. Howard Cty.,494 F.3d 518, 522 (5th Cir.

155a
2007)(citing Monell v. Dep't of Soc. Servs. of N.Y., 436
U.S. 658, 690-91 (1978)); see also Connick, 563 at 6061. “Official municipal policy includes the decisions of
a government’s lawmakers, the acts of its
policymaking officials, and practices so persistent and
widespread as to practically have the force of law.”
Connick, 563 at 61.
Courts have recognized that, under limited
circumstances, the failure to train or to supervise its
employees may give rise to local-government liability
under Section 1983. See id.; Zarnow, 614 F.3d at 16970 (5th Cir. 2010). In failure-to-train cases, a plaintiff
must prove: (1) the inadequacy of the procedures; (2)
the policymaker’s deliberate indifference; and (3)
causation. Zarnow, 614 F.3d at 170.
A local government can be held liable only when
its failure to train or to supervise amounted to
deliberate indifference to the constitutional rights of
its citizens. Connick, 131 S. Ct. at 1359 (quoting City
of Canton v. Harris, 489 U.S. 378, 388 (1989)). In order
to show deliberate indifference by the municipality, a
plaintiff must generally show a pattern of similar
constitutional violations by untrained employees.
Connick, 131 S. Ct. at 1359. To rely on a “single
incident” exception to the general rule, a “plaintiff
must prove that the ‘highly probable’ consequence of a
failure to train would result in the specific injury
suffered, and that the failure to train represents the
moving force behind the Constitutional violation.”
Estate of Davis ex rel. McCully v. City of N. Richland
Hills, 406 F.3d 375, 385-86 (5th Cir. 2005). To survive
a motion to dismiss, a plaintiff must allege either a
pattern of similar acts or that the highly probable
consequence of a failure to train would result in injury
to the plaintiff. Id. at 381-86.

156a
Where the question is not whether the officers
received any training in the constitutional
requirements, but whether the officers received
adequate training, a plaintiff cannot rely on proof that
additional training would have created a better officer
or would have reduced the likelihood of a
constitutional violation but must prove that the
“officers were so untrained as to be unaware” of
constitutional limitations. Pineda v. City of Houston,
291 F.3d 325, 333 (5th Cir. 2002); see also Canton, 489
U.S. at 391. The Supreme Court has cautioned, “A
municipality’s culpability for a deprivation of rights is
at its most tenuous where a claim turns on a failure to
train.” Connick, 131 S. Ct. at 1359.
However, this court has found that at the
motion to dismiss stage, a plaintiff “need not
specifically state what the policy is. . . but may be more
general.” Thomas v. City of Galveston, 800 Supp. 2d
826, 843 (S.D. Tex. 2011). A plaintiff must still
“provide fair notice to the defendant, and this requires
more than generically restating the elements of
municipal liability.”
Id. Such allegations could
include “past incidents of misconduct to others,
multiple harms that occurred to the plaintiff,
misconduct that occurred in the open, the involvement
of multiple officials in the misconduct, or the specific
topic of the challenged policy or training inadequacy.”
Id.
Here, Plaintiff argues that Fort Bend failed to
train its officers based on its failure to discipline
Defendant officers following Plaintiff’s arrest. Citing
the standard in Davis, Plaintiff states that Fort
Bend’s failure to train its officers was deliberately
indifferent to her constitutional rights despite highly
predictable dangers, and that the county’s failure was

157a
the moving force behind Defendant officers’ actions.
See Davis, 406 F.3d at 385. Fort Bend responds that
Plaintiff has failed to establish a policy or custom or a
policymaker and has not stated any constitutional
violation against Defendant.
Fort Bend is incorrect that Plaintiff has not
alleged a policymaker; Plaintiff specifically notes that
Fort Bend’s Sheriff or its Commissioner’s Court is the
final policymaker.
Fort Bend also argues that
Plaintiff fails to assert a policy or custom. Fort Bend
is correct that Plaintiff never explicitly states any
custom or policy that was the moving force behind the
alleged deprivation of her rights. In her response,
Plaintiff contends that her pleading, which alleges
that Fort Bend failed to train, discipline, or supervise
its officers in conformity with the Fourth and
Fourteenth Amendments is sufficient to state a policy.
The court disagrees.
In Plaintiff’s explanation of Fort Bend’s failure
to train, Plaintiff states that Fort Bend was
“deliberately indifferent” to Plaintiff’s constitutional
rights despite the “obvious, known, and highly
predictable” dangers of such failures. 28 Although
Plaintiff alleges via these statements that Fort Bend
was deliberately indifferent, Plaintiff does not allege
or explain how Fort Bend’s training policy was
inadequate. See Zarnow, 614 F.3d at 170. Absent an
allegation that the municipality’s training was
inadequate, Plaintiff cannot plead that any such
inadequate training actually caused her injury. See
id.; Almanza v. Salazar, 33 F. Supp. 3d 747, 753
(holding that even under the single- incident
exception, a plaintiff must allege inadequacies of
28

See Doc. 8, Pl.’s Am. Compl. p. 32.

158a
training with particularity and show that
inadequacies were moving force for actual injury).
Although Plaintiff is not required to raise
specific facts proving the existence of a policy,
Plaintiff’s vague allegations are insufficient to meet
the necessary standard to find a municipality liable
for the actions of individual officers. See Thomas, 800
F. Supp. 2d at 844-45; see also Harvey v. Montgomery
Cty., 881 F. Supp. 2d 785, 798 (S.D. Tex. 2012)
(holding that a plaintiff could not maintain a failure
to train claim against a municipality when officers
arrested and injured an individual without probable
cause).
Plaintiff also states that if the policymaker is
familiar with inadequate policies, he has ratified
Defendant officers’ conduct. The Fifth Circuit has
found that an authorized policymaker’s approval of a
subordinate’s decision may create a ratification
chargeable to the municipality. Peterson v. City of Ft.
Worth, 588 F.3d 838 (5th Cir. 2009). Such a claim may
only be based on “extreme factual situations.” Id.; see
also Snyder v. Trepagnier, 142 F.3d 791, 798 (5th Cir.
1998) (holding that an “extreme factual situation” did
not exist when police officer shot a fleeing suspect). A
“mere failure to investigate” a subordinate’s
discretionary decisions cannot support such a theory.
Milam v. City of San Antonio, 113 F. App’x 622, 62627 (5th Cir. 2004) (unpublished)(citing Praprotnik,
485 U.S. at 130).
Here, Plaintiff posits only that if Fort Bend’s
policymaker knew of the county’s deficient training,
then it ratified the officers’ conduct because
Defendant officers were not investigated by the county
for misconduct. Under Fifth Circuit precedent, this is
insufficient to maintain a ratification theory of

159a
liability.
Finding that Plaintiff has failed to state a claim
under either a policy or custom or a ratification of
Defendant officers’ conduct, the court accordingly
RECOMMENDS that Plaintiff’s claims against Fort
Bend be DISMISSED.
F.

Personal Involvement of Officers

Defendants Dale and Baker argue that the
claims against them should be dismissed because the
current pleadings fail to specify actual personal
involvement. Plaintiff responds that alleged that all
officers entered her home and arrested her without
probable cause.
Personal involvement is an essential element of
a civil rights case. Thompson v. Steele, 709 F.2d 381,
382 (5th Cir. 1983). Personal involvement limits a
supervisory official’s liability to situations where they
“affirmatively participate in acts that cause
constitutional deprivation” or when they “implement
unconstitutional policies that causally result in
plaintiff’s injury.” Mouille v. City of Live Oak, 977
F.2d 924, 929 (5th Cir. 1992).
Here, Plaintiff alleges that officers, including
Defendants Dale and Baker, physically entered her
home subject to a warrant, seized money without
reporting it, and arrested Plaintiff without probable
cause. Defendants are not supervisors and Plaintiff
has alleged specific acts sufficient to establish
personal involvement. Accordingly, the court
RECOMMENDS that Defendants Dale and Baker’s
motion be DENIED.

160a
IV. Conclusion
Based
on
the
foregoing,
the
court
RECOMMENDS that Defendants’ motions to
dismiss be GRANTED IN PART and DENIED IN
PART and that Defendant Fort Bend County be
DISMISSED.
The Clerk shall send copies of this Memorandum
and Recommendation to the respective parties who
have fourteen days from the receipt thereof to file
written objections thereto pursuant to Federal Rule of
Civil Procedure 72(b) and General Order 2002-13.
Failure to file written objections within the time
period mentioned shall bar an aggrieved party from
attacking the factual findings and legal conclusions on
appeal.
The original of any written objections shall be
filed with the United States District Clerk
electronically. Copies of such objections shall be
mailed to opposing parties and to the chambers of the
undersigned, 515 Rusk, Suite 7019, Houston, Texas
77002.
SIGNED in Houston, Texas, this 19th day of July,
2016.

[handwritten signature]
U.S. MAGISTRATE JUDGE

161a
APPENDIX H
[Filed December 12, 2019]
IN THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT
---------------No. 19-20223
---------------STEPHANIE JONES,
Plaintiff – Appellant
v.
JEREMY EDER, in his individual capacity; J. DALE,
in his individual capacity; B. BAKER, in his
individual capacity; R. NG, in his individual capacity;
FORT BEND COUNTY,
Defendants - Appellees
---------------Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:15-CV-2919
---------------ON PETITION FOR REHEARING EN BANC
(Opinion 10/02/2019 , 5 Cir.,

,

F.3d

)

162a
Before HIGGINBOTHAM, HO, and ENGELHARDT,
Circuit Judges.
PER CURIAM:
()

Treating the Petition for Rehearing En Banc
as a Petition for Panel Rehearing, the
Petition for Panel Rehearing is DENIED. No
member of the panel nor judge in regular
active service of the court having requested
that the court be polled on Rehearing En
Banc (FED. R. APP. P. and 5th CIR. R. 35), the
Petition for Rehearing En Banc is DENIED.

( )

Treating the Petition for Rehearing En Banc
as a Petition for Panel Rehearing, the
Petition for Panel Rehearing is DENIED.
The court having been polled at the request
of one of the members of the court and a
majority of the judges who are in regular
active service and not disqualified not having
voted in favor (FED. R. APP. P. and 5TH CIR.
R. 35), the Petition for Rehearing En Banc is
DENIED.

ENTERED FOR THE COURT:
____[handwritten signature]____
UNITED STATES CIRCUIT JUDGE

163a
Appendix I
[Filed April 21, 2017]
Defendants’, Ng and Eder,
Motion for Summary Judgment
[Excerpt]
17. The only elements necessary to support a criminal
charge are a person’s possession of a dangerous drug.
See TEX. HEALTH & SAFETY CODE § 483.071;
Swain v. Hutson, 2011 Tex. App. LEXIS 10078 **2931, 2011 WL 6415118 (Tex. App.—Fort Worth 2011,
no pet.); Kelly v. State, 2010 Tex. App. LEXIS 2573
**10-12; 2010 WL 1478907 (Tex. App.—Beaumont,
2010, no pet.). While having obtained the drug from a
pharmacist or a practitioner who dispensed the drug,
in a proper container with an appropriate label, to the
person who possessed it for his personal use is a
potential defense the possessor could raise in a
criminal prosecution, TEX. HEALTH & SAFETY
CODE §§ 483.041-483.042 and Kelly supra at *10, the
State – and therefore an investigating police officer is not obligated to even respond to the defense until
after it is affirmatively raised by a person accused of
illegally possessing a dangerous drug. TEX. HEALTH
& Safety Code § 483.071.
18. “The [criminal] defendant has the burden of
proving the exception, excuse, proviso, or exemption.”
TEX. HEALTH & SAFETY CODE § 483.071(b).
Stated differently, “[w]hile the possession of
dangerous drugs offense does not apply to drugs
obtained from either a pharmacist or a practitioner,
these exceptions are not prima facie elements of the

164a
offense.” Swain supra at *29. “Police officers can be
expected to have a modicum of knowledge regarding
the fundamental rights of citizens.” Saldana v. Garza,
at 1164, 1165 (5th Cir. 1982). “However, in holding our
law enforcement personnel to an objective standard of
behavior, [] judgment must be tempered with reason.”
Id. “Certainly (a court) cannot expect our police
officers to [possess] a legal scholar's expertise in
constitutional law.” Id. Any objective investigator on
the scene during the service of the search warrant
could reasonably have interpreted these Texas
statutes to authorize arresting Plaintiff.

165a
Appendix J
[Filed May 22, 2017]
Defendants’, Ng and Eder, Objections and
Reply to Plaintiff’s Response to Defendants’
Motion for Summary Judgment
[Excerpt]
12.
Moreover, it is a crime to possess any
prescription medication outside a pill container that
identifies the drug and who it was prescribed for, and
dispensed to, and it is a crime to possess a drug
prescribed to another person, so it would have been
immediately apparent to any objective officer that
reasonable suspicion existed to investigate further
and identify the precise type of drug found in plain
view. The testimony in ¶ 7 of Lieutenant Eder’s and
Investigator Ng’s declarations evidence that
Lieutenant
Eder,
thereafter,
contacted
a
representative of the poison control center who
confirmed identification of the drugs through a
common method for doing so. See Garcia v. State, 2012
Tex. App. LEXIS 2173, 2012 WL 983114 (Tex.App.—
San Antonio 2012, no pet.); State v. Beal, 2016 Tex.
Dist. LEXIS 32163, Cause No. 16-DCR-073233 (Tex.
Dist. Fort Bend County 2016). There is no evidence
the identification of the drugs is inaccurate or that
they were not recovered from the windowsill next to
Plaintiff’s bed. Accordingly, Plaintiff’s objections are
insupportable.
13.
Furthermore, even if Lieutenant Eder and the
drug expert from the poison control center had erred

166a
in identifying the drugs, such an error would not have
invalidated Lieutenant Eder’s or Investigator Ng’s
reasonable beliefs that probable cause existed to
arrest Plaintiff for illegally possession drugs.

167a
Appendix K
[Filed June 24, 2019]
Respondent Eder’s Brief to the
United States Court of Appeals
for the Fifth Circuit
[Excerpt]
“[T]he ultimate touchstone of the Fourth
Amendment is ‘reasonableness.’” Brigham City v.
Stuart, 547 U.S. 398, 403, 126 S. Ct. 1943 (2006). The
Supreme Court has explained that one of the
reasonable exceptions to a warrant requirement
“‘plain view’ is perhaps better understood … simply as
an extension of whatever the prior justification for an
officer’s ‘access to an object’ may be.” Texas v. Brown,
460 U.S. 730, 738-39, 103 S. Ct. 1535, 1541 (1983).
“The principle is grounded on the recognition that
when a police officer has observed an object in ‘plain
view,’ the owner’s remaining interests in the object are
merely those of possession and ownership.” Id.

